<html>
<title> - AMERICA'S NUCLEAR PAST: EXAMINING THE EFFECTS OF RADIATION IN INDIAN COUNTRY</title>
<body><pre>[Senate Hearing 116-94]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 116-94
 
 AMERICA'S NUCLEAR PAST: EXAMINING THE EFFECTS OF RADIATION IN INDIAN 
                                COUNTRY

=======================================================================

                             FIELD HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 7, 2019

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
 
 
 
 
                            ______
 
               U.S. GOVERNMENT PUBLISHING OFFICE 
 38-548 PDF             WASHINGTON : 2019


                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               JON TESTER, Montana,
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                CATHERINE CORTEZ MASTO, Nevada
MARTHA McSALLY, Arizona              TINA SMITH, Minnesota
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 7, 2019..................................     1
Statement of Senator Udall.......................................     1

                               Witnesses

Chavarria, Hon. J. Michael, Governor, Santa Clara Pueblo.........    46
    Prepared statement...........................................    48
Christensen, Loretta, Chief Medical Officer, Navajo Area Indian 
  Health Service.................................................    21
    Prepared statement...........................................    22
Cordova, Tina, Co-Founder, Tularosa Downwinders Consortium.......    57
    Prepared statement...........................................    60
Gray, David, Deputy Regional Administrator, U.S. Environmental 
  Protection Agency..............................................     8
    Prepared statement...........................................    10
Haaland, Hon. Deb, U.S. Representative From New Mexico...........     5
Harrison, Phil, Consult/Advocate, Navajo Uranium Radiation 
  Victims Committee..............................................    56
Lujan, Hon. Ben Ray, U.S. Representative From New Mexico.........     3
Nez, Hon. Jonathan, President, Navajo Nation.....................    39
    Prepared statement...........................................    42
O'Konski, Peter, Deputy Director, Office of Legacy Management, 
  U.S. Department of Energy......................................    17
    Prepared statement...........................................    18
Riley, Hon. Ryan, Council Representative, Pueblo of Laguna.......    50
    Prepared statement...........................................    52

                                Appendix

Benally, Jerry, President, Navajo Uranium Radiation Victims 
  Committee, prepared statement..................................    86
Sanchez, Kathy, Environmental Health and Justice Program Manager, 
  Tewa Women United, prepared statement..........................    84
Zuni, Hon. Max A., Governor, Pueblo of lsleta, prepared statement    77


 AMERICA'S NUCLEAR PAST: EXAMINING THE EFFECTS OF RADIATION IN INDIAN 
                                COUNTRY

                              ----------                              


                        MONDAY, OCTOBER 7, 2019


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                   Albuquerque, NM.
    The Committee met, pursuant to notice, at 10:45 a.m. at the 
Southwestern Indian Polytechnic Institute (SIPI) Auditorium, 
Hon. Tom Udall, Vice Chairman of the Committee, presiding.

             OPENING STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Good morning. Good morning, everyone. Good 
morning. Before we start the formal hearing, I would ask 
Governor Zuni to please come up here and give a prayer for us. 
Governor Zuni is with Isleta Pueblo.
    Mr. Zuni. Good morning.
    [Prayer.]
    Senator Udall. Governor Zuni, thank you very much for that 
prayer. It seems like you're everyplace. I was just with you 
two days ago, recognizing veterans down at Isleta Pueblo.
    So with that, let me call this hearing to order. Good 
morning, and welcome to Indian Country. I'm Tom Udall, and as 
the Vice Chairman of the Senate Committee on Indian Affairs, 
it's my pleasure to chair today's hearing in my home state of 
New Mexico. I look forward to a good discussion.
    But before we begin, let me cover a few housekeeping items. 
Today's hearing is an official Senate Committee hearing on the 
Senate Indian Affairs. It's a field hearing. The Committee will 
hear testimony from two panels of witnesses, and Members of 
Congress will ask questions of those witnesses.
    As an official Committee business meeting, the format for 
today's hearing is the same as the format we use for hearings 
in Washington. It's not a town hall, for example, where folks 
can speak out from the audience and ask questions. So while we 
are here to take testimony from our invited witnesses, anyone 
is welcome to submit written testimony that will be made part 
of the record for these proceedings. I invite you to e-mail 
your written submissions to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6115041215080c0e0f1821280f0508000f4f32040f0015044f060e174f">[email&#160;protected]</a> That's 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0a7e6f797e63676564734a43646e636b6424596f646b7e6f246d657c24">[email&#160;protected]</a> The official record will remain 
open for two weeks, until October 21st.
    Also, please feel free to talk to my staff or Chairman 
Hoeven's staff after the hearing with any questions. They are 
seated behind me and around the auditorium.
    And I'd like to thank the witnesses for being here, and for 
Congresswoman Deb Haaland and Congressman Ben Ray Lujan for 
joining us today. Both members are champions for their 
districts, for New Mexico, and for all of Indian Country. Thank 
you, Deb and Ben Ray, for being here.
    I also want to acknowledge New Mexico State Representative 
Harry Garcia, who represents the area where much of today's 
discussion takesplace, and is here today on behalf of his 
constituents.
    Congressman O'Halleran of Arizona, our bordering district 
over there, also has sent staff to observe today. Welcome to 
Congressman O'Halleran's staff.
    And finally, a special thanks to our host, to the Southwest 
Indian Polytechnic Institute for hosting us in their wonderful 
facilities, and for SIPI staff for working with us to pull 
together this hearing. I believe I talked to her a minute ago. 
President Allison is here in the audience.
    Today's hearing, entitled ``America's Nuclear Past: 
Examining the Effects of Radiation in Indian Country,'' is an 
opportunity for us to reflect on the unique history and legacy 
of the atomic age in Indian Country. Uranium mining played a 
key role in our country's development of its nuclear arsenal 
during the Cold War. Much of that mining took place in Indian 
Country here in New Mexico, Arizona, Utah, and across the West, 
exposing uranium mine workers to toxic levels of radiation in 
the process.
    My father, Stewart Udall, and I brought the stories of 
deceased Navajo uranium miners to light and sued on their 
behalf and their widows' forfair compensation from the federal 
government. In addition to the Navajo miners, countless others 
were unknowingly exposed to radiation, sacrificing their health 
and even their lives to the Cold War effort. Many of these 
downwinders, miners, and millers have long since passed. Others 
are still living with the effects of uranium contamination 
decades after the mining ceased. So I am working hard in 
Congress for legislation that would provide just treatment to 
victims of radiation exposure through amendments to the 
Radiation Exposure Compensation Act.
    Today's hearing is about understanding the past and 
remedying past wrongs. It is also a call to action for the 
present and future. Native Americans, in particular, have been 
disproportionately impacted by nuclear weapons development, 
testing, and uranium ore mining. For instance, Eight Northern 
Pueblos sit at the foothills of the Los Alamos National 
Laboratory. For generations, tribal members have worked at the 
Labs during the development of the first atomic bomb and to 
this day. Being in close proximity to highly toxic and 
radioactive materials has led many to experience serious health 
conditions linked to radiation exposure. And during the testing 
atTrinity, in southern New Mexico, and the Nevada Test Site, 
many tribal nations including the Mescalero Apache, Navajo, and 
Hopi were downwind of nuclear fallout, exposing their citizens, 
livestock, water, and food supply to dangerous radiation with 
little or no warning. Cancer, respiratory illness, and many 
other health problems soon followed and continue to this day.
    While these stories are tragic and must be told, I should 
acknowledge that the federal government has made some progress 
to make amends. Federal compensation laws like the Radiation 
Exposure Compensation Act and the Energy Employees Occupational 
Illness Compensation Program Act were passed and have been 
making payments and working with victims. Federal agencies like 
the Department of Energy Office of Legacy Management were 
established to clean up and maintain abandoned uranium mines 
and sites.
    However, much work remains. Thousands of abandoned uranium 
mines dot the western landscape, hundreds on the Navajo Nation 
alone, continuing to expose families to the ill effects of 
radiation, including kidney failure and cancer, conditions 
linked to uranium contamination. New research fromthe Centers 
for Disease Control report uranium in babies born even today.
    I vow to continue to fight for the Cold War victims of 
radiation exposure. I will continue to push my legislation to 
amend RECA to include post 1971 miners and the Trinity 
downwinders, and to ensure that the federal government lives up 
to its legal and fiduciary obligations to clean up and properly 
manage the abandoned mines and sites, to live up to its trust 
and treaty obligations to tribes, which is why we are holding 
this hearing today.
    I want to ensure accountability when it comes to cleanup 
and hear directly from the administration on what it is doing 
to address the legacy of uranium mining in Indian Country, and 
to hear from tribal leaders and stakeholders whose 
constituencies have been impacted.
    I'll conclude my opening statement by simply acknowledging 
how personal this issue is to me. I already mentioned that my 
father and I first began working with the widows of Navajo 
uranium miners in 1977, to fight for justice and government 
accountability. We sued the federal government on behalf of 
those widows to get the benefits theydeserved for the 
preventible deaths of their husbands working in the mines and 
for their years of suffering. The money would never make up for 
their loss, but it was the least we could do. We fought against 
the federal government's king-can-do-no- wrong ideology of 
sovereign immunity under the guise of national security, and 
reminded the Courts that the federal government has a trust and 
treaty obligation to Native Americans recognized by the Supreme 
Court.
    Well, we lost in the Supreme Court, but we persevered and 
were able to make some progress with respect to RECA. And we 
will continue to persevere. I will keep up the Udall family 
fight for justice for America's Cold War victims, and I look 
forward to today's testimony.
    Again, thank you to the witnesses for being here. And now, 
we will have opening statements by both Congressman Lujan and 
Congresswoman Deb Haaland. And then we will proceed with our 
witnesses.

               STATEMENT OF HON. BEN RAY LUJAN, 
              U.S. REPRESENTATIVE FROM NEW MEXICO

    Mr. Lujan. Mr. Chairman, thank you so very much, Senator 
Udall, for the work that you have done, the work that former 
Secretary of the Department of Interior Stewart Udall has done, 
notjust in fighting to represent victims and families, but 
raising awareness to move legislation forward with the adoption 
of the Radiation Exposure Compensation Act. The work that we 
continue to do, to build on the progress that was made by 
Senator Udall and Secretary Udall is critically important, 
which has culminated in the introduction of amendments to the 
Radiation Exposure Compensation Act.
    It's also an honor to work side by side with Congresswoman 
Deb Haaland, who has been a tireless champion for New Mexicans.
    My gratitude to everybody who is here today. I see family 
members, I see uranium mine workers, I see many friends that I 
have had the honor of getting to know throughout the years, who 
have traveled by car to our nation's capital because they're 
not able to fly, because of what that pressure would do to 
their lungs with the cancers that they're currently fighting.
    I look forward to hearing the testimony from any of our 
leaders, as well, and President Nez and Governor Chavarria. I 
see Council Delegate Amber Crotty with the work that she has 
always done in making sure that constituents are always 
listenedto.
    And finally, I want to thank the witnesses and the audience 
members for joining in this critical discussion. We're here to 
give voice to Hispanic communities, to Native American people 
of the Jemez Plateau, the blue collar workers of the Grants 
uranium belt, and the families whose lives were upended by the 
Trinity test. We are here, as well, to showcase the importance 
of the United States Government taking responsibility for the 
anguish it has caused these lands and families that call them 
home.
    Seventy years ago, rural New Mexico became ground zero for 
the detonation of the first nuclear bomb. This marked the 
beginning of sickness and suffering for generations of people 
in the Tularosa Basin and other communities that sacrificed for 
our collective national security. Seventy years, and the 
federal government has failed to do enough to recognize, to 
fully compensate, even though there's progress that has been 
made, or protect those impacted by the Trinity test.
    They're not alone. In fact, from 1945 to 1962, the United 
States conducted nearly 200 atmospheric nuclear weapon tests 
while building the1 arsenal that became the cornerstone of our 
nation's Cold War security strategy. The mining and processing 
of uranium ore was essential to the development of those 
weapons and was conducted by tens of thousands of workers 
throughout New Mexico alone.
    And it wasn't just the workers. It was the families that 
were waiting for them when they got home, where those tailings 
were still on their jeans or their jackets. Families that were 
taught that even though that yellowcake would be in liquid 
form, it would stay on their clothing, but they were told it 
was easier to clean when it dried. So wear it home wet, let it 
dry, and then it would be shaken. Families would inhale those 
tailings.
    So we see the legacy of the challenge that many families 
continue to be plagued by. In 1990 Congress did pass the 
Radiation Exposure Compensation Act. Again, I thank Senator 
Udall and Secretary Udall for their work. However, we have 
since learned that there are many more individuals who are 
sick, who are dying, because they worked in the uranium 
industry, lived near a mining operation, or lived downwind from 
a test site.
    We also know that tribal communities were particularly 
affected. That's why I have joined with Senator Udall and the 
other members of the New Mexico delegation to introduce the 
amendments to the Radiation Exposure Compensation Act. The 
bipartisan legislation is a matter of fairness and justice. I 
have heard from Navajo women elders who have made the journey 
to our nation's capital only to ask committees and panels, 
``Are you waiting for us all to die, so that the problem goes 
away?''
    Last year President Jonathan Nez testified before the 
Senate Judiciary Committee. He said, quote, ``To deliver the 
message that the Navajo Nation downwinders and uranium workers 
stand with the many others who are here today who deserve fair 
compensation and healthcare for the risks and sacrifices that 
their families have made,'' and he is right. This includes 
Leslie Begay, a veteran who, because he was unable to fly, has 
had to drive across our country. Larry King, a uranium worker 
who witnessed the radioactive spill at Church Rock mine, and 
many other miners and families who continue to suffer.
    We'll hear from our leaders today, and we're going to hear 
these important stories that have to be told so we can act, 
including one from Henry Herrera, who described that it was 
morning and the ash began to fall on the laundry his mother had 
hung outside their home in Tularosa. He looked up to describe a 
large gray ball of smoke moving higher and higher as the wind 
blew it toward Capitan, Ruidoso, Hondo, and Roswell.
    Henry and his two sisters are cancer survivors, but they 
had to bury their brother and their niece and their nephew 
because of the disease. This is just one of those stories.
    And I'm reminded as I close, Senator, that according to the 
Centers for Disease Control and Prevention, New Mexico 
residents were neither warned before the 1944 Trinity blast, 
informed of health hazards, or afterwards, nor evacuated 
before, during, or after the test.
    Church Rock still needs to be cleaned. Abandoned mines 
still need to be identified and cleaned. And families that are 
dying from cancer need to be helped. And here's what it comes 
down to: Exposure rates in public areas from the world's first 
nuclear explosion were measured at levels 10,000 times higher 
than currently allowed.
    I thank you again, Mr. Chairman. I thank the Committee for 
making today possible, and the witnesses for providing 
testimony.
    Senator Udall. Thank you very much, Congressman Lujan.
    And I now recognize Congresswoman Haaland for her opening 
statement.

                STATEMENT OF HON. DEB HAALAND, 
              U.S. REPRESENTATIVE FROM NEW MEXICO

    Ms. Haaland. Thank you very much, Chairman. Thank you to 
our witnesses, and thank you to the audience members.
    I'd like to acknowledge that we have Laguna and Acoma 
Pueblo members here in the audience. I was proud to participate 
in the Southwest Uranium Miners Coalition Post 71 Symposium on 
Saturday, and I thank you all so much for driving the distance 
to be here today. And we appreciate all of you being here.
    Thank you, Chairman Udall, for inviting me, for holding 
this hearing, and Assistant Speaker, of course, I'm very proud 
to serve with you. Thank you for your service to all of our New 
Mexicans.
    Good morning, and thank you all for your attendance. I also 
appreciate SIPI and President Allison for having us today and 
their hospitality, for putting on this lovely event. We all 
acknowledge our presence of pueblo lands today, and I 
respectfully ask you to keep this in mind as we proceed. May 
the dialogue be truthful, sincere, genuine, and may we all 
convene in good faith with each other.
    Everyone in this auditorium probably knows someone who has 
been affected by the dangers of working in a uranium mine. I 
certainly do. A relative of mine lost his hearing in one ear 
due to working in the mines, and I know people who have 
experienced worse.
    From 1950 to 1980 the Pueblo of Laguna was home to the 
world's largest open pit uranium mine in the world. Prolonged 
exposure to isotopes of uranium causes kidney failure, lung 
cancer, and respiratory problems. Other contaminants associated 
with the mining of uranium ore include arsenic, barium, 
chromium, cobalt, copper, lead, manganese, vanadium, selenium, 
and zinc.
    I recently met with downwinders from Tularosa, New Mexico, 
in my office who produced a full page of Trinity site victims 
who were never given the opportunity to protect themselves. At 
the Jackpile Mine, these poisons were dumped in an open pit 
without any lining to protect the ground and the groundwater 
because that was the standard at the time. I know it's 
difficult for us to comprehend this today. In fact, it's been 
45 years since cleanup of the uranium tailings began, and it's 
still not done. That is a responsibility of the federal 
government.
    The then-new industry pumped cash into the wallets of 
pueblo workers who previously supported their families by 
primarily a bartering system. Back then, there were also a 
patriotic movement to help the war effort and the push toward 
nuclear energy, and the community welcomed the mining, and 
members enlisted to serve in the military.
    The trade-off was stark. Local work with a steady paycheck 
later developed into a high incidence of substance abuse, 
broken families, and cancer and other illnesses, a tremendous 
cost to Laguna and communities all over New Mexico, each person 
affected, their family and their tribes. The health costs alone 
are devastating to those with cancer, even those who have 
health insurance. 25 percent of cancer-inflicted mine workers 
will deplete their savings to pay for their cancer treatments 
and associated costs, and some will go bankrupt.
    As a member of Congress, I'm standing up by supporting 
legislation that helps victims. The Radiation Exposure 
Compensation Act was the first step in recognizing some of the 
harmful effects of nuclear energy. I'm a proud co-sponsor of 
Assistant Speaker Ben Ray Lujan's Radiation Exposure 
Compensation Act amendments in 2019, HR-3783, and I know 
Senator Udall is an original co-sponsor of the Senate version, 
S-947. These bills expand the scope of RECA's reach so we can 
ensure that all those who were harmed by exposure receive what 
they are duly owed.
    In addition to the monetary aspects of the act, it serves 
to highlight the ever-pressing problem of radiation exposure. 
Our miners, mill workers, and ore transporters are facing 
potentially hazardous conditions every single day, and we need 
to be proactive about managing the risks. Additionally, 
innocent bystanders have also reaped these horrific hazards. It 
forces us to own up to the known detriments associated with the 
nuclear forward society. The RECA amendments act holds our 
government accountable and implores us to not turn our back on 
those who are affected by their work environment. Instead, we 
applaud their hard labor and take responsibility for the ill 
effects of a job that we asked them to do.
    Our workers deserve recognition and protections for the 
dedication they put into these dangerous jobs. In addition, the 
House National Defense Authorization Act includes an amendment 
by Assistant Speaker Lujan to secure a congressional apology to 
New Mexicans and other downwinders for the actions of our 
government.
    As a member of the conference committee negotiating the 
final NDAA, I am working hard for this provision and for the 
downwinders.
    Before closing, Chairman, I would just like to say that the 
House Democrats and also you are pushing legislation, moving 
legislation forward in fighting climate change, protecting our 
public lands from gas and oil drilling and fossil fuel 
extraction, holding the United States accountable for its trust 
responsibilities to Indian tribes, and moving our country 
toward 100 percent renewable energy because we have this 
gigantic nuclear reactor in the sky. It's called the sun, and 
we get over 350 days of sun per year right here in New Mexico, 
and we should be moving toward clean energy. We have had enough 
of this energy that makes people sick and gives people cancer 
and scars our land forever. It's time to move our country 
forward with clean energy to make sure that we can protect 
every single worker into the future.
    Thank you for inviting me, and I should say one last thing, 
Chairman. We were told earlier that so far, RECA has paid out 
$2.3 billion in compensation to workers and/or their families. 
And that sounds like a lot of money; right? But look. $8 
billion President Trump was trying to take from the military to 
pay for a wall that will do nothing to move our country 
forward, a wall on the southern border, and billions to 
farmers, billions, more than $2.3 billion, billions to farmers 
for his failed tariff policies. And I am here to say that it's 
time for us to make sure that our country is putting our 
priorities straight and the health and safety of our citizens 
should be the top priority, and I promise you that every single 
one of us up here on this stage today pledge to do that for our 
country, for our state, and for everyone.
    Thank you for inviting me, Senator Udall. I'm eager to 
learn from you.
    Senator Udall. Congresswoman Haaland, thank you very much 
for that opening, and I want to thank our witnesses that are 
with us here today. I know many of you have traveled long 
distances, andwe very much appreciate you being with us today.
    We have here today Mr. David Gray, Deputy Regional 
Administrator at Region 6 of the Environmental Protection 
Agency. Mr. Peter O'Konski, Deputy Director, Office of Legacy 
Management of the Department of Energy. Dr. Loretta 
Christensen, Chief Medical Officer for the Navajo Area of the 
Indian Health Service.
    And I want to remind the witnesses that your full written 
testimony will be made a part of the official hearing. Please 
keep your statements to five minutes, so that we may have some 
time for questions, and look forward to hear your testimony.
    Why don't we begin with Mr. Gray, and proceed across to 
your left there. Thank you.

           STATEMENT OF DAVID GRAY, DEPUTY REGIONAL 
      ADMINISTRATOR, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Gray. Thank you. Good morning, Vice Chairman Udall, 
members and distinguished guests. I'm David Gray. I'm the 
Deputy Regional Administrator for EPA Region 6, which covers 
Arkansas, Louisiana, Oklahoma, New Mexico, and 66 tribal 
nations. Thank you for the opportunity to testify today.
    EPA has a long history of working with tribal partners to 
achieve our mission. The 1984 EPA Indian Policy was the first 
formal Indian Policy adopted by a federal agency, specifying 
how EPA would interact with tribal government and consider 
tribal interests. Every single EPA office, region, works with 
tribes whether it be through consultation and coordination, 
providing technical assistance and compliance assistance, 
administrating grants, or providing for direct implementation. 
EPA has been working with our tribal partners, particularly in 
Region 6, Region 8, and Region 9, to address historical uranium 
mining within Indian Country. To accomplish this mission, EPA 
has developed both a Navajo Nation five-year plan and a Grants 
mineral belt five-year plan. These two five-year plans were the 
first coordinated approaches by federal agencies and our tribal 
partners to outline a strategy to gain a better understanding 
of the scope of the problem and to address the areas with 
greatest risk.
    While the plans address separate areas, the objectives in 
the plans are similar. I'd like to make a few highlights. EPA, 
Navajo Nation, and partner agencies have tested over 240 
unregulated rural Navajo Nation water sources, which has 
greatly exceeded our goal of testing 70 sources. Of the 240 
water sources tested, 29 exceeded drinking water standards and 
three wells were shut down. IHS, EPA, HUD, have provided 
approximately $200 million for water infrastructure processes, 
providing for access for piped water to over 3,800 homes.
    The groundwater investigation at San Mateo Creek Basin 
showed aquifers were impacted by contaminated mine water 
discharge; five drinking water wells were found to be 
contaminated. In this case, EPA installed filter systems at 
four of the wells and provided a new well for the fifth.
    EPA is in negotiations with several responsible parties 
regarding the remediation of San Mateo site, and EPA recently 
added the site to the administrator's emphasis list for 
Superfund site cleanups.
    EPA, with the support of Laguna Pueblo, added Jackpile Mine 
to the national priorities list, and are now overseeing 
Atlantic Richfield's investigation at the site. The Pueblo's 
work is reimbursed through a management assistant grant 
fromEPA.
    By the end of 2018, EPA entered into enforcement agreements 
and settlements valued at over $1.7 billion covering the 
investigation and cleanup of over 200 abandoned uranium mines 
on or near Navajo Nation. As part of the Tronox settlement, 
$900 million was received to address 54 mines. 34 of these 
mines are located on Navajo trust land, 20 mines are located 
here in New Mexico. EPA has also received approximately $89 
million for the Quivira site on Navajo allotment lands. 
Approximately $45 million of the settlement goes directly to 
Navajo Nation for the Shiprock uranium mine site.
    In June of 2019, EPA completed a prioritization methodology 
that relies on both removal site evaluations and risk factors. 
In August of 2019, EPA released removal site evaluations that 
describe the nature and extent of contamination for all the 
Navajo area uranium mines listed in the Tronox settlement. Once 
complete, our engineering and evaluation cost analysis reports 
will be provided for public comment before the selection of any 
remedies.
    EPA Region 6 will release its third five-year plan for the 
Grants mineral belt by the end of 2020. Similarly, Region 9 and 
its partner agencies are working on a ten-year plan for the 
Navajo Nation, and we anticipate finalizing that plan early in 
2020. These plans focus on the completing of negotiations and 
investigations of groundwater and surface water at San Mateo 
Creek, the completing and investigation and cleanup of over 200 
abandoned uranium mines in Navajo Nation for which EPA has 
secured enforcement agreements and settlements, the conducting 
of water studies on Navajo Nation to assess if and to what 
extent uranium mines have impacted surface and groundwater; the 
continuing of time-critical response and actions necessary to 
prevent intermittent substantial endangerment; the continuing 
to conduct radiological assessments of structures; the 
continuing to look for additional sources of funding for 
assessments of mines that are not presently part of enforcement 
actions or settlement agreements; the continuing to involve 
community and tribal leaders in mine assessment, the cleanup 
process, and assure that EPA understands community concerns and 
considers community goals in its decisionmaking; and the 
coordinating closely with tribal partners to ensure that tribal 
governments are consulted and that tribal ecological knowledge 
is incorporated into our decisionmaking.
    EPA remains firmly committed to protecting public health 
and the environment in collaboration with our federal partners 
and our state agencies and, most importantly, with our tribal 
partners. Our collaborative planning process has led to 
tangible results on the ground, and we are looking forward to 
future progress.
    Thank you, and I'm happy to answer your questions.
    [The prepared statement of Mr. Gray follows:]

 Prepared Statement of David Gray, Deputy Regional Administrator, U.S. 
                    Environmental Protection Agency
                    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Senator Udall. Thank you very much, Mr. Gray.
    Please proceed, Mr. O'Konski.

STATEMENT OF PETER O'KONSKI, DEPUTY DIRECTOR, OFFICE OF LEGACY 
             MANAGEMENT, U.S. DEPARTMENT OF ENERGY

    Mr. O'Konski. Good morning, Vice Chairman Udall, House 
members, and distinguished panelists. My name is Peter 
O'Konski, and I am Deputy Director of the Office of Legacy 
Management at the U.S. Department of Energy. The Office of 
Legacy Management was established in 2003 to manage DOE's 
responsibilities for closed and remediated defense nuclear 
sites.
    Recently, we hit a milestone. We now have 100 sites 
nationwide. From Alaska to Puerto Rico, our sites are as 
diverse as they are geographically vast. They are located on 
tribal lands, rural areas, and within urban centers. My office 
works closely with our state and tribal partners in long-term 
surveillance and monitoring of these sites.
    Today I'd like to just say a few words about our work with 
the Navajo Nation. Our partnership with the Navajo Nation began 
more than 20 years ago with the establishment of the Office of 
Uranium Mill Tailings. In coordination with this office, we 
maintain sites on Navajo lands in Shiprock, Mexican Hat, Tuba 
City, and Monument Valley. My office maintains a cooperative 
agreement with the Navajo Nation and the Hopi Tribe to ensure 
they have a voice in the decisionmaking process related to 
these sites.
    I am pleased to report we have supported more than a dozen 
outreach events with the Navajos this year, to include hosting 
public open houses and site tours. We continue to provide STEM 
outreach at local schools, and our scientists and engineers 
support science education at the Navajo Nation's Dine College.
    We are a participant in the Navajo Nation's five-year plan. 
Under the plan, we established a community outreach network to 
foster agency collaboration on outreach and educational 
activities cross-agency. Further, we established the Uranium 
101 Working Group, offering seminars providing a clear and 
layman's discussion on the nature and hazards of uranium.
    I know mines are a very important topic, so I would like to 
say a few words about our work on the Defense-Related Uranium 
Mines Program. We call that the DRUM Program. The DRUM Program. 
LM manages the DRUM Program, a partnership between DOE, the 
federal land management agencies, and the state abandoned mine 
programs. The DRUM Program is verifying the condition of 2,500 
defense-related uranium mines across the nation. Most of these 
mines are located out here in the western United States on 
public lands. Most are abandoned.
    My office is conducting an inventory and assessment of 
these mines to validate existing data, document conditions, and 
identify risks. Reports are being prepared for each mine, 
summarizing the findings of our investigation. The reports are 
shared with the respective land management agencies to 
determine which mines may require further action.
    So in conclusion, the Secretary of Energy has committed to 
meeting the department's Cold War post-closure 
responsibilities. This includes protection of human health in 
the environment, fostering access to records and information, 
beneficial reuse of these properties, and of course, community 
outreach. For those of us here that are in the long-term 
stewardship community, we are committed to fair treatment and 
meaningful involvement of all the partners. We recognize our 
success is predicated on collaboration and maintaining trust.
    I want to thank you for allowing the Department the 
opportunity to be here at today's field hearing, and I look 
forward to answering your questions.
    [The prepared statement of Mr. O'Konski follows:]

Prepared Statement of Peter O'Konski, Deputy Director, Office of Legacy 
                 Management, U.S. Department of Energy
    Good morning Vice Chairman Udall and distinguished members of this 
Committee. My name is Peter O'Konski and I am the Deputy Director of 
the Office of Legacy Management (LM) at the U.S. Department of Energy 
(DOE). LM was established in 2003 to manage DOE's responsibilities 
associated with the closure of World War II and Cold War era sites. LM 
takes responsibility for sites after DOE's Office of Environmental 
Management, U.S. Army Corps of Engineers, and other environmental 
cleanup work is completed. The federal government used these sites to 
research, produce, and test nuclear weapons and conduct other 
scientific and engineering research. The operations conducted in this 
vast network of industrial facilities left a legacy of radioactive and 
chemical waste, environmental contamination, and hazardous facilities 
across the country and tribal lands.
Introduction
    LM performs long-term surveillance and maintenance activities at 
nearly 100 sites nationwide. From Alaska to Puerto Rico, our sites are 
as diverse as they are geographically vast, being located on tribal 
lands, in rural settings, or within urban centers. LM works closely 
with Native American and Alaska Native stakeholders who are partners in 
our commitment to long-term surveillance and monitoring of legacy 
sites. We routinely collaborate on site inspections and environmental 
monitoring, document reviews, natural resource management, and 
community outreach, and frequently engage with tribal partners.
Work With The Navajo Nation
    There are four LM sites on the Navajo Nation: Shiprock, New Mexico; 
Monument Valley, Arizona; Mexican Hat, Utah; and Tuba City, Arizona. LM 
monitors the three disposal cells (Shiprock, Mexican Hat, and Tuba 
City) constructed to contain the uranium mill tailings; actively treats 
or monitors groundwater contamination; and is also responsible for one 
former processing site, Monument Valley. DOE established the Office of 
Uranium Mill Tailings Remedial Action on the Navajo Nation more than 20 
years ago to oversee long-term stewardship activities and to assist in 
managing the sites.
    Through a cooperative agreement administered by DOE, LM coordinates 
closely with the Navajo Nation Abandoned Mine Lands/Uranium Mill 
Tailing Remedial Action Program (AML/UMTRA) Department and the Hopi 
Office of Mining and Mineral Resources to inform tribal government 
leadership and communities about LM activities and provide 
opportunities for ongoing, two-way communication regarding site 
inspections, document review, and community outreach initiatives. The 
agreement provides financial support for tribal engagement in long-term 
stewardship activities and oversight, ensuring that tribal counterparts 
have a voice in LM's decision-making process.
    LM has supported more than a dozen outreach events on the Navajo 
Nation this year, including hosting public open houses and site tours 
on a regular basis. LM is also committed to providing STEM (Science, 
Technology, Engineering & Mathematics) outreach at local schools to 
introduce students to topics such as radon, radiation, and the legacy 
of uranium mining and milling. LM scientists and engineers are actively 
engaged in supporting science education at the Navajo Nation's Dine 
College and other universities, through teaching and mentoring students 
in fieldwork activities.
The Navajo Nation Five-Year Plan
    In 2007, Congress issued a directive for six federal agencies and 
various Navajo tribal agencies to create a Five-Year Plan to address 
uranium contamination within the Navajo Nation. The information gained 
during this initial period, would be applied to planning the next steps 
in addressing the most significant risks of uranium contamination to 
human health and the environment.
    In 2014, the Five-Year Plan was updated to build on the work 
completed in the first five years and to make changes based on 
information gained and lessons learned during this time. One of the 
actions from the second Five-Year Plan (2014-2018) was to establish a 
``Community Outreach Network'' with the purpose of facilitating 
collaboration among the agencies conducting outreach and educational 
activities as mandated by the Plan. The hub of this coordinated multi-
agency effort is the Navajo Nation Community Outreach Network Office, 
located in Window Rock, Arizona, which is tasked with coordinating and 
supporting the multiagency effort through community outreach, joint 
agency and tribal planning, and information sharing.
    Additionally, the Five-Year Plan identified a need for public 
uranium awareness education. The Uranium 101 workgroup continues to 
develop informational workshops to address that need.
    The federal agencies involved in this effort are DOE, U.S. 
Environmental Protection Agency (EPA), U.S. Nuclear Regulatory 
Commission, Indian Health Service, Agency for Toxic Substances and 
Disease Registry, and the U.S. Department of the Interior. The Centers 
for Disease Control and Prevention also contributed to health 
objectives. The tribal entities include the Office of the Navajo Nation 
President and Vice President, Navajo Abandoned Mine Lands/Uranium Mill 
Tailings Remedial Action Department, Navajo Nation Department of 
Health, Navajo Nation EPA, and Navajo Nation Department of Justice, and 
the Hopi Tribe.
    Meaningful collaboration is key for implementing long-term 
stewardship activities necessary to protect human health and the 
environment following cleanup and disposal of radioactive and chemical 
wastes on tribal lands and across the country. LM counts on local 
communities and tribal partners to present a solid, holistic 
examination of challenges so together we can formulate solutions.
Defense-Related Uranium Mines Program
    LM manages DOE's Defense-Related Uranium Mines Program (DRUM), 
which is a partnership between DOE, federal land management agencies, 
and state abandoned mine lands programs to verify and validate the 
condition of 2,500 defense-related uranium mine sites across the nation 
by 2022. These mines provided uranium ore to private uranium mills that 
processed the ore for sale to the U.S. Atomic Energy Commission (AEC) 
for defense-related activities that occurred between 1947 and 1970. 
Most mines are located on public lands and are abandoned. LM conducts 
inventory activities, which include exchanging information with other 
federal agencies and state governments to improve the quality of mine-
specific data, performing field inventories to document mining-related 
facilities at each location, conducting environmental sampling to 
evaluate safety and health risks, and producing reports that document 
physical safety hazards, as well as potential risks to human health and 
the environment.
    The Defense-Related Uranium Mines Program under Section 3151 of the 
National Defense Authorization Act for Fiscal Year 2013 mandated that 
the Secretary of Energy conduct a review of, and prepare a report on, 
abandoned uranium mines that provided uranium ore for defense and 
energy-related activities of the United States. DOE consulted with 
other federal agencies, affected states and tribes, and the public to 
develop the report. DOE finalized the report in August 2014, which 
documented that many data gaps still exist about these mine sites, most 
of which are located in the States of Arizona, Colorado, New Mexico, 
Utah, Wyoming, and South Dakota. DOE determined that further review of 
mine sites is needed to fully meet the Act's mandate.
    LM has successfully partnered with the Bureau of Land Management, 
the U.S. Forest Service, and a number of state abandoned mine lands 
programs. LM's initial campaign has been focused on publicly managed 
lands, and we plan to complete all the inventory activities by the end 
of 2022. Initial planning for Campaign 2 has begun and will focus on 
the mines on tribal lands and private property. The inventory activity 
for those mines will begin in 2023 or sooner. This will require 
collaboration with the U.S. EPA and a number of tribal entities 
including the Navajo Abandoned Mine Lands Department and Navajo Nation 
EPA.
    LM has successfully completed two full field seasons of 
inventorying defense-related uranium mines and is currently in the 
middle of completing its third field season. In New Mexico, 
specifically, we have inventoried more than 50 percent of the mines. 
The inventory in New Mexico focused on Bureau of Land Management and 
U.S. Forest Service-managed lands around the Grants area, where mines 
were most heavily concentrated.
    In the next DRUM Campaign 2, LM validation and verification efforts 
will focus on mines located on tribal and private lands. The inventory 
on the number of DRUM on tribal lands is as follows:
    Total Mine Counts on Tribal Lands:

  <bullet> There are approximately 609 mines on the Navajo Reservation 
        and Navajo trust lands.

  <bullet> Of the 609 mines on tribal lands, there's approximately 419 
        DRUM (mines) supported by AEC, predecessor to DOE, ore purchase 
        records.

  <bullet> As the DRUM program reconciles additional historical 
        information, a required step of the DRUM program, it is highly 
        likely that a good portion of the remaining 190 mines will be 
        DRUM. These are not supported by currently available purchase 
        records but appear to be DRUM mines. We are looking for more 
        historical records.

    The completed, and ongoing, field inventory activities have 
identified primarily physical hazards and in relatively few cases the 
potential for human health and environmental risks. Physical hazards 
are the primary risk driver and include open shafts, open and unstable 
adits, and large unstable mine features. Reports are written on every 
mine summarizing the findings and potential risks. These reports are 
shared with the respective land management agencies.
    LM is summarizing the environmental and human health risk data for 
each project area so the land management agencies can determine which 
mines may require no further action, reclamation, or additional 
investigation.
Conclusion
    In closing, the Secretary of Energy has committed to diligently and 
resourcefully meeting the Department's post-closure responsibilities, 
which include the protection of human health and the environment, 
access to records and information, meeting commitments to former 
contractor workers, optimizing the use of land and assets no longer 
needed for Departmental missions, and community education and outreach 
efforts. For those of us in the Long-Term Stewardship community, it is 
about fair treatment and meaningful involvement of all stakeholders; it 
is about allowing people a way to verify the truth of what they are 
being told, and it is about establishing and maintaining trust and 
collaboration.
    Thank you for allowing DOE the opportunity to testify at today's 
field hearing, and I look forward to answering your questions.

    Senator Udall. Thank you, Mr. O'Konski.
    Dr. Christensen, please proceed.

STATEMENT OF LORETTA CHRISTENSEN, CHIEF MEDICAL OFFICER, NAVAJO 
                   AREA INDIAN HEALTH SERVICE

    Dr. Christensen. Yatahey. Good morning, Vice Chairman Udall 
and Members of Congress, Congressman Lujan and Congresswoman 
Haaland. I'm Dr. Loretta Christensen, Chief Medical Officer at 
Navajo Area Office of the Indian Health Service. Thank you for 
this opportunity to testify at this field hearing on the topic 
of ``America's Nuclear Past: Examining the Effects of Radiation 
in Indian Country.''
    I start by stating the IHS mission, which is to raise the 
physical, mental, social, and spiritual health of American 
Indians and Alaska Natives to the highest level. The Navajo 
Nation has a user population of about 241,000 people and the 
Navajo reservation covers an area of over 27,000 square miles, 
extending into the states of Arizona, New Mexico, and Utah.
    Healthcare for the patients of Navajo Area is provided by 
five direct IHS service units, one urban Indian Health Center, 
two 638 contracted, three 638 compacted tribally authorized 
organizations. In addition, Navajo Area IHS has three 638 
contracts with Navajo Nation.
    The IHS is aware of the legacy and the history of uranium 
mining on Navajo Nation and its effect on the Navajo people. 
Several years ago, IHS partnered with several agencies and 
jointly submitted a five-year multiagency report of 
accomplishments to address nonoccupational exposures to 
individuals to uranium. This report was sent to Congress in 
January of 2013. The IHS accomplishments reported were: 
Increased delivery of clean water to homes during this period, 
continuation of a medical monitoring program with IHS-
appropriated resources, partnering with the University of New 
Mexico in their implementation of a prospective Navajo Birth 
Cohort Study funded byCongress through the CDC and the Agency 
for Toxic Substances and Disease Registry; and continued 
service funded through the HRSA Radiation Exposure Screening 
and Education Program, RESEP, for individuals with occupation-
related exposures to uranium.
    All agencies during the first five years focused on 
collecting data, identifying the most imminent risks, and 
addressing contaminated structures, water supplies, mills, 
dumps, and mines with the highest levels of radiation. The 
agencies agreed at the conclusion of the first five-year plan 
to develop a second based on the information gained from the 
initial plan.
    My written testimony contains the objectives and strategies 
for the 2014-through-2018 five-year plan that were developed to 
address impacts of uranium contamination in the Navajo Nation. 
I won't restate due to time constraints, but I'd like to go to 
the Navajo Birth Cohort Study.
    This cohort study was funded by the Agency for Toxic 
Substances and Disease Registry, and concluded first phase in 
August of 2018 with the final developmental assessments 
completed. The study will continue in collaboration with 
theEnvironmental Influences on Child Health Outcomes, known as 
ECHO, with the NIH providing longitudinal surveillance of the 
birth cohort and the addition of new pregnancies. The first 
phase of the cohort study enrolled 781 women, and the Child 
Health Outcomes Program to date has reenrolled 292 of the 
original cohort and added 163 new pregnant women.
    Early findings from the cohort study potentially related to 
radiation exposure include 36 percent of males and 26 percent 
of females in Navajo Nation have concentrations of uranium in 
the urine that exceed those found in the highest 5 percent of 
the U.S. population. Babies are born with concentration of 
uranium at those extremes which continues into the first year 
of life.
    Neurodevelopment screening in the first year of life has 
shown that Navajo children's performance suggests a lower 
trajectory in many domains, particularly at the tenth-month 
landmark.
    The cohort study is currently looking at the presence of 
anti-fetal-brain antibody production in mothers. We see a 
higher-than-expected prevalence of those autoantibodies as well 
as significant differences in exposure to heavy metals, 
including uranium and arsenic, between those who arepositive 
for antibodies and those who are not.
    Neurodevelopmental batteries administered to three-to-five-
year-olds in the cohort study and the child health outcomes 
initial phase have shown delays in language development, 
primarily in boys. In addition, significantly higher rates of 
autism spectrum disorder appear in those assessed to date. With 
no existing data on developmental trajectories, it is difficult 
to assess the importance of these indicators. The longer 
follow-up will enable a more informed interpretation of these 
results to strengthen intervention recommendation for these 
children, our children, our future.
    To conclude, please know that the IHS remains firmly 
committed to improving quality, safety, and access to 
healthcare for American Indians and Alaska Natives in 
collaboration with our federal partners, especially HHS, across 
Indian Country and Congress.
    I thank you, and I am happy to answer any questions you may 
have.
    [The prepared statement of Dr. Christensen follows:]

   Prepared Statement of Loretta Christensen, Chief Medical Officer, 
                   Navajo Area Indian Health Service
    Good morning, Chairman Hoeven, Vice-Chairman Udall, and Members of 
the Senate Committee on Indian Affairs. I am Dr. Loretta Christensen, 
Chief Medical Officer, Navajo Area Office (NAO), at the Indian Health 
Service (IHS). Thank you for the opportunity to testify at this field 
hearing on the topic of ``America's Nuclear Past: Examining the Effects 
of Radiation in Indian Country.'' The IHS mission is to raise the 
physical, mental, social, and spiritual health of American Indians and 
Alaska Natives to the highest level. As an agency within the Department 
of Health and Human Services (HHS), the IHS provides federal health 
services to approximately 2.6 million American Indians and Alaska 
Natives from 573 federally recognized tribes in 37 states, through a 
network of over 605 hospitals, clinics and health stations.
    The Navajo Nation has an IHS user population of 241,010 people and 
the Navajo reservation covers an area of 27,000 square miles extending 
into the States of Arizona, New Mexico and Utah. The Navajo Area IHS 
has 5 IHS Direct Care Service Units, 1 Urban Indian Health Center and 2 
P.L. 93-638 contracted and 3 compacted tribally-authorized 
organizations. In addition, the Navajo Area IHS has 3 P.L. 93-638 
contracts with the Navajo Nation.
    The IHS is aware of the legacy of historical uranium mining on 
Navajo Nation land and its effects on the Navajo Nation people. Several 
years ago, the IHS partnered with several agencies and jointly 
submitted a 5-year multi-agency report of accomplishments to address 
non-occupational exposures of individuals to uranium. This report was 
sent to Congress in January 2013. IHS accomplishments that were 
reported include:

  <bullet> Increased delivery of clean water to homes during the 5-year 
        period.

  <bullet> Continuation of a Medical monitoring program using IHS 
        appropriated resources.

  <bullet> Partnering with the University of New Mexico (UNM) in their 
        implementation of a prospective Navajo Birth Cohort Study 
        (NBCS) funded by Congress through the Centers for Disease 
        Control and Prevention (CDC) and the Agency for Toxic 
        Substances and Disease Registry (ATSDR).

  <bullet> Continued services funded through a Health Resources and 
        Services Administration, Radiation Exposure Screening and 
        Education Program (RECA) grant for individuals with occupation-
        related exposures to uranium.

    All agencies during the first five years focused on collecting 
data, identifying the most imminent risks and addressing contaminated 
structures, water supplies, mills, dumps and mines with the highest 
levels of radiation. The agencies agreed at the conclusion of the first 
Five-Year plan to develop a second Five-Year Plan based on the 
information from the initial plan. The following objectives and 
strategies for the 2014-2018 Five-Year Plan were developed to address 
the impacts of uranium contamination in the Navajo Nation.
OBJECTIVE 1: Assessment and Cleanup of Contaminated Structures
    Background: Uranium mining or milling waste was occasionally used 
as sand for an aggregate in construction so contaminated stone was 
incorporated into the walls and floors, including homes. If 
contaminated structures are occupied, there is a risk to the 
inhabitants from gamma radiation and alpha radiation (radon), which is 
a potent carcinogen to the lungs.
    Specific Goals:

        a.  Navajo Nation Environmental Protection Agency (NNEPA) to 
        scan 100 homes per year.

        b.  United States Environment Protection Agency (EPA) to 
        conduct detailed assessments and remediation as necessary based 
        on referrals and potential for health risk.

OBJECTIVE 2: Assessment of Contaminated Water Sources, and Provision of 
        Alternative Water Supplies
    Background: Water sources with levels of uranium and other 
radionuclides were identified by the Centers for Disease Control and 
Prevention, EPA, NNEPA and the Dine' Network for Environmental Health 
(DiNEH)
    Specific Goals:

        a.  Complete water infrastructure projects.

        b.  Increase access to safe drinking water and expand to 55 
        Navajo Nation Chapters.

        c.  Continue to implement the water hauling program.

OBJECTIVE 3: Assessment of Abandoned Uranium Mines with Detailed 
        Assessments of Those Most Likely to Pose Environmental or 
        Health Problems
    Background: Two-hundred and twenty-six mine claims show gamma 
radiation levels higher than ten times background levels. The proximity 
of mines to homes is an important factor in determining risk to 
residents. Thirty-eight of the mine claims are located within a quarter 
mile of a potentially inhabited structure.
    Specific Goals: EPA, NNEPA and Navajo Nation Abandoned Mine Lands 
to conduct assessment and urgent cleanup work at the mines most likely 
to pose a risk to human health or the environment:

        a.  Gamma radiation more than ten times background levels 
        located within a quarter mile of a potentially inhabited 
        structure.

        b.  Gamma radiation more than two times background levels and 
        located within 200 feet of a potentially inhabited structure.

        c.  Potential impact to aquatic resources.

        d.  Mines already identified for action.

OBJECTIVE 4: Cleanup of the Northeast Church Rock, New Mexico Mine Site 
        and Additional High Priority Abandoned Mine Sites
    Background: The Northeast Church Rock mine site was identified as 
the highest priority abandoned uranium mine for cleanup
    Specific Goals:

        a.  To complete the design of the cleanup with input from 
        Navajo Nation, community and other agencies to begin 
        construction cleanup activities.

        b.  Identified parties to conduct work.

        c.  EPA to conduct/oversee assessments at additional high 
        priority mines.

OBJECTIVE 5: Cleanup of the Tuba City, Arizona Dump Site
    Background: The Tuba City Dump was used for over 50 years as an 
open, uncontrolled dump. Work is ongoing to identify a long-term 
cleanup strategy.
    Specific Goals: a. After a remedy is selected, the BIA will begin 
the Remedial Design/Remedial Action process.

OBJECTIVE 6: Protection of Human Health and the Environment at Former 
        Uranium Processing Sites
    Background: The Department of Energy (DOE) responsibility for 
former mill sites includes ground water remediation and long-term 
surveillance and maintenance. The Nuclear Regulatory Commission (NRC) 
has oversight responsibility at the former mill sites on the Navajo 
Nation that have been transferred to DOE under an NRC general license.
    Specific Goals:

        a.  DOE to revise groundwater compliance strategies for 
        Shiprock and Tuba City disposal sites.

        b.  NRC will continue to review and comment on reports 
        developed by DOE regarding the sites, conduct inspections of 
        the sites in conjunction with DOE, and review and concur on DOE 
        revisions to the long-term surveillance plan or groundwater 
        compliance action plans before they are implemented.

        c.  DOE will work with NNEPA on a schedule to accept mill-site-
        related materials from any further cleanup.

OBJECTIVE 7: Health Studies
    Background:

        a.  UNM performed a study funded by the National Institutes of 
        Health, on the relationship between uranium in drinking water, 
        kidney disease, and diabetes. Data from the study informed 
        policy changes regarding uranium mining and remediation. The 
        Navajo Area IHS participated in the study.

        b.  Navajo Area IHS implemented a Community Uranium Exposure 
        Journey to Healing program consisting of medical screening of 
        individual health histories and health status, and the 
        provision of community based education and information 
        gathering services across the Navajo reservation.

        c.  Navajo Area IHS Radiation Exposure Screening and Education 
        Program (RESEP) services were funded by a HHS, Health Resources 
        and Service Administration (HRSA) grant targeting potentially 
        compensation eligible individuals as a result of the RECA.

        d.  Navajo Area IHS staff collaborated with the Navajo Nation 
        Department of Health Epidemiology Program on a Navajo Nation 
        cancer report and designation by the Epidemiology Program of a 
        lead epidemiologist to work on uranium related issues.

        e.  CDC and ATSDR collaborated with the Navajo Area IHS to 
        conduct health care provider training on the impact of uranium 
        and other heavy metals on the health of individuals.

    f.  CDC and ATSDR funding was provided to the UNM, the Navajo 
Nation Division of Health, and the Navajo Area IHS to implement a NBCS 
of the health effects of non-occupational exposure on pregnancy 
outcomes and infant health.

    Specific Goals:

        a. Provision of Community Based Services.

    <bullet> Listen to community concerns and provide location specific 
        health education to community residents.

    <bullet> Provide medical screening evaluations to non-
        occupationally exposed individuals.

    <bullet> CDC and ATSDR will provide community education materials 
        (such as environmental health ``frequently asked questions''), 
        handouts, and resources.

    <bullet> IHS will transfer health information from medical 
        screening evaluations to each individual's medical home health 
        record.

    <bullet> Provision of RESEP services. IHS will provide services as 
        identified in the HRSA grant's Scope of Work to individuals 
        with potentially compensable health conditions.

        b.  Collaboration with the Navajo Nation Division of Health 
        Epidemiology Program. IHS and ATSDR will work with the Navajo 
        Nation's Division of Health Epidemiology Program supporting its 
        efforts to:

    <bullet> Evaluate various cancer case rates by geographic location 
        of cancer patient's residence and known radiation exposure 
        sources.

    <bullet> Evaluate the health status of descendants of uranium 
        miners/mill workers.

    <bullet> Evaluate the potential for a longitudinal human health 
        impact study (as requested by the Navajo Nation to include 
        physical, psychological and social parameters).

        c. ATSDR funded NBCS.

    <bullet> Continue and complete work on the NBCS in cooperation with 
        the UNM, the Navajo Nation Community Health Representative 
        Program, and Navajo Area IHS.

    <bullet> Consider the viability of expanding the laboratory 
        component of the study.

    <bullet> Conduct outreach education about study results to 
        participants and Navajo Nation leaders and others at community 
        gatherings.

    <bullet> Develop a sustainability plan to evaluate the potential 
        for follow up and/or surveillance of children from the birth 
        cohort study beyond the research study period (with guidance 
        and input from the Navajo Nation).

        d.  Health Care Staff Training. Provide continuing education 
        sessions to Navajo Nation hospital/clinic healthcare and 
        community based staff.

    Potential Limitations and Challenges:

        Achievement of planned goals is dependent on availability of 
        funding for the following objectives: 1) RESEP services, 2) 
        work with the Navajo Nation's Epidemiology Center to conduct 
        two studies and one evaluation, and 3) work on the NBCS.

Navajo Birth Cohort Study
    The NBCS, funded by ATSDR, was concluded in August 2018 with the 
final developmental assessments completed. The study will continue in 
collaboration with the Environmental influences on Child Health 
Outcomes (ECHO) with the NIH providing longitudinal surveillance of the 
birth cohort and addition of new pregnancies. The data from the initial 
phase of the study is currently being analyzed. The first phase of the 
NBCS enrolled 781 women, and the early part of the ECHO phase has re-
enrolled 292 of the original cohort with the addition of 163 new 
pregnant women. Early findings from the NBCS potentially related to 
radiation exposure include:

        a.  36 percent of males and 26 percent of women in Navajo 
        Nation have concentrations of uranium in the urine that exceed 
        those found in the highest 5 percent of the U.S. population.

        b.  Some babies are born with concentrations of uranium at 
        those extremes and exposures continue in the first year of 
        life.

        c.  Exposures to multiple metals in the higher exposure 
        clusters increase the likelihood of preterm birth. This does 
        not include loss of pregnancy in the early stages.

        d.  Neurodevelopment screening in the first year of life has 
        shown that Navajo children's performance on the Ages and Stages 
        Questionnaire (ASQ), development screen suggests a slower 
        trajectory in many domains especially at 10 months of age. 
        There will be examination concerning the use of the screening 
        to predict performance in later childhood.

        e.  Higher than expected rates of autoantibody production in 
        parents in the NBCS. These rates have been associated with 
        exposures, and are consistent with increased autoantibody 
        production in studies involving an older population previously.

        f.  Through the initial phase of NBCS/ECHO, we show that 
        through age 5, uranium continues to be elevated and increases 
        in some cases, and that arsenic shows a strong increase until 
        age 5. The numbers of samples analyzed for metals in children 
        from ages 2-5 years are very small at this point.

        g.  The study is currently looking at the presence of anti-
        fetal-brain antibody production in moms. These are 
        autoantibodies that can cross the placental barrier and bind to 
        developing fetal brain tissue and have been associated with 
        neurodevelopmental delays as well as autism. We see a higher-
        than-expected prevalence of these autoantibodies, as well as 
        significant differences in exposures to metals including 
        uranium and arsenic between those who are positive for these 
        antibodies and those who do not have them.

        h.  Neurodevelopmental batteries administered to 3-5 year olds 
        in the NBCS/ECHO Phase I have shown delays in language 
        development, primarily in boys. In addition, significantly 
        higher rates of autism spectrum disorder appear in those 
        assessed to date. The delays observed have really pushed us to 
        use the ECHO funding to extend follow-up through 8 years (up to 
        9 years of age) in all children who will reach middle childhood 
        during the 4+ additional active years of the study to determine 
        if the observed delays persist, are increased, or recover with 
        time. With no existing data on developmental trajectories, it 
        is difficult to assess the importance of these indicators. The 
        longer follow-up will enable a more-informed interpretation of 
        these results to benefit the intervention recommendations for 
        these children.

        i.  Moving forward the assessment of children's focus of 
        attention through tracking of eye-movements, which has been 
        shown to predict performance on some of the more detailed 
        developmental assessments will be utilized. This language-free 
        assessment that can be rapidly administered may provide a good 
        way to do interim assessments that can be used to both validate 
        the use of the standard tools, and to fill in gaps in the 
        developmental trajectory to allow for finer grained 
        assessments.

    The IHS remains firmly committed to improving quality, safety, and 
access to health care for American Indians and Alaska Natives, in 
collaboration with our federal partners, especially in HHS, across 
Indian country, and Congress. Thank you, and I am happy to answer any 
questions you may have.

    Senator Udall. Thank you very much, Dr. Christensen, and we 
look forward to that study proceeding and getting us as solid 
information as possible.
    Just listening to the witnesses, there's no doubt that 
we've made some progress, but I can tell you, in traveling in 
Indian Country and being in communities and talking to people, 
that there's so much more to do. There's no doubt about it. And 
all our witnesses are nodding today, so I see they know the 
magnitude of the task that we're dealing with.
    I want to take this opportunity to remind you that the 
Senate Indian Affairs Committee has broad jurisdiction when it 
comes to all oversight matters with respect to Native 
Americans, Native Hawaiians, and Alaska Natives. And the issues 
we are discussing today directly impact Indian Country. There's 
no doubt about that. So I would like to get commitments from 
each one of you that you will work with me and my staff and 
Chairman Hoeven's staff on frequent updates on your progress on 
cleanup and efforts to improve public health. Can you answer 
that question with a yes or no, Mr. Gray?
    Mr. Gray. Yes.
    Senator Udall. Okay.
    Mr. O'Konski. Yes, sir.
    Dr. Christensen. Yes.
    Senator Udall. Thank you very much for that commitment.
    Dr. Christensen, I understand that the IHS is part of the 
five-year planning process, along with other agencies, such as 
the DOE and the EPA, sitting next to you. But some folks in the 
community have reported to me that your agency has not been 
very visible when it comes to addressing the public health 
concerns of the community, especially when it comes to 
analyzing cancer clusters or other health issues that may be 
attributed to radiation poisoning. How do you respond to those 
concerns?
    Dr. Christensen. Thank you for your question. The IHS does 
acknowledge that there is work to be done, particularly in 
public health and community health. We have committed this year 
our top priorities, the number one being improving cancer care 
in Navajo Country. This would entail increasing education to 
the patients in a culturally appropriate and sensitive manner 
to explain cancer and the need for treatment and surveillance.
    The second goal would be to improve our screening across 
Navajo Nation. Although we do meet our measures for GPRA in 
screening, I don't feel it's enough and that we need to get out 
into the communities and increase our screening across the 
whole area.
    And thirdly, we acknowledge that we need to track real time 
a central database of cancer occurrence and surveillance 
through the longitudinal time period of people's bouts with 
cancer. We are doing some retooling to our electronic health 
system at this moment to increase the reporting for uranium 
exposure, either working or in the vicinity of any uranium 
mines tailings or any of those areas, and therefore, this will 
be placed in the patient's records and will always be able to 
be identified as having had exposure, which did not exist 
before.
    We will also try to create a central database with 
attention to where the cancers are occurring and general health 
status of our patients throughout the area. This will require a 
unified effort between IHS and Navajo Nation. Some of the first 
work that's been done by the epicenter there has been quite 
helpful, and we look forward to partnering with them with their 
health education department and with their community health 
representatives to thoroughly evaluate the health status of all 
occupants of Navajo area.
    Senator Udall. Please, did you finish there? Dr. 
Christensen, is the lack of cancer treatment centers a 
contributing factor? I know most of the cancer treatment 
centers are off reservation. Do you think that's a factor?
    Dr. Christensen. Well, I think it's just a challenge, 
Senator, that we don't get all the information back, because we 
do refer all of our cancer patients to appropriate cancer 
centers, most of which are a distance from the reservation. We 
do have two cancer centers in the border towns that we use, but 
we go to Flagstaff, we go to Banner in Phoenix, we go to 
Albuquerque, and some to Denver, which does not create the best 
flow of information. But I believe that's something we can 
overcome and create a system to where we can gather that 
information accurately.
    Senator Udall. I think that would be very helpful to you 
and us from the policy perspective, and obviously, be very 
helpful to the patients to have full records and further 
doctors to be able to deal with these issues, the health issues 
that they're facing.
    Mr. O'Konski, the Shiprock site is a uranium tailings site 
in the heart of Shiprock on the Navajo Nation. It's my 
understanding that this site has an evaporant pool liner to 
protect from groundwater contamination, but that the liner is 
at the end of its life. Residents are rightfully concerned 
about their groundwater and are worried about DOE's proposed 
options. What is the timeline to replace the liner, and is DOE 
working directly with the Navajo Nation and Shiprock on their 
concerns?
    Mr. O'Konski. Thank you for the question, Senator. And I 
have got a couple of experts behind me, if I need to get a 
lifeline. That project is in the development phase as far as 
solutions and to address it. We are, I believe, two years out, 
approximately from addressing the permanent solution there. We 
are working closely with our Navajo partners, with our 
regulators to come up with a solution to that that answers all 
of the questions. We're trying to be very, very transparent, 
also.
    Senator Udall. And please commit to me you'll put the 
public health first.
    Mr. O'Konski. Absolutely, sir. Public health and the 
environment is our first priority.
    Senator Udall. And the thing that worries me--I have been 
looking and reading about your options that you have talked 
about that you're considering, and one of the options that 
doesn't seem to be on the table is just removal of the 
tailings. I don't know if you have already come to a 
conclusion, but in many communities where tailings piles are 
close to the community, one of the things that the agencies 
that review everything, they say, ``Well, let's do complete 
removal.''
    So have you come to a judgment on that, or is that still 
something that's on the table in terms of your review?
    Mr. O'Konski. Sir, all options are on the table. And we are 
going to continue to work with the community to come up and 
look at which are the best solutions, prioritized, and we will 
work with our partners and with the Congress to implement that 
solution.
    Senator Udall. Thank you. It's my understanding that your 
office is monitoring an underground plume from the Tuba City 
site moving towards the Hopi Tribe. Residents there are worried 
about their groundwater. What is DOE doing to prevent a 
groundwater contamination from occurring there?
    Mr. O'Konski. Sir, we're doing additional monitoring. We 
are actively watching the plume. We are working with the Hopi 
to establish alternative sources of water. Our highest priority 
is tomaintain a safe and healthy area for the residents.
    Senator Udall. Thank you. Thank you.
    Mr. Gray, my office has been approached by representatives 
of the Red Water Pond community, a settlement on the Navajo 
Nation. It's my understanding that the EPA and the Army Corps 
of Engineers has agreed to relocate the members of the 
community due to contamination, but the members of the 
community have some real, legitimate concerns about this 
proposed relocation plan, specifically that the new location is 
not culturally appropriate.
    First off, which agency is taking the lead on this 
relocation effort? It sounds like EPA is supposed to be the 
lead agency and should be working with the Navajo Nation or the 
community directly on what their cultural needs are. Is that 
what is happening?
    Mr. Gray. So we are working with the community on 
relocation. The relocation is set to be completed by 2023 in 
order to allow further remedy to be put in place. The goal of 
the relocation is to move the residents out of direct contact 
during the high industrial work andconstruction work that's 
going to be required at the site, and to move them away. We are 
working aggressively with the community to look to an 
appropriate relocation. I understand today that half of the 
community has relocated and so we've been successful at 
achieving a shared common objective there.
    We do understand--and thank you for your most recent 
letter; I know that we have a letter from you with community 
concerns that have been brought to our attention. We are 
working through those and will certainly be prepared to respond 
to all of those concerns raised by the community so that we can 
move forward in a way that addresses the concerns that looks to 
their needs and accomplishes both of our goals, which is to 
have them out of harm's way during that construction work.
    Senator Udall. Thank you.
    Mr. O'Konski, it's been brought to my attention that there 
are some 6,000 boxes of Rocky Flats documents stored at LANL. 
You all remember Rocky Flats was the pit production facility 
until it closed. And so it's completely closed now, and they 
have moved those 6,000 boxes down to the Los Alamos National 
Laboratory, and that some potential Energy Employees 
Occupational Illness Compensation Program--the short for that 
is EEOICPA; I think most of us call it by that, so that we 
don't have to say all those words there--but those claimants 
have been denied access to those records because they are 
working through an advocacy group. And it's my understanding 
that these records could affect whether a claimant from Rocky 
Flats could be eligible for compensation under the program I 
just mentioned.
    Will you work with my staff to sort out the details of this 
so that folks who may be eligible for compensation have the 
records they need to file a claim?
    Mr. O'Konski. Yes, sir. We will work with your staff on 
that.
    Senator Udall. Great. Thank you very much.
    Mr. Gray, I applaud the EPA for working diligently to 
complete the goals set out in the two prior five-year plans, 
and I'm also pleased that the next ten-year plan is building 
off of those successes. However, as the vice-chairman of the 
Indian Affairs Committee and a staunch supporter of tribal 
self-determination, I believe that the best2 decisions for 
tribes are made by tribes. So I want to make sure your agency 
is not setting a low bar for itself by simply saying you're 
making progress on these goals without consulting with the 
Nation. Was the Navajo Nation consulted and made an active 
participant in the underlying development of the prior five-
year plans and the forthcoming ten-year plan? And I don't mean, 
were they asked to comment. I mean, was the Navajo Nation 
actively involved in setting the goals on a government-to-
government basis?
    Mr. Gray. So I wasn't personally involved in the 
development of the five-year plan with Navajo Nation, being 
from Region 6, being from the Dallas office. But it is my 
understanding from speaking with the leadership in the San 
Francisco office, which is Region 9, that the Navajo Nation has 
been engaged and a cooperative partner in the development of 
priorities throughout the development of the two previous five-
year plans, and is certainly at the table and engaged 
substantively in the upcoming ten-year plan that will be coming 
out shortly. And so we will continue to maintain that 
relationship. We remain committed to that relationship. We 
understand the incredible opportunity of working directly with 
tribes and having our tribal nations be, as you mentioned, part 
of the exact decisionmaking process for their communities and 
for their lands, and we strive to make that happen also.
    Senator Udall. Great. Thank you.
    Mr. O'Konski, you testified that the Office of Legacy 
Management manages DOE's Defense-Related Uranium Mines Program, 
known as the DRUM Program. This program is charged with 
verifying and validating the condition of thousands of 
abandoned uranium mines across the West by 2022. You further 
testified that many data gaps exist about these mine sites, 
most of which are located in New Mexico, and that further 
review is required to meet your office's obligations set forth 
in authorizing legislation. Do you mean to tell me that your 
office is currently unable to determine the exact location of 
abandoned uranium mines and the potential health and safety 
risks that they pose to adjacent communities?
    Mr. O'Konski. Thank you for the question, Senator. As I 
mentioned, there's 2,500 of these mines. There are not great 
historic records. That is the reason we are taking the time to 
gophysically find them, touch them, visit them, and investigate 
them. We are planning to do 400 mines next year. We have 
reached--we have been to 1,000 of them. And we have found a lot 
of the records are good, but the mines are in very different 
conditions, depending on where they are. So that's the reason 
that we are physically going and finding them and writing a 
report that is specific to each one as to their condition and 
their risk.
    Senator Udall. So you're basically telling me your office 
is currently unable to determine the exact location of 
abandoned uranium mines and the potential health and safety 
risks that they pose to adjacent communities? You're doing 
some, but there's still many, many more to be found and then 
determined what the health risks are.
    Mr. O'Konski. Yes, sir. There's hundreds more that we still 
have to get to and look at.
    Senator Udall. When will this work be completed, and how 
can we expedite progress? The people living near these sites 
should not be made to wait any longer for this important 
information about potential impacts to their health and safety. 
What's your timeline there?
    Mr. O'Konski. We have multiple teams working on this. We 
are looking to do 400 to 500 of them next year and wrap this up 
by 2022.
    Senator Udall. Great. Thank you for your testimony.
    And I think all of you can see, we've made some progress, 
but there's still an awful lot of work to do. And so at this 
point, I'm going to turn to Congressman Lujan for his 
questions.
    Mr. Lujan. To the panels that are assembled today, I want 
to say thank you, as well as to the panel in front of us, thank 
you for your work.
    Mr. Gray, according to the U.S. Commission on Civil Rights 
report, Native Americans are at a higher risk for health issues 
due to water contamination. This report notes that in the past 
decade, tribal water systems experienced 57 percent more water 
quality violations than nontribal water systems and received 44 
percent fewer inspections under the Clean Water Act from 2010 
to 2015. As we know, water is life, and access to clean water 
is a human right. Lack of oversight and investment in 
infrastructure has harmed communities and damaged our economy, 
as water resources are essential to agriculture, economic 
development, and health.
    Mr. Gray, the Safe Drinking Water Act and the Clean Water 
Act authorizes the EPA to ensure that these communities have 
access to safe and clean water and to work with federal, state, 
and tribal partners to implement water standards and ensure 
compliance. Yet when it comes to water quality, we see 
unacceptable conditions for tribes across the country. Why is 
the EPA unable to address this disparity?
    Mr. Gray. Thank you very much for that question. I can say 
that we are taking some very proactive actions, particularly 
from Region 6. We now have added two water inspectors here in 
New Mexico to solely work with our tribes, to work with our 
tribes both for increasing training and knowledge and education 
of their tribal operations of their own systems as well as to 
aid them with technical assistance in the need for compliance. 
We're doing this through a circuit-rider program, which is what 
we're calling it. We are piloting it in Region 6 and hoping to 
take it to our other regions, demonstrating the success of it. 
Today it is showing some great results in lifting the 
compliance that we have with tribally owned systems in New 
Mexico, and we believe, in Region 6, that that can be modeled 
in other places and that it's a way of significantly increasing 
the compliance and the ability of our tribal partners to have 
safe water.
    Likewise, we initiated this past year a tribal program to 
test day-cares in schools at all of our tribes for lead in 
drinking water. It's been a highly successful program where 
we've been able to identify very quickly tribally owned and 
operated day-cares in schools that have elevated levels of lead 
in drinking water so that we can bring about very rapid 
abatement.
    That program is providing us with some very interesting and 
positive results. We're seeing many schools and day-cares that 
may have one drinking water fountain that has elevated lead 
levels in it, so we're able to very quickly identify that, take 
that system out of service, and then provide for replacements.
    And so we've been doing that throughout New Mexico as well 
as Oklahoma. Again, it's another pilot that we're using here in 
Region 6 that we believe are pilots that can be taken 
nationally and that can really change, as you mentioned, the 
statistics that we see across the country of needing to improve 
compliance and availability of safe drinking water in Indian 
Country.
    Mr. Lujan. And as we all know, Mr. Gray, this is a trust 
responsibility, a treaty responsibility, sovereignty that is 
recognized by the United States Constitution through those 
treaties. And when we see the worst conditions, more violations 
than in other parts of the country with tribal water systems or 
with Native American communities and non, I hope that this 
helps us understand the urgency of the response; and while 
there's inspectors that have been made available, that there 
are recommendations coming from the EPA associated with 
infrastructure investments with the replacement of these 
systems. The testimony of Dr. Christensen to the elevated 
levels of uranium and arsenic--is it safe to assume, Dr. 
Christensen, that comes from probably drinking water?
    Dr. Christensen. That can be one of the sources of that, 
yes.
    Mr. Lujan. So if that's the case, then this is one of the 
areas we can correct that goes back to, Mr. O'Konski, the 
question that Vice Chairman Udall posed associated with, you 
know, replacing the liner with another liner, getting to the 
end of its life--well, get rid of the stuff that's 
contaminating the water. If we remove it, then I think that 
that would be the answer to address these concerns.
    So I appreciate that, Mr. Gray. There's more that we have 
to do in this particular area to be able to fix the problem.
    Dr. Christensen, the Navajo Area Indian Health Service 
serves a patient population of over 240,000, I believe that you 
shared, across three states and 11 service providers. Nearly 
7.3 percent of deaths reported in this patient population 
between 1999 and 2001 were due to cancer alone, a rate not seen 
in medical reports prior to World War II and the uranium boom 
in the region. We also know from the Navajo Birth Cohort Study 
that the uranium concentration in over a quarter of Navajo men 
and women measured exceed those found in the highest 5 percent 
of the U.S. population. That was part of your testimony.
    Dr. Christensen. Yes.
    Mr. Lujan. Exceeded those found in the highest 5 percent of 
the U.S. population. Dr. Christensen, what trends have you seen 
in cancer diagnosis in your patient population that point to 
geographic, occupational, or generational spikes that we need 
to be paying more attention to in Congress?
    Dr. Christensen. Well, what is most significant in the 
cancer incidence and prevalence is that it's cancers you would 
not expect to be high. Generally speaking, American Indians and 
Alaska Natives don't have exceedingly high cancer rates. So the 
fact that these prostate, breast cancer, thyroid disease, 
kidney cancer, stomach and colorectal cancer are at the very 
high end of the prevalence and incident rate tells me that 
there's a reason for that.
    I do believe there's environmental influence on those 
rates, certainly that large spike we saw in the early 2000s, 
and we continue to see these cancers occurring more frequently 
than they would in a normal population that you are surveilling 
across the United States.
    So it is quite concerning. And you add lung cancer, which 
isn't reaching the levels that we would think it would, but 
it's still very prevalent and prominent in this population, 
particularly those that worked directly in the mines, the 
millings, inthose areas, got severe cases of lung cancer that 
would not normally happen in this area. So it is quite 
concerning.
    The other thing that is very concerning is: Some of these 
cancers weren't picked up until later in the course of the 
cancer. So that treatment options were less viable than if it 
had been detected much sooner. And that's why we are focused on 
increasing screening across the whole area so that we can 
intervene sooner and give quality of life and longevity to 
these patients.
    Mr. Lujan. And Dr. Christensen, generational?
    Dr. Christensen. Yes, we do see generational. We see a lot 
of families suffering cancer in clusters that, again, are not 
in the normal variation of cancer recurrences, which is very 
concerning. But you made an excellent point when you said we 
haven't actually removed the provoking agent. So it's like 
keeping your hand over a flame and you keep it there, it will 
continue burning. If we continue having this contamination, we 
will continue to get these diseases. And that's why it is 
vitally important to work, as these gentlemen are, to really 
mitigate this as quickly aspossible so we can remove this 
exposure and return the health status of our patients and our 
people.
    Mr. Lujan. That was profound, Dr. Christensen, and I hope 
that you and IHS will commit to the Committee and to the 
Congress that we can work together to make sure that we're 
using every available tool to collect data, making sure that 
when patients are coming in, that we work to understand if they 
worked in a mine, where they live, what the exposure rate is, 
did someone in the family work in those areas, so we can 
complement that so we can show what you just shared. Is that 
something you could commit to?
    Dr. Christensen. Absolutely commit to any needs of our 
patients in Navajo. And as I briefly mentioned, we have changed 
our electronic health record. We now do ask multiple questions 
about uranium, possible uranium exposure, which will then be in 
the permanent record. It also has been linked to the ICD-10 
code to be in their history, as well. Therefore, anyone who 
receives their records will now have documentation of that 
exposure, whether it be direct exposure or exposure through 
family or exposure through their environment.
    Mr. Lujan. So these families whoare living downwind from 
test areas, these families are living downwind from open 
uranium pits, these families are living downwind from berms 
like in Church Rock that burst open in 1978, at a time that the 
Navajo Nation received little attention. A year, later we saw 
the meltdown at Three Mile Island. There was a lot of federal 
response there. But we still have not done what needs to be 
done here in New Mexico on the Navajo Nation. It was the first 
place of the Trinity test site, that little story that I shared 
of that experience where the ash that was falling on clothing 
that was recently put up on a clothing line. You saw this ball 
off into the distance. These families lived downwind.
    Does it surprise you--and I'd ask this question, whether 
it's yes or no, or you want to give a little bit more of an 
answer--does it surprise you that New Mexico is not included in 
downwind protections? The three states that have counties that 
were included with downwind protections were Nevada, Utah, and 
Arizona.
    Should New Mexico be included with downwind protection, Mr. 
Gray?
    Mr. Gray. Thank you for that question. I'm a little less 
familiar with that particular partof this, but it sounds to me 
that it's important for us to understand the risks to all of 
our communities, whether or not they are on a location, 
adjacent to a location or downwind to a location where 
contamination has occurred.
    Mr. Lujan. I appreciate that.
    Mr. O'Konski?
    Mr. O'Konski. I'm not sure about the exact details of the 
downwind, but I do absolutely agree that our people in our 
communities need to be protected.
    Mr. Lujan. I appreciate that.
    Dr. Christensen?
    Dr. Christensen. Absolutely.
    Mr. Lujan. I appreciate that very much.
    The last question I have, Senator Udall, is: Mr. O'Konski, 
you shared that of the 2,500 related mines that you are 
currently looking at and trying to measure, the follow-up 
question from Senator Udall of trying to identify more mines 
that are still unidentified, it's my understanding that in the 
1950s and 1960s, the United States Government was complicit in 
actually contributing to this problem. The United States of 
America gave what I would describe as a finders fee to anyone 
that could go find a uranium mine. You had people driving 
around in their pickups with the little Geiger counter, I was 
told and I read, and they'd go find a site and then they'd 
report it, and then the United States would pay them $10,000. 
That's probably about $100,000 in today's money.
    Is there a similar approach that we can take to help find 
the abandoned mines? Because the United States created the 
problem.
    Mr. O'Konski. We can certainly look at the option of doing 
something like that. But there is absolutely no question that 
part of what we do, as part of identifying these, is working 
with the communities. Because more often than not, it's the 
community memory that helps to fill in the holes.
    Mr. Lujan. I appreciate that. The last question is: You 
stated that there are documents that are being made available 
to the offices where those mines are. Are those documents able 
to be put in a database where they're in searchable format so 
that anyone who needs to see them can find them? Can we get 
that agreement?
    Mr. O'Konski. Yes, sir. We will make sure that they are 
available.
    Mr. Lujan. I appreciate that. Thank you very much.
    Senator Udall. Thank you, Congressman Lujan.
    Just one question of clarification, Dr. Christensen. You 
mentioned that now when patients come in, that you're making it 
a permanent part of the record that they have some radiation 
exposure if they did; is that correct?
    Dr. Christensen. Yes. That's what we've retooled.
    Senator Udall. And it would seem to me that supplementing 
the screening you're doing to try to find out earlier if people 
have cancer, that you could also, with that information, call 
patients together and educate them and indicate to them the 
kinds of symptoms they might see for these types of cancer you 
mentioned or other illnesses that might be out there as a 
result of radiation. So it seems to me that that permanent 
record would be very important in terms of the education 
aspect.
    Dr. Christensen. Yes, it would be, and just in addition, 
the intention is to--and I'll call it geomapping--is to geomap 
the area, looking at both the health status of everyone and 
certainly addressing the environmental impact of uranium 
exposure and toxicity.
    Senator Udall. Thank you. Congresswoman Haaland, please 
proceed.
    Ms. Haaland. Thank you, Chairman. Thank you so much.
    My first question is for Dr. Christensen. And I just want 
to follow up on a question that Chairman Udall had, and it has 
to do with the database you mentioned, that you're working on 
that to be better? Or what are you exactly doing with the 
database that will help this situation?
    Dr. Christensen. Thank you for your question. Our current 
database is based off of our electronic health system, which 
until now is run independently at each service facility. So 
that information does not flow into a central hub, meaning that 
to aggregate requires a lot of manual work, which can be done, 
but I'd like to see it to where we can also retool our system 
to feed it into a set database where we have real time numbers, 
real time geography; although it is understandably challenging 
on Navajo land because of addresses and the zip codes being the 
same, to actually specify an area or a region. That's why we 
look to partnering with Navajo Nation. The community health 
representatives are invaluable in helping us know where every 
single family is and every single person is so that we can 
evaluate them and check on them as needed.
    So we'd like to have that database available to say, real 
time, we're seeing an increase in this cancer, we're seeing a 
decrease hopefully in this cancer, and by doing that central 
hub, we hope this would become more facile.
    Ms. Haaland. Thank you. And thank you for raising the 
importance of the community health representatives. Those are 
important all over Indian Country, and we need to always 
support them.
    Now, you are the chief medical officer for the Navajo Area, 
but not every Indian community who suffers from illnesses 
caused by uranium and other radiation are in your area. So is 
the Indian Health Service as a whole, to your knowledge, 
working on making sure or moving this issue forward so that 
every single community can reap the benefits of modernization 
of the database in the electronic health records?
    Dr. Christensen. Thank you for your question. We do have 
support from headquarters and we do work with our adjacent 
areas of Albuquerque Service Unit and the Phoenix Service Unit, 
and we are more than willing to collaborate on any data and any 
gathering of information because, we do cross borders quite 
often, and we don't actually look at those as a barrier to 
helping anyone. We accept everyone at our hospitals, we're 
happy to help them, and we're happy to work with our two 
partners on either side of us to make sure we're collecting 
appropriate information.
    Ms. Haaland. Thank you so much. And within this data 
collection, do you collect data on the occupation of patients 
you treat so you can potentially identify health conditions 
arising from workplace conditions?
    Dr. Christensen. Yes, we do. We ask a series of questions 
upon presentations to our facilities, which we continue to 
expand. I'm not sure the patients like answering all those 
questions all the time, but it's very vitally important to us 
to gather that information. We are also looking to include the 
social determinants of health and we now have proper coding for 
that, so we'll be able to also see who's suffering the most 
from thosechallenges of the determinants of health, and that 
also helps us align our resources for the patients and for the 
people.
    Ms. Haaland. Thank you so much. The Indian Health Service 
is the first line of defense when it comes to the healthcare 
needs of Indian Country, but it sounds like in some cases that 
the needs of patients who are exposed to radiation aren't 
necessarily being met in the best way possibility. Are there 
changes that need to be made to the law or IHS or to funding 
levels to ensure that all patients get the care they need? And 
I mean, we'd like to know, because as Members of Congress, we 
can likely move some of these things forward. So what's your 
opinion on that?
    Dr. Christensen. Well, certainly we have a big challenge 
ahead of us, because we do also have our tribal organizations 
in Navajo Area which we very much collaborate with along with 
Navajo Nation. So there are a lot of entities providing care. 
Some of the challenges for the victims of uranium exposure come 
from the type of examinations they must undergo to be 
certified, and that currently wasn't offered anyplace in 
Navajo.
    We have worked to recruit two pulmonologists into our area, 
in Shiprock and Gallup, and we're going to bring some of the 
pulmonary function testing into our area, which will negate 
them having to travel to Denver and other places. So I think 
it's a matter of managing our resources and prioritizing what's 
needed. And that's included from the babies that are being born 
to our elders, that we have to see what is needed for each of 
those generations, because they have different needs. I think 
the collaboration between Navajo Nation and our tribal 
facilities is actually the most paramount things that needs to 
continue and strengthen.
    Ms. Haaland. Thank you so much.
    I'd just like to let you know that our office is open. If 
there are any issues that you feel we need to know about, 
you're welcome to give me a call. That goes for all of you.
    So I'll move on to Mr. Gray and Mr. O'Konski. And I just 
wanted to thank my colleague, Assistant Speaker Lujan, for 
bringing up the downwinders in Tularosa and the Trinity Site. 
Those people made a tremendous sacrifice for our country. 
Right? I mean, World War II was--I mean, there could have been 
a different outcome if it weren't for the people here in this 
state specifically working to protect democracy around our 
world. And so I feel very strongly that the people here in New 
Mexico who have made those sacrifices--they deserve to be 
compensated. Full stop. So I just hope that you can understand 
how we feel about our citizens here in this state.
    So I wanted to just talk about the number of uranium mines 
on Navajo Nation lands that have not been cleaned up. And I'll 
say that on Laguna Pueblo, the Jackpile Mine, they are still 
waiting for--they need funds. I'll just say it like that. They 
need the money to clean up the Jackpile Mine. The job was not 
completed, and the job needs to be completed. And so since 
we're talking about commitments here, I would like your 
commitment to work with the governor of Laguna Pueblo and the 
council and their attorneys to make sure that you are open to 
their phone calls and their letters and that you are doing 
everything you possibly can to make sure that this gets done. 
The mine has been closed for around 40 years now. That is long 
enough for us to wait.
    And so I'm just going to put it like that. I would like to 
have your commitment to work withthem to make sure that this 
job gets done.
    Mr. Gray. Absolutely. You absolutely have my commitment, 
the commitment of my organization. We share a common strategy 
for wanting to see that work completed. And it does take too 
much time, it is a daunting task, and I know that people become 
very frustrated and impatient with that. But we should not be 
more frustrated by having lack of conversation, lack of 
dialogue, and lack of input. And we'll make sure that happens.
    Ms. Haaland. Thank you.
    Mr. O'Konski?
    Mr. O'Konski. We are part of the team with EPA, and we 
stand by to assist.
    Ms. Haaland. Thank you very much.
    And along those lines, when we look at the number or the 
amount of uranium extracted, you know, extraction in Indian 
Country, and other minority communities, and they wait years 
and years and years and in Laguna's case, decades, four 
decades, in fact, where other communities, where they're 
essentially nonminority communities, they tend to get it done 
in a timely manner. And so why doesn'tthe EPA enforce the 
Comprehensive Environmental Response Compensation and Liability 
Act, CERCLA, also known as the Superfund law, equally across 
all communities?
    Mr. Gray. Thank you for that question. My hope, after being 
with the agency for over 30 years, is that we do that, that we 
work very diligently to ensure that we are looking at all 
communities, that we're evaluating risks, that despite the 
economics of any given place, that we are bringing remedies, 
that we're bringing protections. We recognize through our 
environmental justice program that we have communities of lower 
economics that are also at higher risk because of the lack of 
air-conditioning, circulation, shelter in place, all those 
remedies that many of us that live in other neighborhoods take 
for granted.
    And so I would hope that if there's ever a concern about a 
remedy or about a selection of a remedy at a location, and if 
there's ever concern of an unfairness, that you bring that 
immediately to our attention. We would be happy to explain that 
and to investigate that. Because it is personally important to 
me, as a leader in the Region 6 office, as well as to all of my 
colleagues, that that not bethe case.
    Ms. Haaland. Mr. O'Konski? Do you have anything to add?
    Mr. O'Konski. No, ma'am, I don't have anything to add.
    Ms. Haaland. Okay. Chairman, those are all my questions.
    And I just thank you all so much again for being here, and 
thank the audience for being here, as well. We are committed to 
fairness in every single thing we do. We're committed to 
fairness in our government, because no one should be left out 
of--you know, we talk about the American dream everywhere, and 
that's something that's a given to all of us, and to Native 
Americans in this country, this is. And if anyone ever wonders 
why we join the military in numbers higher than any other 
community, it's because this is our land and we want to 
protectit. So thank you so much.
    Mr. Lujan. Mr. Gray, just one thing that I'd ask for you to 
consider conveying to the San Francisco office is: You'll later 
hear in testimony that's been filed by the president of the 
Navajo Nation, President Nez, he does respond to the two five-
year plans that were put together, and I quote from his 
testimony, ``that the Navajo Nation feels it was never 
adequately consulted on either plan,'' and now that the ten-
year plan is coming forward, the Navajo Nation, I then quote, 
``was not an active participant in the underlying development 
of this plan and suspects that it too will be devoid of the 
same.''
    So just so we make sure we convey that to the San Francisco 
office and make sure they understand.
    Mr. Gray. Absolutely. Thank you.
    Mr. Lujan. It's not a question of if. It's a matter of: It 
must be done. And as the Senator pointed out, it's not just 
asking for comments.
    Mr. Gray. Yes, thank you for sharing that thought. I'm 
happy to take that back. I'm happy to provide that feedback to 
them, and I'm happy also to share any models by which we can 
improve that.
    Mr. Lujan. Thank you.
    Senator Udall. Thank you very much, and thank you, 
Congresswoman Haaland. Thank you, Congressman Lujan, Assistant 
Speaker Lujan.
    Let me just say just one short comment on the testimony 
today. And it's really emphasizing that we have made progress, 
but there's so much more to do. There is really so much more to 
do. And when you get out, like the members of Congress here 
have in these communities, they feel an urgency. They feel that 
things need to be happening today. And that's just--they are on 
the ground, and I think they also feel some frustration with 
the pace that we're moving on. So I thought that was important 
to let you know a little bit about the kind of input that we 
get here.
    And I just want to really thank you for your time and 
testimony today. I'd like to remind you that the members of the 
panel, maybe other members on the Senate Indian Affairs 
Committee may submit follow-up questions for the record. Our 
Committee expects a response to those questions within 30 days. 
You all are nodding. I hope you will help us with that. And we 
just want to just thank you again.
    And I would excuse this panel and then we're going to take 
just a couple of minutes to change name tags and then to ask 
panel 2 to then come forward. So thank you very much.
    Senator Udall. We'll just be in a slight recess here as we 
shuffle.
    [Recess from 12:14 p.m. to 12:27 p.m.]
    Senator Udall. We're reconvened here, and we have our five 
witnesses before us, and they're very cramped around that 
table. We apologize for that. But don't worry; there will be a 
microphone for you and we'll get it around, and you will be 
able to be heard, loud and clear. And we just, once again, want 
to thank you for being here. We know many of you have traveled 
distances, many of you are very busy folks, you have got things 
you're doing, and are taking the time off to share with the 
Senate Indian Affairs Committee and Congresswoman Deb Haaland 
what your thoughts are on what happened. And feel free, also, 
in your openings, to talk about--you may be questioned about 
this--what you have heard already, you know, and give us your 
frank opinion of what's going on on these very important 
issues.
    And we'll now hear from our second panel of witnesses. Let 
me start from the left here, the Chairman of the Navajo Nation, 
the Honorable Jonathan Nez. We also have the Honorable Michael 
Chavarria, the Governor of the Santa Clara Pueblo and Chairman 
of the Eight Northern Indian Pueblos. We also have Mr. Ryan 
Riley, Councilman Riley from the Laguna Pueblo Council of 
Government. Mr. Phil Harrison, an advocate for the Navajo 
Uranium Radiations Committee. And Ms. Tina Cordova, advocate 
for the Trinity downwinders. And she was the cofounder of the 
Tularosa Basin Downwinders Consortium.
    Once again, thank you to all of you and why don't we start 
with President Nez and work to your left there.

    STATEMENT OF HON. JONATHAN NEZ, PRESIDENT, NAVAJO NATION

    Mr. Nez. Thank you and good afternoon, yatahey, Vice 
Chairman Udall and members of the Committee on Indian Affairs, 
Assistant Speaker Lujan and Congresswoman Haaland.
    My name is Jonathan Nez. I'm the president of the Navajo 
Nation. Thank you for this opportunity to present testimony on 
how our participation in supporting America's nuclear path has 
impacted the Navajo Nation.
    Joining me today is former president, chairman, Peterson 
Zah, and also our council delegate Amber Kanazbah Crotty; 
Navajo EPA executive director Oliver Whaley; Navajo Department 
of Healthexecutive director Dr. Jill Jim; Navajo Nation 
Washington Office Executive Director Santee Lewis.
    Also, we have here today former uranium miners, impacted 
community members, and others who continue to seek justice on 
this very topic.
    I also wish to express my appreciation to the Committee for 
convening this field hearing to examine the unique history and 
legacy of the atomic age and discuss whether the federal 
government lives up to its obligations related to the adverse 
impacts on people and our homelands. This hearing is long 
overdue, and we appreciate Chairman Grijalva also holding 
another meeting on the Navajo Nation last week. And a lot of 
the same folks that are here today were there, really heartfelt 
testimonies from our post '71 mine workers.
    It has been 75 years since the United States opened up the 
Navajo Nation for uranium mining and 40 years since the 
catastrophic Church Rock uranium mine spill. To summarize, our 
participation in the Cold War has devastated our lands and our 
way of life as Navajo people. The impact is not only physical, 
but spiritual and emotional, and will continue to cause much 
suffering for the Navajo people into the foreseeable future ata 
much greater rate if measures are not taken by the federal 
government to help mitigate the impacts.
    Approximately 30 million tons of uranium ore was extracted 
from Navajo lands during mining operations from 1944 to 1986 to 
support America's nuclear activities such as the U.S. 
military's Manhattan Project, World War II, and the Cold War. 
At that time, the United States Atomic Energy Commission was 
the sole purchaser of all uranium ore mined in the United 
States until 1970.
    The uranium mining boom transpired from these activities 
which led to the creation of hundreds of mines on and around 
the Navajo Nation. This meant that many of our Navajo people 
worked in these mines without proper safety measures, without 
knowing the long-term effects that it would have on them and 
their loved ones.
    Once the Cold War ended and the federal government no 
longer needed uranium ore to produce nuclear weapons, all of 
these mines were abandoned without any reclamation, let alone 
remediation. There are approximately 524 abandoned uranium mine 
sites on the Navajo Nation, while the Navajo Nation estimates 
that there could be far more. Unfortunately, only 219 of these 
sites haveavailable funds for cleanup and remediation efforts, 
leaving a total of 305-plus sites not being addressed and that 
pose severe environmental health hazards to surrounding areas 
and people.
    Although there's approximately $1.7 billion to clean up the 
219 mine sites, it is not enough. The Navajo Nation estimates 
it will cost an additional $3.5 billion to address the 
remaining 305-plus sites, which does not include the cost of 
long-term monitoring and maintenance.
    There are also four Uranium Mill Tailings Radiation Control 
Act sites, and many of them were brought to the first panel's 
attention. They are located within the Navajo Nation here. The 
radioactive mill tailings were merely capped with clay and rock 
and left at the former mill sites. As a result, the groundwater 
underneath these sites has been severely impacted with 
hazardous waste contamination.
    There's also one other uranium mill processing site located 
immediately adjacent to the Navajo Nation in Church Rock, New 
Mexico. On July 16, 1979, an earthen dam was breached, 
releasing over 1,000 tons--1,000 tons--of radioactive mill 
waste and 93 million gallons--93 million gallons--of acidic 
radioactive tailings solutions in the Puerco River, the largest 
hazardous waste spill in the history of the United States, and 
we are still working with the federal government to clean up 
that area.
    The uranium legacy on the Navajo Nation is expansive, 
costly, and remediation efforts are fragmented across numerous 
federal agencies, including the Environmental Protection 
Agency, Bureau of Indian Affairs, Nuclear Regulatory 
Commission, Department of Energy, Indian Health Service, and 
the Agency for Toxic Substances and Disease Registry, just to 
name a few. This fragmentation results in a constant state of 
evaluation and never seems to make any real changes.
    In 2007 and 2014, the federal government developed a five-
year plan to address uranium contamination, and there was 
little to no tribal input. With each five-year plan created for 
the Navajo Nation, the Navajo Nation was not adequately 
consulted, which is evidenced by the fact that these plans 
fail.
    We are presently developing another ten-year plan with U.S. 
EPA, and once again, the Navajo Nation was not an active 
participant in theunderlying development of this plan, and we 
suspect that it, too, will be devoid of addressing our 
concerns.
    The Navajo Nation has competent citizens who have gone to 
school and returned home to help, and they can provide a unique 
perspective from our way of life, teaching, culture, and 
tradition if we are able to have a seat at the table.
    The Navajo Nation is addressing these issues and to help 
our own people, we are not sitting back. Our nation has created 
a Dine Uranium Remediation Advisory Commission to work with the 
Abandoned Mine Lands Office, the EPA, and others to examine the 
impacts and to identify solutions. With the support of Delegate 
Crotty and Phil Harrison, the Navajo Nation has set aside funds 
in our current fiscal year budget to hire a lobbyist to push 
for the reauthorization and expansion of benefits under the 
Radiation Exposure Compensation Act. Under the proposed RECA 
bill, downwinders and post '71 mine workers will receive 
benefits that they are fully entitled to. This will bring some 
justice to them and their families, as many of them continue to 
suffer from cancer and other serious health problems.
    And today, there are many of our Navajo post '71 mine 
workers in attendance. Just to name a few, we have Leslie Begay 
and Tommy Reed and others, and we also have our brothers and 
sisters that are not from the Navajo Nation that are post '71 
that have joined us today, as well. Thank you for your 
advocacy.
    The Navajo Nation and the Tuba City Regional Healthcare 
Corporation also work with the cancer support community, Dr. 
Jill Biden, and other health professionals to establish the 
very first cancer treatment center on the Navajo Nation in the 
community of Tuba City, Arizona.
    We are also working with the Indian Health Service to 
determine the feasibility of creating another cancer center as 
part of a new hospital facility that will replace the aging 
Gallup Indian Medical Center. These are a few examples of what 
the Navajo Nation is doing to help our own people. It is time 
for the federal government to step up and do their part, as 
well.
    In conclusion, the federal government has failed us by 
allowing uranium mining on the Navajo Nation, leaving a mess, 
and by not ensuring adequate protection for U.S. citizens 
working in or living around uranium mine sites.
    Again, we thank the Committee for holding this hearing 
today and look forward to working with Congress to see how we 
can address the contamination of our lands and help our people 
suffering from serious health problems. Thank you.
    [The prepared statement of Mr. Nez follows:]

   Prepared Statement of Hon. Jonathan Nez, President, Navajo Nation
    Dear Chairman John Hoeven, Ranking Member Tom Udall, and Members of 
the Committee, I appreciate the opportunity to provide written 
testimony on the impact uranium mining has had on our Navajo people. It 
has been 75 years since the United States opened up the Navajo Nation 
for uranium mining and 40 years since the historic Church Rock uranium 
mill spill. To summarize, our participation in the Cold War has 
devastated our lands and our way of life as Navajo people. The impact 
is not only physical but spiritual and emotional and will continue to 
cause much suffering for the Navajo people into the foreseeable future.
    From the time of our emergence as Navajo people into our present 
world, our Diyin Dine'e have entrusted us Dine people with protecting 
and preserving our environment and land. Consequently, our Navajo 
creation story, as well as all of our oral traditions are intrinsically 
connected to our environment and land. Therefore, each Navajo 
individual has a sacred duty to maintain Hozhq, which in the English 
language can be translated to living in harmony and balance with our 
environment, land, and all living beings.
    Additionally, our elders have taught us that it is only by living 
this way that we as Navajo people can experience wholeness, self-
respect, and maintain an overall positive state of well-being. In 
contrast, when we don't do this, we experience Hochxq, which in the 
English language can be interpreted as all that is ugly, unhappy and 
disharmonious in our world, including all of the physical impacts that 
we are now experiencing across our Navajo Nation. From health issues 
like cancer and other diseases, to social issues like depression, 
suicide, domestic violence, and alcohol and drug abuse, to 
environmental issues like drought and now radiation exposure.
    While the outside world might consider these beliefs to be folly, 
implausible and not grounded in science, logic, or reason, we, Dine, 
are a spiritual people, and as such, we understand that our thoughts, 
actions, and traditional practices contain very real and inherent 
metaphysical power, which ultimately transfers into our daily lives, 
both for good and bad.
    In stating this, I hope it helps you to better understand why the 
issue of uranium contamination on the Navajo Nation is such an 
important and time-sensitive issue for our Navajo people. How can we 
live in harmony and balance when our people are chronically being 
exposed to radiation and our Mother Earth has been exploited and 
scarred with abandoned uranium mines?
I. The Legacy of Uranium Mining on the Navajo Nation
    The United States first opened up Navajo land for uranium mining in 
1944 to support the U.S. Military's Manhattan Project. Following World 
War II, uranium mining on Navajo lands increased due to the Cold War, 
and the United States Atomic Energy Commission (AEC) became the sole 
purchaser of all uranium ore mined in the United States until 1970. \1\ 
This subsequent mining boom led to the creation of hundreds of mines on 
the Navajo Nation and our Navajo people working in those mines. 
According to the U.S. EPA, approximately thirty million tons of uranium 
ore was extracted during mining operations within the Navajo Nation 
from 1944 to 1986. \2\ However, we won't know the actual amount of 
uranium mine waste left behind until remedial site evaluations are 
completed for all of the abandoned uranium mines on the Navajo Nation.
---------------------------------------------------------------------------
    \1\ Brugee, Doug, Timothy Benally, and Esther Yazzie-Lewis. The 
Navajo People and Uranium Mining, Albuquerque: University of New Mexico 
Press, 2006.
    \2\ Navajo Nation: Cleaning Up Abandoned Uranium Mines. (2019, 
April 12). Retrieved July 9, 2019, from https://www.epa.gov/navajo-
nation-uranium-cleanup
---------------------------------------------------------------------------
    Once the Cold War ended and the federal government no longer needed 
uranium ore to produce nuclear weapons, all of these mines were 
abandoned without any reclamation, let alone remediation. Indeed, it 
was a requirement in the AEC's lease agreements with the private mining 
companies who were extracting the uranium ore that no reclamation work 
was to be performed in case the United States should ever decide to 
restart the uranium mining on Navajo land so it could again purchase 
the uranium ore.
    According to U.S. EPA, there are approximately 524 abandoned 
uranium mine sites on the Navajo Nation, while the Navajo Nation 
estimates that there could be far more. Unfortunately, only 219 of 
EPA's identified sites have available funds for clean-up and 
remediation efforts, leaving a total of 305 sites not being addressed, 
and that pose severe environmental and health hazards to surrounding 
areas and people. \3\ Additionally, while these 219 sites have funds 
available, which total approximately $1.7 billion, it is not yet clear 
whether this amount is sufficient. Moreover, the Navajo Nation 
estimates that it will cost an additional $3.5 billion to address the 
remaining 305 sites, which does not include the cost of long-term 
monitoring and maintenance of areas where hazardous waste may be 
contained in a disposal cell.
---------------------------------------------------------------------------
    \3\ Abandoned Uranium Mine Settlements on the Navajo Nation. (2018, 
April). Retrieved July 9, 2019, from https://www.epa.gov/sites/
production/files/2018-05/documents/navajo_nation_settlement_fact_sheet-
2018-04-18.pdf
---------------------------------------------------------------------------
    There are also four Uranium Mill Tailings Remediation Control Act 
(UMTRCA) sites located within the Navajo Nation. These sites exist as a 
result of the uranium mill processing sites that were decommissioned by 
the United States. Here, the radioactive mill tailings were merely 
capped with clay and rock and left at the former mill sites. As a 
result, the groundwater underneath these sites has been severely 
impacted with hazardous waste contamination. These disposal cell sites 
are located in Mexican Hat, Utah, Shiprock, NM, Tuba City, AZ, and 
Monument Valley, Arizona.
    There is also one other uranium mill processing site located 
immediately adjacent to the Navajo Nation in Church Rock, NM, which has 
caused severe heartache for the Navajo people living in that area. It 
was here, on July 16, 1979, that the largest hazardous waste spill in 
the history of the United States occurred when the earthen dam to the 
pond holding the processing mill's uranium tailings was breached. \4\ 
The spill, releasing over 1,000 tons of radioactive mill waste and 93 
million gallons of acidic radioactive tailings solution into the Puerco 
River, traveled downstream through the Navajo Nation, to the community 
of Sanders, AZ, located nearly 60 miles west of the spill site. \5\ The 
effects of this spill are still being felt today and may be linked to 
the discovery of elevated levels of uranium in the local school's 
drinking water. The cleanup and management of these sites is currently 
being performed and monitored by the Department of Energy Office of 
Legacy Management at an annual cost of approximately $4 million. \6\ 
This does not include cleanup of the Sanders water contamination.
---------------------------------------------------------------------------
    \4\ Community Involvement Plan. (2016). Retrieved July 9, 2019, 
from https://www.epa.gov/sites/production/files/2017-11/documents/
cip_northeast_churchrock_kerrmcgee_quivira.pdf
    \5\ Id.
    \6\ Federal Plans: Related Documents. (2018, September 20). 
Retrieved July 9, 2019, from https://www.epa.gov/navajo-nation-uranium-
cleanup/federal-plans-related-documents#docs
---------------------------------------------------------------------------
    At present, the uranium legacy on the Navajo Nation is not only 
costly, but the remediation efforts are also fragmented across numerous 
federal agencies, including the U.S. Environmental Protection Agency 
(EPA), U.S. Bureau of Indian Affairs (BIA), U.S. Nuclear Regulatory 
Commission (NRC), the U.S Department of Energy (DOE), Indian Health 
Service (IHS), and the Agency for Toxic Substances and Disease 
Registry, just to name a few. This fragmentation results in constant 
state of evaluations and re-evaluations but never promulgates steps 
toward expedited remediation.
II. Abandoned Uranium Mines and Clean-up Efforts
    In October 2007, at the request of the U.S. House Committee on 
Oversight and Government Reform, USEPA, along with the BIA, the NRC, 
the DOE, and the IHS developed a coordinated Five-Year Plan to address 
uranium contamination on the Navajo Nation.
    Because the plan's objectives in that initial Five- Year Plan were 
never completely met, a second Five-Year Plan was created in 2014, in 
an attempt address the work still needing to be done during the first 
five years, and to establish objectives and strategies in moving 
forward to better address the most significant risks to human health 
and the environment. However, the Navajo Nation feels that it was never 
adequately consulted on either plan, which is evidenced by the fact 
that these plans fail to contain issues, concerns, objectives, goals, 
and desired outcomes most important to the Navajo Nation.
    Some of the aforementioned include: (1) comprehensive groundwater 
studies for all uranium impacted areas; (2) comprehensive Nation-wide 
studies regarding the health impacts to our Navajo people as the result 
of seven decades of chronic radiation exposure; (3); comprehensive 
Nation-wide studies regarding potential risk exposure pathways, 
including the plants we traditionally eat and use for ceremonial 
purposes, our sheep and livestock, which are primary sources of 
sustenance, and the water sources many of our Navajo people still use 
for drinking water and ceremonial purposes; (4) the establishment of 
cancer treatment centers on the Navajo Nation; (5) compensation and 
relocation for all Navajo families living in areas impacted by uranium 
mining; (6) the capacity building of our Navajo Nation Environmental 
Protection Agency to take the lead on addressing the abandoned uranium 
mine sites on the Navajo Nation; (7) including traditional and cultural 
knowledge into the CERCLA clean-up process, as well as in determining 
risk assessment components, prioritization factors, and so forth; (8) 
accountability and communication to the Navajo Nation from the various 
federal agencies regarding their outlined objectives; (9) a 
comprehensive strategic plan outlining the roles and duties of each 
federal agency in relation to the Navajo Nation's own lead agency, the 
Navajo Nation Environmental Protection Agency; (10) a more direct 
funding approach in providing resources to the Navajo Nation 
Environmental Protection Agency so that it has flexibility and 
discretion to more effectively and efficiently operate; (11) utilizing 
and researching better practices and technologies for site assessment 
and clean-up of uranium waste, which could significantly reduce clean-
up costs and provide better clean-up outcomes; and (12) a comprehensive 
plan to address how the federal government will fund the additional 305 
sites not currently being addressed, just to name a few.
    At present, another Ten-Year Plan is currently being developed, 
which is supposed to be submitted to the Navajo Nation's Environmental 
Protection Agency for comment. However, here again, the Navajo Nation 
was not an active participate in the underlying development of this 
plan, and suspects that it too will be devoid of the same said points.
    Additionally, the Navajo Nation specifically requests the following 
from the United States:

        1.  That the Phase 2 Priority Orphan Mine Trust, which is the 
        result of a settlement agreement between the Navajo Nation and 
        the United States to complete remedial site evaluations at 30 
        abandoned uranium mine sites for which the United States is the 
        responsible party, be expanded to 48 sites, and also include: 
        (1) the 18 sites not currently being addressed in the Tachee/
        Blue Gap area; (2) the 9 sites not currently being addressed in 
        the Cove area; and (3) the 8 sites not currently being 
        addressed in the Tse Tah area. Additionally, in relation to 
        groundwater contamination, the current settlement agreement 
        only includes 2 water studies. The Navajo Nation would like 
        this number expanded to 5, and to include the following 
        geographic areas: (1) Sanders, AZ; (2) Cameron, AZ; (3) Church 
        Rock, NM; (4) Tse Tah, AZ; and (5) and Tachee/Blue Gap, AZ. 
        Lastly, that the settlement agreement be amended to not only 
        include the completion remedial site evaluations for these 48 
        sites, but also clean-up.

        2.  That the Tronox abandoned uranium mine sites on the Navajo 
        Nation receive first priority in relation to clean-up 
        activities under the Tronox settlement agreement.

        3.  That the United States pass comprehensive legislation 
        allocating permanent funds to the clean-up of all abandoned 
        uranium mines on the Navajo Nation. However, in the interim, 
        that the United States DOJ begins negotiations with the Navajo 
        Nation for additional funding to address the 305 sites with no 
        current funding.

        4.  That the USEPA works towards establishing the Navajo Nation 
        Environmental Protection Agency as the lead agency for the 
        clean-up of all abandoned uranium mine sites on the Navajo 
        Nation.

    Another area of concern for the Navajo Nation that is currently not 
being addressed as part of the present uranium contamination clean-up 
efforts is the previously mentioned UMTRCA sites within the Navajo 
Nation, which are overseen by the DOE. All of these sites have 
groundwater issues and the remediation strategy that was implemented 
has not been successful. As a result, DOE is now reevaluating their 
approach and is considering 3 across the board alternatives for these 
sites:

------------------------------------------------------------------------
           Alternative                          Main Points
------------------------------------------------------------------------
#1: Remove Pond--Continued         Remove evaporation ponds; Cease
 Monitoring                         contaminate extraction and use
                                    supplemental standards; Continued
                                    Monitoring; May include removal of
                                    unneeded infrastructure throughout
                                    site.
#2: Replace Pond--Implement Newer  Replace pond; Continue contaminate
                                    extraction.
Technology                         Implement newer remediation
                                    technologies.
#3: No Action                      Continue with current strategy;
                                    Monitor buildup of sediment in pond;
                                    Repair liner as needed.
------------------------------------------------------------------------

    As to these alternatives, 1 and 3 are not acceptable, but the 
Navajo Nation supports alternative 2 upon further consultation with the 
Navajo Nation.
III. Cancer Among the Navajo
    Cancer is the second leading cause of disease and death for the 
Navajo people. \7\ Cancer rates have doubled on the Navajo Nation from 
the 1970s to the 1990s. The Indian Health Service estimates that 7.3 
percent of all deaths in the Navajo Area Indian Health Services region 
were due to cancer from 1999 to 2001. From 2005-2013, the cancers with 
the ten highest incidence counts among the Navajo were female breast, 
colorectal, stomach, prostate, kidney, uterine, stomach, non-Hodgkin 
lymphoma, pancreas, liver, and lung.
---------------------------------------------------------------------------
    \7\ Navajo Nation Mortality Report, 2006-2009 (Rep.). (n.d.). 
Retrieved http://www.nec.navajo-nsn.gov/Portals/0/Reports/
Vital%20Statistics%20Report%202006%20to%202009%20FINAL.pdf.
---------------------------------------------------------------------------
    In comparing the incidence rates of cancers by gender, Navajo men 
were more likely to be diagnosed with cancer. Prostate cancer was the 
most commonly diagnosed cancer among Navajo men, followed by colorectal 
cancer, kidney cancer, and stomach cancer. Among Navajo women, breast 
cancer was the most commonly diagnosed cancer, followed by colorectal 
cancer and uterine cancer, and kidney cancer.
    Reports of cancer among the Navajo people were published in the 
medical literature as early as the 1930. A common finding in these 
reports was the relative low number of cancers observed among the 
Navajo. For example, C.G. Salsbury, M.D., a physician who worked among 
the Navajo in Ganado, Arizona, wrote in the Arizona Medicine that 
cancer rates were lower among the Navajo compared to whites and 
questioned whether the Navajos were protected from diabetes and cancer 
by their diet and nutrition.
    Following World War II, uranium mining swept onto the Navajo Nation 
and settled within uranium-rich regions including Arizona communities 
of Cove and Monument Valley, and New Mexico communities of Sanostee and 
Church Rock. Tailings from the milling process were left untreated in 
Shiprock, New Mexico, Tuba City, Arizona, and Kayenta, Arizona. Decades 
later, increasing rates of lung cancer (10.4 cases per 100,000 persons 
incidence rates, 2005-2013, males and females combined, all ages) in 
this generally non-smoking population were attributed to occupational 
exposure with working in the uranium mines.
    Incidence (new cases) rates compared to incidence rate of non-
Hispanic white (NHW), cases per 100,000 persons incidence rates, 2005-
2013, males and females combined, all ages:

  <bullet> Liver (9.9 incidence rate compared to 4.8 incidence rate of 
        non-Hispanic whites)

  <bullet> Stomach (15.0 incidence rate compared to 4.3 NHW)

  <bullet> kidney (25.6 incidence rate compared to 14.0 NHW)

    A report covering years 1989-1993 revealed that the mortality for 
all cancers among American Indians and Alaska Natives (AI/AN) remained 
lowered compared to whites. Yet, mortality rates, in populations 
comparative measure, for cancers of the liver, stomach, kidney, and 
gallbladder were much higher than whites.

    Mortality (pass away) rates compared to incidence rate of non-
Hispanic white, cases per 100,000 persons incidence rates, 2005-2013, 
males and females combined, all ages

  <bullet> Liver (8.1 mortality rate compared to 4.6 mortality rate of 
        non-Hispanic whites)

  <bullet> Stomach (9.8 mortality rate compared to 2.2 NHW)

  <bullet> Kidney (7.2 mortality rate compared to 3.5 NHW)

  <bullet> Gallbladder (2.9 mortality rate compared to 0.4 NHW)

    AI/AN women also had significantly higher mortality rates from 
cancer of the cervix than white women. In a report covering years 1999-
2004, incidence rates for all cancers among AI/AN, including the Navajo 
in the southwest were lower than whites, while cancers of the stomach, 
liver, kidney, gallbladder, and cervix for females were much higher.
    Navajos are 7.2 times more likely to pass away from gallbladder 
cancer, 4.4 times more likely to pass away from stomach cancer, 2.1 
times more likely to pass away from kidney cancer, and 1.8 times more 
likely to pass away from liver cancer than non-Hispanic whites.
    Among Navajo men, mortality from prostate cancer, stomach cancer, 
and liver cancer were most common. And, among Navajo women, mortality 
from breast cancer, stomach cancer and liver cancer were most common.
IV. Disturbing the Navajo Way of Life
    The stories told by our Navajo uranium workers and families of 
deceased mine workers and community members is unfathomable. Some 
common examples include an individual who as a child played in an 
abandoned mine or mill tailing pile, a sheep herder who watered his 
sheep in an un-reclaimed open pit mine, an elderly woman who for many 
years washed the dust-coated clothing of her uranium miner husband, or 
a family who obtained their drinking water from a stream that ran 
through or near a uranium mine.
    We also hear stories of families who have had to get rid of their 
entire livestock herd or had to tear down a house or Hogan made with 
radioactive materials. There are also families who have had to struggle 
to survive following the death of the main breadwinner in their family. 
And, there are those families who could not continue their 
participation in ceremonies for a variety of reasons such as limited 
mobility, loss of income, loss of traditional space/home, etc.
    These stories are telling of the emotional, traditional, spiritual, 
and cultural loss our Navajo people have had to endure. What's more 
concerning is that the impact then becomes generational and our people 
are never able to fully heal. It is the Navajo way of life to life in 
harmony with everything that surrounds you; and if your land and 
environment remains contaminated, how do we return to a state of Hozhq?
V. Conclusion
    In conclusion, what the Navajo people desire most is to have their 
lands cleaned and remediated. It's been far too long. We need to bring 
this long and sad period of history to a close. As President of the 
Navajo Nation, I call upon Congress to work with the Navajo People to 
address the concerns we have raised for uranium mine workers, 
downwinders, and families.
    Ahe'hee' (thank you),

    Senator Udall. Thank you very much, President Nez. Governor 
Chavarria.

 STATEMENT OF HON. J. MICHAEL CHAVARRIA, GOVERNOR, SANTA CLARA 
                             PUEBLO

    Mr. Chavarria. Out of respect, and just good afternoon at 
this time, Chairman, members of the Committee.
    My name is Michael Chavarria. I serve as governor for Santa 
Clara Pueblo. I also serve in the capacity of the chairman for 
the Eight Northern Indian Pueblos Council and the vice-chairman 
for the All Pueblo Council of Governors, which is a consortium 
of the 19 pueblos in New Mexico, to include the Pueblo of 
Isleta del Sur down in Texas.
    For today's hearing, I'm going to be providing my testimony 
as the governor of Santa Clara Pueblo. Regarding the title of 
today's hearing, ``America's Nuclear Past: Examining the 
Effects of Radiation in Indian Country,'' this help is quite 
important to many tribes and pueblos here in New Mexico. Today 
my testimony will focus on theissues related to my Pueblo as it 
pertains to Los Alamos National Laboratory, or LANL. LANL, 
originally referred to as Site Y, was opened in the town of Los 
Alamos in 1943 with a single mission at that time to design and 
manufacture the world's first atomic weapon. That mission was 
successful. The so-called ``Fat Man'' device was created, was 
successfully tested, and then dropped on Japan in 1945.
    In 1942 the so-called ``secret city'' sprang up seemingly 
overnight as part of the Manhattan Project. However, this 
wasn't a secret city to us, as it was literally right in our 
backyard. Maps reveal that in the early days of the Manhattan 
Project, LANL once shared a boundary with Santa Clara Pueblo in 
an area called Area E within Site Y. During these times, our 
members recall visually observing explosive testings occurring, 
while feeling the shock waves and concussions of those blasts 
while they were hunting, collecting medicinal plants, or 
gathering fuel wood.
    I understand the critical need for national security, but 
at what cost? Due to our lifestyle living off the land, we rely 
strongly upon the plant, animals, and water resources of the 
area for a variety of purposes, including food, medicinal 
needs, traditional practices, production of crafts, and 
ceremonial purposes. We do have concerns about the health 
effects from activities at LANL, but we as pueblo people, must 
retain our traditions and lifestyle, living off the land, and 
it's not optional.
    In my written testimony I discuss that in 1998, the 
Department of Energy provided funding to the Centers for 
Disease Control and Prevention to begin a study of records at 
LANL to better understand whether radioactive materials, known 
as radionuclides, and other toxic chemicals are released into 
the environment. During the historical operations from the 
1940s through the 1960s, the CDC began the Los Alamos 
Historical Document Retrieval and Assessment Project in 1999, 
and continued to 2009. In 2010 the CDC, through its 
contractors, presented this report to the Pueblo, an official 
community survey, which document I would respectfully ask, 
Chairman, to submit for the record. I'll give a copy to 
Anthony.
    Senator Udall. No objection. So submitted.
    Mr. Chavarria. Thank you, Chairman.
    In the summary of that report, the report confirms that 
airborne plutonium releases were higher at LANL in the 1940s 
and 1950s than earlier reports indicated and should be 
prioritized for future or further analysis. During that time, 
the reports state exhaust systems used to process plutonium in 
crude facilities during World War II were unfiltered. There 
were no high-efficiency particulate air, or HEPA, filters used 
and LANL was unusually hesitant or slow to implement installing 
of those filters, meaning raw materials were released into the 
atmosphere.
    The report indicated the next step to address the impact on 
surrounding communities, both Native and non-Native, to include 
conducting a more detailed dose reconstruction for all or a 
selective set of releases and locations identified in the 
report. However, to this date, no funding has been provided for 
those next steps, which I feel is unacceptable.
    For Santa Clara Pueblo, this remains a concern. The need 
for a formal dose reconstruction study needs to happen to get a 
full understanding of the health impact of those radiation 
releases from the past. So funding the CDC for this purpose 
isparamount. Santa Clara Pueblo does receive limited funding 
from the Department of Energy through a program known as the 
Los Alamos Pueblos Project, or LAPP, since limited funding 
helps to collect data to conduct our own analysis and includes 
oversight of the various processes occurring at LANL. However, 
such funding needs to be increased, as well.
    In addition to the LAPP funding, the Department of Energy 
provides limited funding to allow Santa Clara Pueblo to 
participate in the Los Alamos National Lab Trustee Council, 
along with the Department of Energy, the U.S. Department of Ag, 
the Forest Service, the State of New Mexico, and the Pueblos of 
San Ildefonso, Jemez, and Cochiti. The task of the Trustee 
Council is to work cooperatively to conduct an assessment of 
natural resources potentially affected by radiological releases 
of contaminants from LANL. The end goal is to restore any 
injured natural resources in the condition they would have been 
but for the releases of the hazardous contaminants. The 
Department of Interior and BIA will not contribute funds to 
assist the Pueblo to participate in the Trustee Council, even 
though the Department of Interior funds natural resource damage 
assessment work for other tribesacross the nation. The 
Department of Interior has taken a stand because a potentially 
responsible party for the hazardous releases in this case is a 
sister federal agency, the Department of Energy.
    So we are at a disadvantage compared to other tribes in 
having the financial and technical resources to fully assess 
the impacts of radionuclide releases at LANL.
    So in closing, we request Congress to help allocate funding 
to the CDC by completing a true dose reconstruction at LANL to 
address what CDC identified as historical radionuclide releases 
from the early days of LANL.
    So thank you very much for your consideration of this 
testimony. I stand for questions.
    [The prepared statement of Mr. Chavarria follows:]

Prepared Statement of Hon. J. Michael Chavarria, Governor, Santa Clara 
                                 Pueblo
    Introduction. Thank you Chairman Hoeven, Vice Chairman Udall, and 
Members of the Committee for the opportunity to provide testimony on 
this critically important topic addressing the impacts of the nation's 
nuclear history in Tndian country.
    My name is J. Michael Chavarria and I am the Governor of Santa 
Clara Pueblo located in northcentral New Mexico and am testifying today 
in that capacity. I also have the honor of serving as the Chairman of 
the Eight Northern Indian Pueblos Council and as Vice Chairman for the 
All Pueblo Council of Governors.
    This is a topic that is quite important to many different Tribes 
and Pueblos in New Mexico because of the very direct history the 
development of nuclear weapons plays in our little part of the world. I 
do not know that any amount of clean up or compensation can ever 
reclaim the cultural losses or fully address the health effects 
suffered by the peoples of Laguna Pueblo for the Jackpile Uranium mine 
on Laguna lands, or for the many continuing effects of uranium mining 
felt by Acoma, Zuni, and Navajo peoples, but my testimony today will 
focus more on issues related to my Pueblo and other Pueblos that are 
near Los Alamos National Laboratory, also known as LANL.
    Key Background regarding LANL and its relationship to surrounding 
Pueblos. Originally referred to as ``Site Y,'' what is now known as 
LANL (the laboratory's official name has changed over the decades) was 
opened in the town of Los Alamos in 1943 with a single mission at that 
time--to design and manufacture the world's first atomic weapons. LANL 
succeeded in that mission. The so-called ``Fat Man'' device was tested 
at the Trinity Site in the Tularosa Basin of New Mexico on July 16, 
1945 and then the bomb was dropped on Japan less than a month later. 
Los Alamos is one of three ``secret cities'' that sprang up seemingly 
overnight as part of the Manhattan Project to support the efforts of 
the U.S. Government to develop and test nuclear weapons. The Manhattan 
Project was so secret at its inception that knowledge of the project 
was even kept from then-Vice President Harry S. Truman.
    LANL was built on a very beautiful volcanic plateau known as the 
Pajarito Plateau and is essentially encircled by four different 
Pueblos--Jemez Pueblo, the Pueblo de Cochiti, the Pueblo de San 
Ildefonso, and Santa Clara Pueblo. The Pueblo de San Ildefonso shares a 
direct border with the lab. However, maps reveal that, in the early 
days of the Manhattan Project, LANL once shared a boundary with Santa 
Clara Pueblo at a location called ``Area E'' within ``Site Y.'' In 
fact, members of our Pueblo recall explosives testing occurring during 
the Manhattan Project and feeling shock waves from those tests at Santa 
Clara. Our Pueblo's current closest border to LANL is approximately 5 
miles as the crow flies from the current-day boundary of LANL. It has 
been well-documented that Santa Clara Pueblo is in the path of the 
prevailing winds of LANL. We are thus part of the LANL down-winders.
    Since time immemorial, ancestral Puebloan people occupied extensive 
areas of the Pajarito Plateau including areas of the plateau that 
eventually became LANL. The Pueblos of Cochiti, Jemez, San Ildefonso, 
and Santa Clara, as well as other Pueblos in the region, continue to 
actively use and rely upon the plant, animal, and water resources of 
the area for a variety of purposes including food, medicinal needs, 
traditional practices, production of crafts, and ceremonial purposes. 
There are concerns about the health effects of conducting activities in 
this area, but we as Pueblo people must maintain our traditions. It is 
not optional.
    It is also important to remember that Pueblo people are land-based 
people. Although each Pueblo is unique in its traditions, our shared 
values are based on the fundamental belief that all people are 
inherently interconnected with the land. We believe all of the natural 
ecosystems must be respected and cared for so that all peoples remain 
healthy now and into the future. When this sacred area of the Parajito 
Plateau was seized by the U.S. Government for the Manhattan Project, 
the Pueblo peoples were denied access to areas of traditional and 
cultural importance that had been respected and cared for by our 
ancestors. Being denied access to sacred areas so that weapons of 
destruction could be developed in those places is an upsetting part of 
our history.
    Moreover, LANL's mission continues to include the development of 
plutonium pits for nuclear weapons which continues that cycle of 
destruction. The Pueblos are patriotic people and we care deeply about 
protecting the national security of the United States, but using such a 
sacred area to promote destruction is an on-going harm that Pueblo 
people feel in our hearts. To help heal that hurt, we at Santa Clara 
Pueblo are trying to find ways to promote clean-up and restoration of 
the natural resources that were injured by LANL and upon which we 
depend for our on-going traditions through collaborative processes with 
the Federal Government and the State of New Mexico.
    Past Federal Efforts to Examine Radiation Impacts of LANL on 
surrounding communities. In 1998, the Department of Energy (DOE) 
provided funding to the Centers for Disease Control and Prevention 
(CDC) to begin a study of records at LANL to better understand whether 
radioactive materials known as radionuclides and other toxic chemicals 
were released into the environment by the lab during its historical 
operations in the 1940s through 1960s, and to gather the applicable 
documentation in one place to support doing an off-site dose 
assessment. The CDC began the ``Los Alamos Historical Document 
Retrieval and Assessment Project'' (LAHDRA) in 1999 and continued its 
work through 2009. In 2010, the CDC, through its contractors, presented 
its LAHDRA report to the public, an official ``community summary'' of 
which is attached to this testimony for the record. The CDC's study 
team indicated in the report that they compiled enough information to 
reconstruct public exposures resulting from the most significant of 
LANL's historic releases to allow health professionals to assess the 
extent of measurable significant health effects--effects that the 
Pueblos remain deeply concerned about today.
    The report summarized a wealth of historic documents about areas of 
radiation exposure and included a preliminary conservative screening 
analysis of potential exposures to certain key radionuclides of 
greatest concern. The LAHDRA report confirmed that airborne plutonium 
releases were higher at LANL in the 1940s and 1950s than earlier 
reports had indicated and should be prioritized for further analysis. 
The report described how plutonium was processed in crude facil ities 
during World War II and how many of the exhaust systems for those facil 
ities were unfiltered. The report also stated that ``LANL was unusually 
slow in implementing the use of high efficiency particulate air (HEPA) 
filters on the exhaust systems ofplutonium facilities.'' (LAHDRA 
Community Summary, page 10.) In addition to plutonium, the CDC also 
recommended that tritium and uranium be pat1 of the radionuclides that 
should be considered in further analyses of impacts from historic 
releases. The CDC indicated that a possible next step to address 
impacts on surrounding communities could include conducting a more 
detailed dose reconstruction for all or a selected set of releases and 
locations identified in the report.
    Dose reconstructions involve developing methods to assess and 
estimate environmental doses and to determine risk of environmental 
exposures through selected calculation methods. The CDC had no funding 
to proceed to this next important step, however. Some efforts were made 
back in 2010 to secure that funding but the efforts did not succeed, 
even though the information a formal dose reconstruction could provide 
is still very much needed and should be considered by Congress now.
    Need for additional federal funds to assist the Pueblos near LANL 
in fully understanding impacts of radionuclide releases at LANL. We 
still have unfinished business from the CDC's LAHDRA report. There is 
still a need for a formal dose reconstruction study to be done to help 
both Native and non-Native communities surrounding LANL understand the 
health impacts of radiation releases that occurred in the early years 
of LANL before environmental laws went into effect. This is important 
information that the Pueblos sti ll need to know even though some of 
the Pueblos are conducting human health risk assessments using more 
recent data. The CDC, through the LAHDRA work, gathered the necessary 
information demonstrating that airborne plutonium releases were high 
during historic LANL operations. Inhalation of plutonium particles is a 
concern because plutonium particles can imbed in the lungs and emit 
alpha and gamma radiation for many years and increase the risk for 
certain cancers. Our Grandmas and Grandpas who inhaled these plutonium 
particles may have already passed on but we are still owed that 
information as Pueblos whose ancestral lands were seized for the 
production of this plutonium.
    In addition, more funding is needed to assist the on-going efforts 
of the four Pueblos closest to LANL to collect and analyze more recent 
data and to participate in collaborative processes to restore natural 
resources of cultural importance to us that were injured by LANL 
radionuclide releases. The four Pueblos that are closest to LANL--
Cochiti, Jemez, San Ildefonso and Santa Clara--all receive limited 
funding from the DOE through a program known as the Los Alamos Pueblos 
Project or LAPP. LAPP funding helps the four Pueblos collect data and 
conduct their own analyses and provide oversight of various processes 
addressing LANL. In addition, DOE provides very limited funds to allow 
the four Pueblos to participate in the LANL Trustee Council along with 
the DOE, the U.S. Department of Agriculture, and the State of New 
Mexico. The LANL Trustee Council is working cooperatively to conduct an 
assessment of natural resources potentially affected by releases of 
contaminants from LANL. The end goal of the LANL Trustee Council's work 
is to restore any injured natural resources to the condition they would 
have been in but for the release of the hazardous contaminants. Based 
on the constraints ofCERCLA, however, the LANL Trustee Council has to 
focus more of its work on LANL releases since the 1980s and cannot 
fully embrace all of the historical releases of concern from the early 
days of the lab's operations.
    These processes through the LAPP program and the LANL Trustee 
Council will help the four Pueblos to better understand the Western 
science impacts of radionuclide releases at LANL but the Pueblos would 
be greatly benefited by additional funds to do this imp011ant work. The 
funding from DOE is appreciated but it is woefully inadequate. The 
Department of Interior (DOl) will not contribute funds for the four 
Pueblos to participate in the LANL Trustee Council even though DOl 
funds natural resource damage assessment work of other Tribes across 
the nation. DOl has taken this position because the potentially 
responsible party for the hazardous releases in this case is a sister 
federal agency, DOE.
    Thus, the four Pueblos really are at a disadvantage compared to 
other Tribes in having the financial and technical resources to fully 
assess impacts of radionuclide releases at LANL. This is an area where 
Congress can help with additional funds. Congress can also help by 
finally authorizing and funding a true dose reconstruction at LANL to 
address what the CDC has already identified concerning historical 
radionuclide releases from the early days of LANL.
    Thank you for your consideration of this testimony. We look forward 
to working with Congress, the DOE, and other appropriate federal 
agencies to address these critical issues.

    Senator Udall. Thank you very much, Governor.
    Councilman Ryan Riley. Thank you.

STATEMENT OF HON. RYAN RILEY, COUNCIL REPRESENTATIVE, PUEBLO OF 
                             LAGUNA

    Mr. Riley. Good afternoon. On behalf of Governor Herrera, 
the Pueblo of Laguna extends its gratitude to Vice Chairman 
Udall for chairing this hearing today; to Representatives Lujan 
and Haaland for your interest in attendance. To also Chairman 
Hoeven and the Committee, and to the Committee staff who have 
made the journey here today.
    I would also like to acknowledge our Pueblo of Laguna 
membership that has traveled from Laguna to attend this hearing 
today. Thank you for coming today.
    The Pueblo deeply appreciates the opportunity to testify on 
the effects of radiation in Indian Country, a subject of great 
long-standing and ongoing concern to the Pueblo of Laguna. This 
statement is submitted by the Pueblo of Laguna to apprise the 
Committee of the impacts of radiation exposure on the Pueblo's 
tribal lands. The needs of Pueblo members and families 
afflicted by mine-related diseases must be addressed. Further, 
the Pueblo's land, contaminated by past uranium mining, must be 
remediated as required under federal statute.
    The Pueblo of Laguna is a federally recognized Indian tribe 
with 8,800 tribal members affiliated with six different 
villages on 530,000 acres just west of Albuquerque, New Mexico. 
Those tribal lands contain the site of what was once the 
world's largest open-pit uranium mine, the Jackpile-Paguate 
Mine. The Pueblo's members and our land continue to suffer from 
radiation exposure,death, disease, polluted water, and 
thousands of fenced-off acres are the mine's legacy today.
    The United States aggressively promoted, encouraged uranium 
exploration and mining in an effort to develop nuclear 
capability for military purposes at the end of World War II and 
throughout the Cold War. It exercised extensive control over 
the uranium industry. Beginning in 1952 Anaconda Mining Company 
entered into BIA-approved leases to mine uranium on the Laguna 
reservation. Under the federal government's oversight, 
Anaconda, over a 30-year span, mined 24 million tons of 
uranium-bearing ore from Laguna tribal lands. After the United 
States had stockpiled enough uranium to meet its military 
needs, mining ended on the Pueblo's land in 1982, and the 
mining company finally left.
    Despite Anaconda's resistance, the Bureau of Indian Affairs 
required reclamation of the mine after its closure. But lacking 
federal standards that would adequately address a uranium mine 
cleanup, the BIA and Bureau of Land Management developed a 
reclamation plan intended primarily to restore the site back to 
its natural state or as close to as practicable.
    The limited reclamation was completed in 1995, but the 
Pueblo's members are still suffering profound health effects 
from not only the mining and reclamation periods, but also 
ongoing contamination. All told, 1,000 or more Pueblo members 
worked at the mine from 1953 to 1995. Many more, including 
women and children, were and continue to be exposed to 
radiation and hazardous substances in the water, in the air, in 
plants and meat that we eat, and even from the earth used to 
build homes, particularly in Paguate Village, which is situated 
on the edge of the largest mine pit at Jackpile.
    While no comprehensive health study has ever been conducted 
on the Pueblo, existing academic and medical studies 
supplemented by surveys confirm that cancer and respiratory 
illnesses have plagued Pueblo members for decades and still do 
to today. For example, a startling 88 percent of 402 pueblo 
home health patients who worked at the mine after 1971 have 
been diagnosed with pulmonary fibrosis, a RECA-compensable 
disease. In fact, research collected by the Southwest Research 
and Information Center shows no meaningful difference in the 
health effects on pre- and post-1971 mine workers.
    But the focus on uranium workers is too narrow. A regional 
survey found that 40 percent of the women who washed their 
spouses' contaminated work clothing reported a wide range of 
adverse reproductive outcomes, including miscarriages, 
stillbirths, and children with birth defects. 72 percent of 
Paguate homes tested over a three-month period in 2011 had 
excessive radon levels with a cancer risk equivalent to smoking 
between one to two packs of cigarettes per day.
    Accordingly, the Pueblo urges not only immediate expansion 
of RECA to include uranium workers from 1972 to 1990, but also 
further research and legislation to address the more widespread 
effects that have been ignored to date.
    EPA has listed the Jackpile Mine as a Superfund site in 
2013. The Pueblo is encouraged by the long-needed decision to 
remediate the mine and the preliminary steps taken to clean up 
the contamination under CERCLA to the extent that it is 
possible.
    In conclusion, uranium mining during the Cold War era left 
a long legacy of contamination borne significantly by a few 
American Indian tribes, including Laguna Pueblo. The people of 
our pueblo have already paid a devastating and steep price 
toassist the United States in its time of need. We continue to 
pay as our members struggle with death and disease and an 
enduring scar on the tribal landscape today. We implore the 
United States to repay its debt to the pueblos' members by 
addressing the health and welfare of our people and by cleaning 
up the environmental devastation left behind.
    Thank you for allowing the Pueblo of Laguna to testify 
today, Vice Chair. Our written testimony goes into greater 
detail. If you have any questions, I am ready to answer. Thank 
you.
    [The prepared statement of Mr. Riley follows:]

 Prepared Statement of Hon. Ryan Riley, Council Representative, Pueblo 
                               of Laguna
    Good morning. The Pueblo of Laguna extends it gratitude to Vice 
Chairman Udall for chairing this hearing, to Representatives Lujan and 
Haaland for your interest and attendance, to Chairman Hoeven and the 
Committee, and to the Committee staff who made the journey here. The 
Pueblo deeply appreciates the opportunity to testify on the Effects of 
Radiation in Indian Country, a subject of great, longstanding, and 
ongoing concern to the Pueblo of Laguna.
    This statement is submitted by the Pueblo of Laguna (``Pueblo'' or 
``Laguna'') to apprise the Committee of the impact of radiation 
exposure on the Pueblo's tribal lands. The needs of Pueblo members and 
families afflicted by mine-related diseases must be addressed. Further, 
the Pueblo's lands, contaminated by past uranium mining, must be 
remediated as required under federal statute.
The Pueblo
    The Pueblo of Laguna is a federally recognized Indian tribe located 
45 miles west of Albuquerque, New Mexico. The Pueblo has approximately 
8,800 members who are affiliated with six different villages. The 
Pueblo's lands consist of more than a half million acres in Cibola, 
Sandoval, and Bernalillo counties. Those lands contain the site of what 
was once the world's largest open pit uranium mine: the Jackpile-
Paguate Mine.
Summary
    In an effort to develop nuclear capability for military purposes at 
the end of World War II and throughout the Cold War, the United States 
promoted and encouraged uranium exploration and mining. The Pueblo of 
Laguna was a very early focus given its location in the Grants Mineral 
Belt, which stretches from the Pueblo to east of Gallup and has 
especially rich uranium deposits. During this period, the United States 
exercised extensive control over the domestic uranium industry, 
including exploration, production, processing, and marketing. For 
example, the United States set the price for uranium and established 
itself as the sole purchaser of uranium ore until the late 1960s. The 
rapid development of uranium mining in the Southwest during the Cold 
War left a long legacy of contamination. That price, paid for our 
national defense, was and is borne significantly by American Indian 
tribes.
    Beginning in 1952, Anaconda Mining Company entered into BIA-
approved leases to mine uranium on the Laguna Reservation. Under the 
federal government's oversight, Anaconda mined 24 million tons of 
uranium-bearing ore from Laguna tribal lands over a 30-year span, 
during a time when environmental controls were unsophisticated and 
undeveloped.
    Mining ended on the Pueblo's lands in 1982, and the mining company 
left. Despite Anaconda's resistance, the Bureau of Indian Affairs 
required reclamation of the mine after its closure. But, lacking 
federal standards that would adequately address a uranium mine cleanup, 
BIA and BLM developed a reclamation plan intended primarily to restore 
the site back to its natural state, or as close to it as practicable. 
That limited reclamation was completed in 1995, but the Pueblo's 
members are still suffering profound health effects from past exposure 
and ongoing contamination.
    To understand the horrible and lasting effects radiation and other 
uranium-related contamination have had for decades, and continue to 
have, on the Pueblo and its members, it is important to understand the 
history of the mine. That history spans almost seventy years, from the 
early 1950s when mining began through the mine's closure in 1982, 
followed by reclamation, post-reclamation, and finally the CERCLA 
remediation period beginning under the Comprehensive Environmental 
Response, Compensation, and Liability Act (``CERCLA'') in 2013 and 
still in its early stages.
Mining at Laguna
    Consistent with the United States' aggressive promotion of uranium 
mining, in May 1952, the Anaconda Mining Company (later Atlantic 
Richfield or ARCO) entered into a lease with the Pueblo, approved by 
the Secretary of the Interior, to mine uranium on 4,988 acres of Laguna 
land near the Village of Paguate. Additional BIA-approved leases were 
signed in 1963 and 1976 bringing the total to almost 8,000 acres. As a 
result, Anaconda operated what was then the world's largest open pit 
uranium mine at the Pueblo from 1953 until 1982. The vast majority of 
uranium produced on Indian land between 1950 and 1968 was purchased by 
the U.S. Atomic Energy Commission.
    Anaconda utilized three open pit mines and nine underground mines 
at Laguna to produce 24 million tons of uranium-bearing ore. More than 
400 million tons of earth had to be moved to obtain that ore. The pit 
located next to the Village of Paguate was the deepest at 625 feet. 
Mining conducted from the underground mines primarily began in the 
1970's. The mine employed as many as 800 tribal members, the majority 
of the Laguna workforce.
    Anaconda closed the mine on March 1, 1982, after the United States 
had the stockpile of uranium it needed for military purposes, 
international competition increased, and concerns about the nuclear 
power industry were growing.
The 1980s
    Despite requirements in the mining leases and federal mining 
regulations, Anaconda resisted its responsibility to reclaim the mine 
after its closure, even threatening litigation. As a result, the site 
lay dormant for seven years before efforts to reclaim the mine began. 
More than 2,000 acres of land and several pits needed to be reclaimed. 
Some pits were filled with contaminated water that had seeped up over 
the years. During that time, stockpiled waste blew into surrounding 
areas, including the Paguate Village, located just 30 yards from the 
mine. In addition, rain water washed waste from the mine into surface 
water tributaries.
    A draft environmental impact statement recommended reclaiming the 
mine because the site was a public health and safety hazard, noting 
that more serious hazards would develop if the site was not reclaimed.
    Reclamation would eventually begin only after Anaconda, the United 
States, and the Pueblo reached an agreement in 1986, approved by the 
Secretary of Interior, by which the Pueblo would perform the limited 
reclamation work under a contract with Bureau of Indian Affairs 
(``BIA'') funded by Anaconda (now Atlantic Richfield).
Reclamation
    There were no standards for reclaiming a closed uranium mine in 
place at that time. CERCLA was in its infancy and was not even 
mentioned in the almost 1,000-page environmental impact statement 
prepared by BIA and BLM. Accordingly, the reclamation was conducted 
with BIA and BLM oversight according to a Record of Decision and 
Management Plan developed by BIA in cooperation with other federal 
agencies and according to regulations under which BIA and BLM 
controlled mining and reclamation on tribal lands. The limited 
reclamation work by the Pueblo's newly created tribal corporation, 
Laguna Construction Co., began in 1989 under a Public Law 638 contract 
between the Pueblo and the BIA.
    As the Pueblo's trustee, the BIA is responsible for monitoring the 
site and its ongoing health and environmental impacts, and much remains 
to be done to mitigate the health and environmental impacts. Even then, 
nothing can erase the scar in the land, bring back the lives that have 
been lost, restore broken families, or heal the terminally ill.
EPA Designation of the Jackpile-Paguate Mine as a Superfund Site
    EPA listed the Jackpile Site on the National Priority List (NPL) by 
publication in the Federal Register on December 12, 2013, thereby 
making it a Superfund site. In summary, the results from EPA's 
preliminary site investigation showed that despite the surface 
reclamation of the mine areas, releases of hazardous materials from the 
site are still occurring and elevated levels of isotopic uranium have 
been detected in the surface waters of Rio Paguate, Paguate Reservoir, 
and downstream in the Rio San Jose. Surface water is used for fishing, 
livestock and wildlife consumption, and traditional/cultural 
activities.
    The first major step in the CERCLA process, the Remedial 
Investigation/Feasibility Study, is underway to identify the options 
for the ultimate CERCLA cleanup. But forty years after the mine's 
closure is forty years too long.
Radiation Impacts at Laguna
    Given this tortured history and the hazardous materials inherent in 
uranium mining, it was perhaps inevitable that members of the Pueblo 
would suffer from serious, all-toooften fatal, diseases.
    The Village of Paguate, situated on the edge of the largest open 
pit in the mining area, was significantly affected by the mining 
activity. In the village, often-daily blasting caused old stone and mud 
houses to crack apart. Paguate residents recall dust that seemed to 
linger for hours after a blast before settling on their homes, crops, 
and clothes.
    Little is yet understood about the stability of the radioactive 
pollutants and additional risks, including their migration into local 
groundwater supplies or into the atmosphere. Of the 24 million tons of 
ore mined from the Jackpile-Paguate Mine, approximately 23.7 million 
tons were left as waste, which is still dangerous because of 
radioactive elements it contains. In addition, water that flows through 
the site, including the Rio Moquino and the Rio Paguate, is 
contaminated from radioactive elements. Communities and families lost 
their water wells because of unsafe levels of radiation. Because water 
is so scarce in our arid part of New Mexico, the contamination of our 
water resources is particularly devastating to our people and to the 
entire region.
    Miners and mill workers were largely unaware of the dangers of 
radiation exposure. Even as the understanding of those dangers grew, 
the Federal Government failed to protect uranium workers and their 
families from the hazards of exposure to radioactive materials. 
Radiation exposure can cause disease that may not show up for 10-40 
years, and recall that Pueblo members worked actively on reclamation 
efforts as recently as 1995.
    Former mining and reclamation employees, as well as Pueblo members 
living in Paguate and downwind or downstream continue to report growing 
numbers of mining- and cancer-related illnesses. Many Laguna members 
have died, and many more suffer from disease linked to radiation 
exposure attributed to uranium mining. The United States is indebted to 
those Pueblo members who sacrificed their health and even their lives 
to provide uranium for America's Cold War nuclear arsenal.
    We asked the Southwest Research and Information Center (SRIC), an 
organization with significant expertise in uranium impacts, to help us 
prepare for this hearing by cataloging and analyzing available research 
on the health impacts of uranium, particularly on Laguna members. We 
hope to supplement this written testimony with a written report from 
the SRIC, but from the preliminary memorandum already provided to the 
Pueblo, at least four conclusions can be highlighted.
    First, the health impacts on Pueblo members specifically are 
profound. For example, a startling 88 percent of 402 Pueblo home health 
patients who worked at the mine site after 1971 have been diagnosed 
with pulmonary fibrosis, a RECA-compensable disease. That number alone 
is staggering and confirms what the Pueblo has known for decades: 
mining has had a devastating and ongoing effect on our community.
    Second, at least three studies on uranium mine workers show that 
there is little to no difference in the health effects on workers who 
were in the industry before and after 1971, the current RECA cutoff and 
when safety conditions supposedly improved. For example, a recent 2017 
study conducted in our area showed that 66 percent of mine workers 
employed after 1971 had abnormal chest X-rays indicative of 
pneumoconiosis, a RECA-listed lung disease. That is only two percent 
less that the pre-1971 workers in the same study. In a survey of some 
1,300 post-1971 mine workers in our region only a decade ago, more than 
70 percent reported ``uranium-related medical conditions'' as defined 
by federal agencies, but only nine percent of those illnesses would 
have been compensable under RECA because of the restrictive list of 
covered conditions. RECA must be amended, not only with respect to the 
time period, but also with respect to the scope of conditions covered.
    Third, the focus on mine workers is too narrow. The same regional 
survey found that 40 percent of women living with mine workers reported 
a wide range of adverse effects on their reproductive health, including 
miscarriages, stillbirths and children with birth defects, primarily 
because they were the ones who washed the contaminated work clothes 
worn by mine workers. And the risks of exposure to non-mine workers are 
ongoing. Seventy-two percent of Paguate homes tested over a three-month 
period in 2011 had excessive radon levels, with a cancer risk 
equivalent to smoking between a pack and two packs of cigarettes a day, 
and often more.
    Fourth, more research is nevertheless necessary. No comprehensive 
and focused study has been done on the health effects at the Pueblo. At 
a listening session in Paguate last month conducted by the University 
of New Mexico METALS Superfund Research Center, Village residents 
expressed a wide range of concerns about chronic health problems. 
Primary concerns included lung cancer and other cancers; respiratory 
diseases, asthma, and other breathing problems; potential health 
effects of ingesting crops grown in contaminated soils or meat from 
livestock and game exposed to mine wastes; and hypertension and 
cardiovascular disease. Pueblo members stand ready to volunteer for 
community-based health studies and medical screening programs, and to 
implement interventions to lessen the effects of exposure. There was 
strong demand for programs that include the generations that have 
followed the uranium workers of the 1950s through the 1980s.
    In short, the health effects and environmental dangers are real, 
they are ongoing and multigenerational, and they are not confined to 
mine workers. We at the Pueblo have known this for decades. If the 
United States needs still more data to understand and believe the 
endemic health and environmental damage its nuclear program has 
unleashed, then please fund the research.
Radiation Exposure Compensation Act (RECA)
    The Pueblo has worked with the New Mexico Congressional delegation 
to amend the Radiation Exposure Compensation Act to cover former 
uranium workers beyond the 1971 cutoff period. Again, the Jackpile-
Paguate Mine did not close until 1982, ten years after the cutoff date 
under RECA, and many Pueblo members worked on the reclamation project, 
which continued until 1995. As shown above, post-1971 mine workers 
suffer the same health effects at virtually the same rates as pre-1971 
workers. They should be afforded the same benefits under RECA. The 
Pueblo therefore is grateful that S.947, the Radiation Exposure 
Compensation Act Amendments of 2019, would extend coverage through 
1990.
    While the Pueblo strongly supports the legislation, it should also 
be apparent from this testimony that it does not go far enough. What of 
the ill Pueblo members who worked on the reclamation project, which 
continued until 1995? What of the Pueblo women and children in Paguate 
who have died or are ill because they lived within a stone's throw of 
the largest uranium mine pit in the world? What of the Pueblo members 
of all ages and genders who have been exposed through other pathways? 
Justice does not end with the current RECA amendments.
Conclusion
    The Pueblo deeply appreciates the Committee's attention to this 
issue and the opportunity to testify, and hopes that finally real 
progress can be made. Sadly, not a whole lot has changed since, for 
example, our testimony in support of amendments to the Surface Mining 
Control and Reclamation Act seven years ago. The Pueblo is encouraged 
by the preliminary steps that have been taken toward remediation of the 
Jackpile-Paguate uranium mine under CERCLA and appreciates the 
cooperation of its federal trustee in facilitating the CERCLA process. 
The Pueblo is hopeful that RECA will be expanded, but much more remains 
to be done, and it must be done.
    Thank you for allowing the Pueblo to testify before this Committee. 
If you have any questions, please do not hesitate to contact me.

    Senator Udall. Thank you very much, Councilman Riley, and 
all the testimony of all the witnesses. Your longer testimony 
will be in the record.
    Mr. Phil Harrison.

 STATEMENT OF PHIL HARRISON, CONSULT/ADVOCATE, NAVAJO URANIUM 
                  RADIATION VICTIMS COMMITTEE

    Mr. Harrison. Thank you. Good morning. My name is Phil 
Harrison. I'm an enrolled member of the great Navajo Nation. 
I'm a former underground uranium miner, remediation worker, and 
victim of the past Cold War era.
    It is an honor and privilege to be invited and present my 
statement today before the Senate Committee on Indian Affairs. 
I would like to personally thank Senator Udall and your 
colleagues who bring the oversight field hearing to New Mexico. 
The theme of ``America's Nuclear Past: Examining the Effects of 
Radiation on Indian Country'' certainly hits home, as it brings 
sadness and memories of our loved ones who died from uranium 
mining exposure and milling yellowcake.
    During the Cold War era, the Atomic Energy Commission under 
the United States Government looked towards the Navajo Nation 
for uranium when the U.S. discovered it in various parts of the 
Navajo Nation. The mining of uranium was fully engaged from 
about the late 1940s to the year 1990. My late father, Phillip 
Harrison, Sr., died from lung cancer at the age of 44. He was 
one of the early miners, along with my uncles, and hundreds 
more who went to work. The miners from the onset were never 
warned and unknowingly exposed to excessive radiation and toxic 
chemicals. Nor did they know the rationale behind mining 
uranium and not understanding what being patriotic was. It is 
sad to say that they did not speak English or write English.
    The federal government conducted several studies pertaining 
to uranium exposure. One of those studies was by the U.S. 
Public Health Service and the National Institute of 
Occupational Safety and Health. These records are held by 
Centers for Disease Control in Atlanta, Georgia. Through these 
studies, it is a known fact if you mine or mill uranium, you 
will get lung disease or lung cancer. After the fact, there are 
so many sad stories that many of our people and others across 
the nation have lost their loved ones in the Southwest United 
States.
    However, compensation programs were established and being 
administered by the U.S. Department of Justice and the 
provisions were too stringent. According to the 2018 report by 
the U.S. Department of Justice, 6,447 members of 22 Indian 
tribes applied for RECA compensation. 4,253 were approved, and 
2,078 were denied pursuant to RECA as of February 2018. Of this 
amount, 5,523 Navajos submitted, 3,489 were approved, and 1,957 
were denied. The same numbers are also evident under the U.S. 
Department of Labor rules and regulation.
    There are some flaws in the law as to which we are 
requesting an executive discussion to recommend some proposed 
changes. These proposed changes would certainly benefit the 
former uranium workers and ease the requirements. Under the 
proposed changes, the RECA amendment of 2019, the post-'71 
uranium workers are included. The post-'71 uranium workers are 
suffering the same consequences, which many have died from lung 
disease and lung cancer. Our neighboring tribes, Laguna Pueblo, 
have also experienced the same deadly consequences within their 
tribe and continues to wait for the federal government to 
recognize, apologize, and compensate them fairly for their 
illness.
    In conclusion, in examining the effects of radiation in 
Indian Country, it should not be that hard to understand there 
was harm being done. The federal government knew the danger of 
radiation exposure and the deadly consequences. In addition, 
the Native people rendered services for national security and 
created America's nuclear weapons program.
    Furthermore, many Natives served in the U.S. Armed Forces, 
and as you know, the story behind the Navajo code talkers and 
how they won the war so we could have freedom. For all the 
sacrifices they have made, it is imperative to act on the 
proposed changes in the RECA law.
    So Vice Chairman, we have some concerns over the laws being 
administered by the Department of Justice and the Department of 
Labor. There's a list here that we have and one of them is that 
we would like to have the passage of the RECA amendment and 
also to meet with the Judicial Committee as soon as possible, 
the hearing that has been planned. And there are some flaws in 
the medical benefits, the wage laws, and impairment 
evaluations. So these are some things that we would like to 
have addressed as we go along with this struggle.
    Thank you, Mr. Vice Chair.
    Senator Udall. Thank you so much, Mr. Harrison, for that 
testimony.
    And please proceed, Ms. Tina Cordova.

  STATEMENT OF TINA CORDOVA, CO-FOUNDER, TULAROSA DOWNWINDERS 
                           CONSORTIUM

    Ms. Cordova. Good afternoon, Vice Chairman Udall. It's an 
honor to be with you here today to provide this testimony. I 
want to thank you for inviting me to participate, but I also 
want to acknowledge that I feel very honored to be a part of 
this distinguished panel.
    I hope you won't feel that I'm out of order when I mention 
something, because you invited our comments after the testimony 
we just heard. I think it's very unfortunate that Mr. Gray and 
Mr. O'Konski didn't remain, because we were here patiently 
listening to their testimony, and they have exited before we 
gave ours.
    As you know, Senator, I'm a native New Mexican, a mother, a 
grandmother, a daughter, a granddaughter, a sister, an aunt, a 
friend, and I'm also a small business owner of over 29 years. 
But I'm a cancer survivor and a downwinder, and a volunteer 
community organizer, co-founder of the Tularosa Basin 
Downwinders Consortium, or TBDC for short.
    Joining me today in the audience are many other downwinders 
representing communities from all across New Mexico. Some of 
these people have had cancer themselves or are battling cancer 
now. All of them have lost loved ones, far too many to mention 
here. We certainly know and understand the importance of these 
hearings.
    Senator Udall, as we thank you for this hearing and your 
support, we also want to acknowledge and thank your father, 
Secretary Stewart Udall, posthumously for the dedication he 
and, as a matter of fact, your entire family has had to the 
issue at hand. The creation and passage of the Radiation 
Exposure Compensation Act, or RECA, has its origins in your 
family, in the tireless work of your father, who possessed the 
moral compass to well understand the damage that was done to 
human health as our government sought to develop and test 
nuclear devices.
    In a 1992 article published in The New York Times, your 
father stated the following, and I quote: ``There is nothing 
comparable in our history to the deceit and the lying that took 
place as a matter of official government policy in order to 
protect this industry. Nothing was going to stop them, and they 
were willing to kill our own people.''
    Senator, we know that if it were within your power and your 
control, we wouldn't be here today to request the support of 
the U.S. Senate to pass the amendments to the Radiation 
Exposure Compensation Act. We would be here, Senator, today to 
celebrate with you the justice we have all fought so hard to 
achieve, the justice your father so doggedly fought for on 
behalf of the downwinders and uranium workers.
    Today we ask again for the support of the U.S. Senate in 
the passage of Senate Bill S-947, amendments to the Radiation 
Exposure Compensation Act, and adoption of the language to 
coincide with and match the language in the recently introduced 
House Bill HR-3783, whose primary sponsor is Congressman Ben 
Ray Lujan of New Mexico and which is completely supported by 
Congresswoman Haaland. We ask that the U.S. Congress extend 
compensation to the people of New Mexico, noting that New 
Mexico has played a pivotal role in this country's national 
security as home to the Manhattan Project, all the uranium 
mines that have been described here today, the Trinity Test 
Site, two national laboratories, Los Alamos and Sandia, and 
many other large government installations, too many to mention.
    Senator, as part of this testimony, I won't go into the 
specifics about the Trinity test that made it so devastating to 
human health. That was included in my written testimony already 
submitted. I want to focus on the at least three significant 
events that occurred this summer that support and advance our 
work.
    First, we were able to consult with Dr. Arjun Makhijani of 
the Institute for Energy and Environmental Research. He brought 
to our attention that when nuclear bombs were tested 
aboveground at the Nevada Test Site, monitors were in place in 
New Mexico that indicated fallout traveled to all parts of our 
state. The fallout didn't end at the New Mexico border, as is 
sometimes depicted in maps used by our government. It is 
important to note that exposure to radiation is cumulative. And 
while many people in New Mexico received a high dose of 
radiation from the Trinity test, New Mexicans also continued to 
receive chronic doses from the fallout produced at the Nevada 
Test Site well into the summer of 1962.
    This data is documented in the book entitled ``Under the 
Cloud: The Decades of Nuclear Testing,'' by Richard Miller.
    Second, Robert Alvarez and Kathleen Tucker authored an 
article published in the July 2019 issue of the Bulletin of 
Atomic Scientists entitled ``The Most Significant Hazard of the 
Entire Manhattan Project,'' that brings attention to the sharp 
rise in infant mortality recorded after the Trinity test. This 
spike was seen after there had been a steady multi-year decline 
in infant mortality.
    Senator Udall, babies in New Mexico were dying. And when 
the government was asked about why or how, the government again 
refused to admit they had over-exposed people in New Mexico to 
high levels of ionizing radiation.
    This is unconscionable. We should all be outraged that we 
were losing our babies and we were refused assistance by the 
U.S. Government.
    Last, Dr. Joseph Shonka, a health physicist and nuclear 
engineer, delivered a lecture entitled ``The First Dirty Bomb: 
Trinity'' at a scientific symposium in Denver this summer. Dr. 
Shonka worked extensively on the Los Alamos Historical Document 
Retrieval and Assessment, or LAHDRA, Project, a project 
commissioned by the Centers for Disease Control and Prevention. 
His work on LAHDRA focused on Trinity, and he's considered to 
be a foremost expert on all things relative to the Trinity 
test. His lecture focused on the extensive fallout produced by 
the Trinity bomb and the subsequent negative consequences to 
human health.
    We're working to bring Dr. Shonka to New Mexico to deliver 
his lecture in locations all across our state, because we 
believe that the people of New Mexico deserve to hear what Dr. 
Shonka has to say about the toxic nature of the Trinity test to 
validate what we've experienced and to inform everyone why it's 
vital to amend RECA to include the downwinders of New Mexico.
    And so Senator, members of the TBDC are here again today 
asking for justice, asking for fairness, asking that after 74 
years we be treatedthe same as other downwinders that have 
received compensation since RECA was first passed in 1990, over 
29 years ago. We're hoping and praying that after 74 years, 
members of the U.S. Senate will hear us with open ears, open 
hearts, and open minds.
    Senator, no other state in the United States sacrificed 
more than New Mexico for our national security during World War 
II, and yet New Mexicans continue to fight to be acknowledged 
and compensated for that sacrifice, even as people continue to 
suffer and die as a result.
    So as we approach the 75th anniversary of the Trinity test 
in 2020, there is an urgent moral and ethical imperative to 
right this wrong. There is a path to healing for the uranium 
miners and the downwinders of New Mexico whose lives and lands 
were taken advantage of and exploited during the Manhattan 
Project and beyond. It starts with the recognition of our 
service and our sacrifice to this great nation and is complete 
only when we are afforded the exact same care and coverage as 
other downwinders. Not one dime more, Senator Udall, not one 
dime less. Thank you.
    [The prepared statement of Ms. Cordova follows:]

 Prepared Statement of Tina Cordova, Co-Founder, Tularosa Downwinders 
                               Consortium
    Good Morning Vice Chairman Udall,
    It is an honor to be with you here today, Senator, to provide 
testimony. Thank you for inviting me to participate. I want to 
acknowledge that I also feel very honored to be a part of this 
distinguished panel to offer testimony on behalf of all the Downwinders 
of New Mexico. As you know, my name is Tina Cordova. I'm a native New 
Mexican, a mother, a grandmother, a daughter, a granddaughter, a 
sister, an aunt, a friend and I'm also a small business owner of 29 
years. I have employed countless people through the years as one of 
very few women who hold a construction license in the State of New 
Mexico. I'm also a cancer survivor, a community organizer and the Co-
Founder of the Tularosa Basin Downwinders Consortium (TBDC).
    Joining me today in the audience are many other Downwinders 
representing communities all across New Mexico. Some of these people 
have had cancer themselves or are battling cancer now. All of them have 
lost loved ones, far too many to mention here. We certainly know and 
understand the importance of these hearings.
    Senator Udall, as we thank you for this hearing, we also want to 
acknowledge and thank your father, Secretary Stewart Udall, 
posthumously, for the dedication he and, as a matter of fact, your 
entire family has had to the issue at hand. The creation and passage of 
the Radiation Exposure Compensation Act (RECA) has its origins in your 
family in the tireless work of your father who possessed the moral 
compass to well understand the damage that was done to human health as 
our government sought to develop and test nuclear devices.
    In a 1992 article published in the New York Times, your father, 
Secretary Stewart Udall, stated the following:

         ``There is nothing comparable in our history to the deceit and 
        the lying that took place as a matter of official Government 
        policy in order to protect this industry. Nothing was going to 
        stop them and they were willing to kill our own people.''

    Senator, we know that if it were within your power and your 
control, we wouldn't be here today to request the support of the US 
Senate to pass the Amendments to RECA. We would be here today to 
celebrate with you the justice we have fought so hard to achieve--the 
justice your father so valiantly fought for on behalf of the 
Downwinders and Uranium Workers.
    Today we ask again for your support for the passage of Senate Bill 
S. 947 Amendments to the Radiation Exposure Compensation Act, and 
adoption of language to coincide with and match the language in the 
recently introduced House Bill H.R. 3783 whose primary sponsor is 
Congressman Ben Ray Lujan of New Mexico. We ask that the U.S. Congress 
extend compensation to the people of New Mexico, noting that New Mexico 
has played a pivotal role in this country's national security as home 
to the Manhattan Project, two national laboratories, Los Alamos and 
Sandia, and many other large government installations, such as Cannon, 
Holloman, and Kirtland Air Force Bases, and White Sands Missile Range.
    On July 16, 1945, the first nuclear device was detonated in the 
desert of New Mexico at the Trinity site. The government has always 
characterized the area as remote and uninhabited, but we know from the 
US census data that there were at least 40,000 people living in a 50-
mile radius of the test site. We've identified ranching families that 
lived as close as 12 miles to the test site. A few of these people are 
alive today to tell the stories of how one by one their loved ones have 
lost their lives to cancer.
    The atomic bomb at Trinity had some unique qualities that produced 
significant fallout. It was the first nuclear device to ever be tested. 
Because the scientists working on the project had to make certain the 
test was a success, the bomb was packed with 13 pounds of plutonium. 
Only three pounds fissioned. The remaining ten pounds of unfissioned 
plutonium was joined with the soil, the sand, and the animal and plant 
life in the area and incinerated. The mushroom cloud rose over seven 
miles beyond the atmosphere, penetrating the stratosphere. The 
plutonium utilized has a half-life of 24,000 years. A green glass-like 
substance called Trinitite was produced at the site when the sand in 
the soil melted from the heat of the blast and was joined with the 
plutonium. The only place in the world you'll find Trinitite is in the 
desert of New Mexico.
    Trinity was also the only bomb ever detonated on a platform, 100 
feet off the ground. In comparison, the bombs dropped on Hiroshima and 
Nagasaki were detonated at a height of 1,600 to 1,800 feet. The Trinity 
blast literally had nowhere to go once it impacted the earth and is the 
reason radioactive material was dispersed widely across the Tularosa 
Basin.
    This radioactive fallout settled on everything. On the soil, in the 
water, in the air, on the plants, and on the skin of every living 
thing, both human and animal. It was a public health and an 
environmental disaster of grand proportions.
    To fully understand how the fallout negatively impacted human 
health, we also have to understand what life was like in rural New 
Mexico in 1945. People lived very organic lifestyles. They had no 
running water and used cisterns, holding ponds, or ditches to collect 
water for drinking, cooking, bathing, cleaning and doing laundry. They 
depended on the earth, the soil, the water to produce all the food they 
ate. They had gardens and orchards and raised cows, pigs, chickens, 
sheep, goats, and the like for food. They hunted wild game when it was 
necessary. One man told me, ``We didn't have much, but we had all we 
needed, and it was all destroyed after the bomb.''
    Dr. Louis Hempelmann, the physician who served as the Manhattan 
Project Medical Director, stated afterwards, and I quote:

         ``A few people were probably overexposed, but they couldn't 
        prove it and we couldn't prove it so we just assumed we got 
        away with it.''

    Part of the history of Trinity is that there was a time following 
the detonation when people were allowed to freely go in and out of the 
site without obstruction. Children were taken there on field trips, ate 
their lunches there, and then packed their pockets with the radioactive 
Trinitite I mentioned before. They stored shards of Trinitite in cigar 
boxes under their beds along with other childhood treasurers. People 
picnicked at the site and some ranchers have told me they hunted wild 
game there all the time.
    New Mexicans were the first people in the world to be overexposed 
to radiation as a result of a nuclear test. The New Mexico Downwinders 
are the collateral damage that resulted from the extraction of 
minerals, the research, and development and testing of the first atomic 
bomb and the unfettered disposal of nuclear waste.
    Few knew what had taken place when the bomb was detonated. It 
produced more heat and light than the sun and was more powerful than 
the bomb at Nagasaki. The blast took place before dawn and most people 
alive at the time have told me they thought it was the end of the 
world.
    While it was not the end of the world, it was the beginning of the 
end for so many people, people like my own father who a four-year-old 
child was living in Tularosa about 40 miles south of the Trinity site, 
the way the crows fly. Like his neighbors, he and his family lived a 
simple but full life in rural New Mexico. As a result of his exposure, 
he paid the ultimate price for simply being a child raised in a 
downwind community.
    My father, Anastacio Cordova, died after suffering for more than 
eight years with three different cancers for which he had no risk 
factors. He didn't smoke, drink, use chewing tobacco, or have any 
viruses, yet he developed two distinctly different and rare oral 
cancers along with prostate cancer--which are all compensable under 
RECA. The doctors told us, ``This just doesn't happen. We just don't 
see this.''
    My father's overexposure to high levels of radiation from the 
Trinity test as a child damaged his cells, which led to cancer and 
altered his DNA. Those genetics were passed on to me, and I am thank 
goodness a cancer survivor. Through our exposure we continue to pass on 
the damaged DNA to our children and our children's children from one 
generation to another never to be the same.
    As a result, we experience a cycle of poverty associated with the 
cost of taking care of our health when we get sick. Living in rural New 
Mexico, we can never get treatment at home because there are no medical 
facilities in the small towns and villages where we live. Since 1990, 
the RECA program has resulted in the establishment of medical clinics 
and screening and treatment facilities in other downwind communities. 
The proposed amendments would generate similar results where New 
Mexicans will be able to receive care.
    People tell me stories of how they hold bake sales to buy pain 
medications or how they have to sell cattle to pay for their 
chemotherapy. How a wife has to go door to door in her Pueblo community 
to try to raise money for fuel to get her husband to and from his 
treatments in Albuquerque. When a family must spend all they have to 
obtain the medical care they need to survive cancer, they have nothing 
left to pass on but the damaged genetic legacy.
    We would also like to add that this summer at least three 
significant events occurred that support and advance our work:
    1. We were able to consult with Dr. Arjun Makhijani of the 
Institute for Energy and Environmental Research (IEER). He brought to 
our attention that when nuclear bombs were tested above ground at the 
Nevada test site, monitors were in place in New Mexico that indicated 
fallout traveled to all parts of New Mexico. The fallout didn't end at 
the New Mexico border as is sometimes depicted in maps used by the 
government. It is important to note that exposure to radiation is 
cumulative and while many people in New Mexico received a high dose of 
radiation from the Trinity test, New Mexicans also continued to receive 
chronic doses from the fallout produced at the Nevada test site well 
into the summer of 1962. A sample of this data is chronicled in the 
book entitled Under the Cloud: The Decades of Nuclear Testing, by 
Richard L. Miller.
    2. Robert Alvarez and Kathleen M. Tucker authored an article 
published in the July issue of the Bulletin of Atomic Scientists 
entitled The Most Significant Hazard of the Entire Manhattan Project 
that brings attention to the sharp rise in infant mortality recorded 
after the Trinity test. This spike was seen after there had been a 
steady multi-year decline in infant mortality. Senator Udall, babies in 
New Mexico were dying and when the government was asked about why or 
how the government again refused to admit they had overexposed the 
people in New Mexico to high levels of ionizing radiation. This is 
unconscionable. We should all be outraged that we were losing our 
babies and we were refused assistance by the government..
    3. Finally, Joseph J. Shonka, Ph.D., a health physicist and nuclear 
engineer, delivered a lecture entitled The First Dirty Bomb, Trinity, 
at a scientific symposium in Denver. Dr. Shonka worked extensively on 
the Los Alamos Historical Document Retrieval and Assessment (LAHDRA) 
Project, a project of the Centers for Disease Control and Prevention. 
His work on LAHDRA focused on Trinity and he is considered to be a 
foremost expert on all things relative to Trinity. His lecture focused 
on the extensive fallout produced by the Trinity bomb and the 
subsequent negative consequences to human health. We are working to 
bring Dr. Shonka to New Mexico to deliver his lecture in locations 
across our state. We believe the people of New Mexico deserve to hear 
what Dr. Shonka has to say about the toxic nature of the Trinity test 
to validate what we've experienced and to inform everyone why it is 
vital to amend RECA to include the Downwinders of New Mexico.
    Members of the Tularosa Basin Downwinders Consortium are here again 
today asking for fairness, asking that, after 74 years, we be treated 
the same as other Downwinders that have received compensation since 
RECA first passed in 1990. After all, RECA recognizes the 
responsibility of the Federal Government to apologize and provide 
health care and monetary compensation to individuals who contracted 
certain cancers and other serious diseases following their exposure to 
radiation during atmospheric nuclear weapons test. Downwinders and 
Uranium workers covered by RECA have received more than $2.3 billion in 
claims. While this is a significant amount of money, and as you well 
know would be meaningful to the people of New Mexico what we covet most 
is fairness and inclusion in the health care coverage afforded by RECA. 
We don't want one dime more, or one dime less than what other 
Downwinders receive.
    New Mexico Downwinders are hoping and praying that after 74 years, 
members of the US Senate will hear us with open ears, open hearts, and 
open minds. We ask that you put yourself in our shoes that you consider 
what it's like to walk with us just one day. Imagine what it's like to 
attend a funeral, a chemo infusion, or receive the horrible news that 
the cancer you've been fighting is back. Can you imagine telling their 
children that you are dying, and all you can wonder is: Did I pass on 
my damaged genes to my children and grandchildren?
    No other state in the United States sacrificed more than New Mexico 
for our national security during World War II. And yet New Mexico 
continues to fight to be acknowledged and compensated for that 
sacrifice even as people continue to suffer and die as a result of that 
sacrifice.
    As we approach the 75th anniversary of the Trinity test in 2020 
there is an urgent moral and ethical imperative to right this wrong. 
There is a path to healing for the Downwinders of New Mexico whose 
lives and lands were taken advantage of and exploited during the 
Manhattan Project and beyond. It starts with the recognition of our 
service and our sacrifice to this great nation and is complete only 
when we are afforded the exact same care and coverage as other 
Downwinders. Not one dime more. Not one dime less.
    Thank you, and I stand for questions.
    Referenced:

        New York Times Article published in 1992 entitled Santa Fe 
        Portrait; A Longtime Pillar of the Government Now Aids Those 
        Hurt by Its Bombs.

        Sample of Data from Under the Cloud: The Decades of Nuclear 
        Testing, by Richard L. Miller.

        Article from Bulletin of Atomic Scientists entitled The Most 
        Significant Hazard of the Entire Manhattan Project.

        Dr. Joseph Shonka Resume and Abstract from lecture entitled The 
        First Dirty Bomb, Trinity.

    Senator Udall. Thank you very much, Ms. Cordova, for that 
very, very powerful testimony. And I just want to let you know, 
on one of the points you raised, we specifically asked the 
witnesses that were before you to stay, and asked them to stay 
and hear your testimony today. I have been told that there are 
individuals from the departments here in the audience that are 
going to report back to the departments, and please be assured 
that the departments will be asked in subsequent hearings about 
your testimony, and also the testimony will be available 
publicly, because this is a public hearing and when it's 
finally reported, it will be out there for everyone to see. So 
thank you very much.
    President Nez, you testified that the Navajo peoples 
creation story is deeply connected to your environment and 
land, and what the Navajo people desire most is to have their 
lands cleaned and remediated. So it only makes sense that the 
Navajo people have a say on the type of cleanup that occurs on 
your lands; and to actively plan and participate in that 
cleanup, perhaps even using traditional ecological knowledge.
    To your knowledge, has the federal government ever included 
traditional and cultural knowledge into the cleanup process?
    Mr. Nez. Thank you, Vice Chair, for that question. Not to 
my knowledge, Vice Chair. But as you know, Chairman, Vice 
Chair, a lot of the departments throughout the federal 
government are beginning to be open to utilizing indigenous 
traditional knowledge in their programs. As you know, Park 
Services has been beginning to open their eyes and ears to 
traditional knowledge and techniques of restoring lands. And I 
can see the same thing happening here in uranium mine 
reclamations work.
    We have a lot of great talent on the Navajo Nation. You 
know, we tell our young folks to go to school, gain that 
experience, and to come home and help out. And they have that 
knowledge when they return home, that dominant way of thinking 
when they come home. But they also balance it with our own way 
of life teaching, our culture and tradition.
    And that is one of the reasons why we say that we want to 
be at the table when it comes to the ten-year plan. And I think 
Navajo professionals and young people today can bring valuable 
insight to the plan as well as the remediation work, in our 
minds, today.
    And lastly, I just want to say, you know, that the Gallup 
Indian Medical Center that's going to be rebuilt there, we are 
wanting to really advocate for a cancer treatment center there, 
as well, and also include traditional and cultural teaching to 
bring balance. And if you see my testimony, it says (in Dine). 
In Navajo, (in Dine) means a restoration and a move to balance 
and harmony. (In Dine) is imbalance. And we want to return our 
lands back to harmony as well as our people; not just Navajo 
people, but all peoples here in the Southwest.
    Thank you, Vice Chair.
    Senator Udall. Thank you, President Nez.
    And one of the things that I think comes out from the 
testimony is the issue of consultation and how consultation is 
performed, because I think, many times, what sometimes the 
leaders of federal agencies and others think is that 
consultation means we draw up a plan and then we present it to 
the tribe and say, you know, ``You have a chance to comment.''
    To me, consultation means you are equals and before any 
plan is drawn up, there is a thorough consultation and then, 
through that process, the plan is come up with, with vigorous 
consultation00 throughout, rather than this kind of one-sided 
presentation. And so we're always at the Indian Affairs 
Committee trying to remind federal agencies that that's true. 
Do you agree with that?
    Mr. Nez. Thank you, Vice Chair. And I do agree, you know. 
Administrator Gray from Region 6 spoke earlier. And as you know 
and many of us here know on the Navajo Nation, we have three 
regions: We have Regions 9, 6, and 8. And really, Region 9 is 
the go-to region in terms of all of Navajo. We got New Mexico, 
Utah, Arizona, all overseen by Region 9.
    So it would have been great to hear Administrator Mike 
Stoker testify before you, but I know that his heart is with 
the Navajo people. He has visited us. I do have our executive 
director behind me, Oliver Whaley, our Navajo EPA. So we're 
looking for ways to bring more resources to the Navajo Nation 
and we even challenge them to open their own office, uranium 
office, on the Navajo Nation; an EPA office, a suboffice as 
well, on the Navajo Nation.
    So I do agree with your comment, Vice Chair, and we look 
forward to bringing everyone together, you know, Department of 
Energy, EPA, andIHS. You know, when those mandates come from 
Congress, it's usually the federal programs and the federal 
offices that begin to coordinate. And tribes--I think we can 
all agree, tribes are kind of just left on the side wondering 
what is being planned for the communities. And we advocate for 
being at that table, Vice Chair. Thank you. SENATOR UDALL: 
Thank you.
    Councilman Riley, you testified that the Village of 
Pojoaque is located on the edge--excuse me. I know, Paguate. 
Sorry. I went a little bit further there with my E. It's 
located on the edge of what was at one time the largest open 
pit mine in the world, and that the village was significantly 
affected by mining activity. Sometimes radioactive dust 
lingered for hours on homes and on crops and on clothes. Was 
the community ever warned of the possible public health risk 
during the mining activity?
    Mr. Riley. Thank you for the question, Senator. I think 
many of us in this room know the answer to that. There was not 
any information provided by the United States Government on the 
effects or the outcomes that actually could happen to not only 
the workers but the communities surrounding the Jackpile Mine 
boundary area.
    And as we become a more mobile community, the health 
effects of water, surface water, all our ecosystems within our 
Pueblo of Laguna, we do not and will not be leaving the area 
anytime soon. So this problem is certainly something that holds 
great interest to us. So I believe that if the federal 
government had provided its right information on those effects, 
I think we might have seen a little bit different outcome how 
many decades later.
    Senator Udall. Yes. Yes. Can you describe any lingering 
effects of uranium contamination present today from your 
observations and things that you have seen?
    Mr. Riley. One of the great curious--you know, looking back 
in history, not being able to quantify at times all the things 
that were there prior to the uranium mining, but also being 
able to see what the effects on surface water in particular 
have on the local communities and how it's mobile going down to 
different parts of our reservation. So I think that's probably 
one of the most prominent.
    Secondly, the health effects of cancer, radioisotope 
outcomes. As mentioned early on in the presentations, the human 
safety and the environment are a priority to the Pueblo of 
Laguna and all tribal communities. And we want to make sure 
that in all those respects, that we take care of those issues 
today. We can do better than this.
    Senator Udall. Thank you very much.
    Governor Chavarria, you testified that the Los Alamos 
Historical Document Retrieval and Assessment Project concluded 
that LANL was slow to implement the use of HEPA filters on the 
exhaust systems of plutonium facilities and the need to further 
study the effects. Has there been a comprehensive study on 
cancer or other public health studies on Santa Clara and other 
northern pueblos in New Mexico? And if not, what do you think 
is needed there?
    Mr. Chavarria. So Chairman, members of the Committee, part 
of my testimony is to provide funding for the CDC to do that. 
Those reconstructions really give us a formal understanding, 
because we owe that to Grandma and Grandpa. You know, it was 
them that faced those consequences. So the inhalation of 
plutonium particles is a concern because plutonium particles 
can embed in the lungs and emit alpha and beta--or gamma 
radiation for many years and increase the health risk for 
cancers. Again, our grandmas and grandpas who inhaled these 
plutonium particles, they've already passed. But we still owe 
them that information.
    And so for now, we have been working with the University of 
New Mexico, the Cancer Research Center, to help us. Because we 
can't just rely on the federal government. We have to look at 
other outside entities to support us in that collection of 
data. And then it comes back to HIPAA. You know, 
confidentiality of that data that's been collected. And we 
heard earlier from the Indian Health Service that, yeah, 
funding for those specialty type of services are no longer 
available in the Indian Health Service, so they got to refer 
the patients out to specialty type healthcare facilities.
    But to me, they're not sharing that data. And that should 
be very important. And I found out yesterday through HIPAA we 
had a death of one of our veterans, our grandpa. Once an 
individual is deceased, HIPAA is no longer. It's open to then 
get that medical record of that individual. But I got to work 
with the Office of the Medical Investigator. Today I'm working 
on the death certificate to identify what the actual cause of 
death to that individual was.
    So there's a lot more gaps that need to be filled in. But 
ultimately, working together is going to be important, because 
we need that data to actually show the impacts. And how do you 
put--you can't put a dollar figure on a human, the impact to 
the health, impact to the natural resources or materials that 
we utilize for our traditional cultural religious activities. 
It's priceless.
    So how do you put a price on compensation? Even though our 
lands might be impacted, where do we go? We can't just pack up 
our bags and leave. We have nowhere else to go because all of 
our traditions, our cultures, have been embedded in those 
lands, aboriginal lands, and surrounding areas, and that's very 
critical.
    All this is very important, Chairman and members of the 
Committee, that we get the full support from the federal 
government, the state government, but also tribes, but also 
higher education institutions to help us fill in those gaps and 
voids, come to a better conclusion of those health scenarios or 
health risk assessments as it pertains to us as pueblo, tribal, 
and tribalnations, people in general.
    Senator Udall. Thank you very much for that answer.
    Ms. Cordova, Tina, you testified that to fully understand 
the impacts of the Trinity test, you must understand life in 
rural New Mexico in 1945. Could you expand on how the nuclear 
fallout from the Trinity test affected the land and the water 
in the area, and what that means for those who raise livestock 
and eat from their gardens?
    Ms. Cordova. First of all, to answer that question, Senator 
Udall--and I appreciate the question, because it's very 
important for people to understand that in 1945, life was 
dramatically different than it is today. First of all, the 
radioactive cloud of debris that was dispersed by the bomb at 
the Trinity Test Site exceeded the atmosphere and penetrated 
the stratosphere. They overpacked the bomb with plutonium. They 
actually utilized 13 pounds of weapons-grade plutonium and only 
three pounds fission. That means that the remaining ten pounds 
of unfissioned plutonium that went in that fireball exceeded 
the atmosphere. For days afterwards, documented by the 
government, at least for five days afterwards, an ash fell from 
the sky, a radioactive ash.
    We didn't have running water in the villages of New Mexico 
in 1945, so now the ash was joined with our water supply. It 
was also joined with the earth and literally got on the skin of 
every living thing, both animal and humans.
    We didn't have grocery stores in 1945 in rural New Mexico. 
We didn't have refrigeration. So everything that people ate 
they either grew or harvested or raised or hunted, and our 
entire food supply was then affected by the fallout that came 
down.
    We tend to live today very differently from that. We lived 
very organically back then. But when you collect water in a 
cistern for every purpose, for drinking, for bathing, for 
cleaning, for cooking, and that water is contaminated, in a 
closed space with no place for it to go, it remains there 
forever. Plutonium has a half-life of 24,000 years. Imagine.
    And so the people's way of life was completely and totally 
impacted. And we stress that as we talk about the exposure that 
we received. I thought it was really interesting that 
Congressman Lujan referenced in the LADHRA study the passage 
that says that the CDC believes that the exposure the day of 
the event was 10,000 times what is considered acceptable today. 
That is hard to wrap our minds around. And so that is in answer 
to your question.
    Senator Udall. Thank you very much. And I think you know in 
studying this and listening to the experts and the person that 
you talked about that you're trying to urge to come to New 
Mexico, that just the smallest amount of plutonium, just so 
everyone knows, the size of a small grain of sand or something 
on the tip of a pen, if you get that in your body, through 
either inhaling it or through a cut or something along that 
line, there's a substantial, substantial likelihood that you're 
going to get cancer. That's the evidence that's out there 
today.
    So we need to know, we all need to know that when you have 
a nuclear blast like that and then it settles on a community, 
it isn't just that one day. The exposure is over a long period 
of time. And I think your points are very, very well made.
    Ms. Cordova. Senator, can I say one other thing?
    Senator Udall. Yes, please.
    Ms. Cordova. Our government--I was just at the opening of 
the Trinity Site Saturday. We do a peaceful demonstration. We 
stage ourselves there to make sure that the entire history of 
the test is told. They still today on the inside at the Trinity 
Site say that it was remote and uninhabited, that nobody lived 
in the area. But we know from the census data that there were 
tens of thousands of people living in a 50-mile radius. And Dr. 
Hempelmann, who was assigned to the test, said afterward--and I 
won't get it exactly right--but something to the effect of, 
``We can never do this again here because we so overexposed 
people to radiation. And if we ever do it anyplace else, we 
have to find an area with a 150-mile radius uninhabited.''
    Well, if you draw a radius around Trinity 150 miles, it 
pretty much encompasses all of our state. And so by the own 
admission of the government, they damaged our way of life 
basically forever.
    Senator Udall. And I would invite you to put the actual 
quote in the record and you can do that.
    Ms. Cordova. It is in my written testimony that I 
submitted. It's there.
    Senator Udall. Thank you very much.
    Phil Harrison. You have decades of experience as an 
advocate for uranium miners, but have also seen firsthand the 
effects of the uranium legacy in Navajo as a miner yourself. 
Could you describe some of your observations growing up near 
uranium mines and the effects on the people around you?
    Mr. Harrison. Thank you. Thank you, Mr. Chair.
    When I was in high school, I went to work as a miner to 
help my father. They gave me a shovel and told me to keep the 
tracks clear, which I did. And when I was not cleaning up the 
tracks, I was helping the drilling. And they asked me to do 
drilling, they were full throttle on the lever. And if I wasn't 
doing that, I was supplying dynamite and fertilizer and primer 
cord and blasting caps.
    The day I went into that mine, I was never told that this 
is going to be dangerous and there's going to be some 
consequences. And I drank that water probably like eight to ten 
cups a day. So did the rest of the miners. And I have observed 
that. During the weekends they would load up their canvas bags 
of water, canvas bags, and take them home, back over here to 
Shiprock. And all the years that the miners' family--they lived 
on the site and they were exposed to the tailings that were 
there, the ore tailings that was there. They used dynamite 
boxes for their kitchen cupboards. They used vent bags also as 
kind of like an apron on their cupboards, too.
    So I have seen all of that and observed that at a young 
age. My father would come back in the morning or evening, he 
would rub his pants and shake it, and all the contaminants 
would be spread in the living area. Clothes were washed in one 
basket along with the clothing that came from the mine.
    And besides what has happened there at the mine site, the 
Navajo families, so probably other neighboring tribes, have 
been exposed to a lot of radiation. The background radiation is 
like 20 radiation levels. And I would think it was more where 
the Navajo people lived. So the family members, the children 
that grew up on the mines, were probably just as affected as 
the miners when they went into the mine, in the mines.
    So I think the whole community, the family, the water 
sources, the structures, all of those were impacted by 50 years 
of mining, and that's what I have seen.
    I myself went through a major surgery and I was approved 
for medical benefits but there was no compensation. And also 
I'm going to bring this out that why were the post-'71 workers 
not approved for compensation, whereas the remediation workers? 
They're post-'71 and they're eligible to file a claim; they're 
eligible for medical benefits, but there are certain illnesses 
that's not compensated. They're not allowed for compensation. 
Some of us are in that detrimental category today.
    So we ask Members of Congress to include what is not 
included in the compensable list for miners and also 
downwinders.
    Senator Udall. And as you know, on the post-'71 miners, all 
the legislation that was mentioned over in the House, from the 
Members of Congress here and my legislation in the Senate, is 
to deal specifically with that issue of the post-'71 miners, 
because it's really important that we recognize that what we 
have learned over the years--there may have been some reason in 
the past, if you go way back. But we have learned that the 
exposure has continued and that was there.
    So would you say that the post-'71 miners are facing the 
same sort of health issues as those covered under RECA, 
Radiation Exposure Compensation Act?
    Mr. Harrison. Chairman Udall, I can say that being among 
our people, a lot of post-'71 miners at a young age have 
passed. A lot of their children also contracted cancers. We 
just had a funeral for a young lady two weeks ago. And we just 
lost a uranium miner about a week ago. We had that funeral. He 
was a veteran of the Armed Forces.
    And I would say that I went to a symposium a couple days 
ago in Laguna, and I heard from four widows. They lost their 
husbands all from lung disease. That's typical. Pulmonary 
fibrosis, silicosis, pneumoconiosis, fibrosis of the lung, cor 
pulmonale. They died from the same lung disease as the pre-'71. 
So it's pretty much evident that their lives are shortened. 
Their lives are shortened and they're not going to be able to 
enjoy what Western society says, the American dream. A lot of 
our fathers did not get to the point where they would have that 
Navajo dream or Western dream. They did not. They were deprived 
of their life, such as my father died at age 44. My siblings, 
my grandchildren never got to know who their father, who their 
grandfather, was. And this is typical among all the families, 
all the workers and all the neighboring tribes. They're 
experiencing that now, Mr. Udall. They are hurt, and there's 
pain and suffering and frustration, even with the criteria. 
There's a lot of thresholds that you have to jump so high to 
pursue compensation. That's pretty evident now.
    Senator Udall. Phil, to your knowledge, was your father 
ever screened for cancer or considered high risk for cancer?
    Mr. Harrison. My father was part of the cohort studies that 
was done by the NIOSH and Public Health Service. Like I said 
earlier, there was like 744 Navajo miners that were studied. 
The government has a logbook of who was studied: Their Social 
Security number, their birthday, when they entered the mine, 
when they died, when they were diagnosed, what they were 
diagnosed with. But one day in the meeting in Shiprock, I seen 
that booklet. I said, ``You have the information. Why are we 
going through the conversation and frustration proving to you 
that these guys actually mined uranium?''
    My father was already dying slowly and he didn't last a 
year after he left the mine in 1970. He died January 11, 1971. 
So he was part of the people that was studied. And I know that 
the government continues to study those miners somewhere, and 
it's hard to find medical records, and nowadays, just like this 
gentleman had mentioned, someone passes. If the Department of 
Justice wants medical information, you have to hire an attorney 
again. You put the burden on the family to find the executor of 
the estate. You have to go through tribal court to prove to the 
federal government that a father died from lung disease. And 
that just creates more frustration for our people. It's getting 
harder and harder every day for those that have not been 
compensated.
    Senator Udall. Yes, I know, we understand. That's what 
we're trying to do with this legislation, to bring some justice 
to this situation.
    President Nez, in my opening statement, I mentioned the Red 
Water Pond community, a settlement on the Navajo Nation and the 
EPA's proposed relocation plan. I think you would agree that 
when tribes hear the word ``relocation,'' especially by the 
federal government, it causes some anxiety. In fact, we have 
heard directly from the Red Water Pond community with concerns 
about the EPA's proposed relocation plan. To your knowledge, 
has the EPA or the Army Corps of Engineers reached out to the 
Navajo Nation government on the proposed relocation plan?
    Mr. Nez. Thank you again, Vice Chair, for the question. Not 
to my knowledge. And let me just say that I heard from the 
first panel that cleaning up those uranium mine sites can be 
done. I know that at times we're told by the departments, 
federal departments, that it has to be an act of Congress to 
clean up uranium mines. You know, many of our Navajo people--
and I think all of them, you know--their umbilical cords are 
buried there in their home community, in their homeland. And 
when you try to relocate somebody to another place foreign to 
them, you know, that brings a lot of heartache and hardship. 
And we know that from the history of the Navajo Hopi land 
dispute, the land settlement, where people were forced to 
relocate to other places. And sometimes, you know, they go 
through much more hardship than others on the Navajo Nation.
    But while I have the floor, Vice Chairman, I wanted to 
mention the fact-finding hearing or the meeting that occurred 
by Raul Grijalva, the chairman of the House Natural Resource 
Committee, last week. And we heard testimonies from post-'71 
mine workers. Leslie Begay, who is sitting here today. Tommy 
Reed, who is seated here today. Walter Marble. Johnny Begay. I 
sat there, front row seat, while they were testifying about 
what they have gone through, their health. And I felt very sad. 
I shed a tear; I shed many tears sitting there. But after that, 
I got angry. And I think there's a lot of anger amongst the 
many of us here today, wondering why the federal government has 
yet to help the people that are going through these health 
problems.
    And as you heard from the first panel, as well, if we clean 
up these uranium mines, then the second, third generations down 
the road don't have to go through the same health problems as 
these individuals are going through today.
    Leslie there, his testimony about medication not being 
available at IHS, and the specialization care that he gets off 
the Nation. Some of them, they can't afford transportation or 
fuel to go many, many hundreds of miles to get their care. And 
that's why there's a need for an oncology cancer treatment 
facility for many of our tribes. It was quite interesting to 
hear that when we opened the cancer treatment facility in Tuba 
City, that that was the first cancer treatment facility to ever 
open up in Indian Country. With these high rates of cancers 
throughout Indian Country, there was not one. And that's being 
worked on right now.
    And because of the many stories of our Navajo people and 
those post-'71 mine workers, you know, the hardship they have 
gone through, I'm sure that is the reason why--I believe that's 
the reason why the Navajo Nation banned uranium mining on our 
lands. And I understand that there's even going to be a 
referendum to solidify that and say, ``Yes, enough is enough.'' 
And we're not going to condone any more uranium mining on our 
Navajo lands.
    But transportation of radioactive material and waste--there 
is a ban. Unless they're getting rid of it. Take it out. Take 
it off our lands. And if we can do that, then there will be no 
need for relocation of our citizens. And that would bring 
harmony, restoration, just and fair compensation to all our 
mine workers here, those post-'71 Navajo workers as well as our 
brothers and sisters that are not Native, as well. They should 
get that compensation that they deserve. Thank you, Vice Chair.
    Senator Udall. Thank you. Thank you very much.
    Councilman Riley, EPA is currently working on the Grants 
mineral belt cleanup plan which covers Laguna Pueblo. Can you 
give the Committee some insight from the Pueblo's perspective 
on how the cleanup plan is progressing? Also, has EPA worked 
directly with the Pueblo on setting up cleanup goals?
    Mr. Riley. Thank you again for the question, Senator. And 
like any project of this complexity, complication, working side 
by side always can be better. And I think that it goes to great 
lengths that our federal agencies and our offices need to 
continue to do the best they can in working with not only our 
Pueblo of Laguna, but other tribal communities as well. So I 
think that that is something that we can continue to strive for 
as a nation-to-nation of sorts, and I hope that once we move 
forward with the Grants mineral belt activities.
    One thing that I want to point out, Senator, is having to 
deal with the outstanding issue of having to do mining. There's 
a moratorium at the Pueblo of Laguna for uranium mining. It's 
been long-standing. And when you have other entities that are 
doing or trying to do those type of initiatives, it's very 
tough and challenging, especially when you look at water 
authority, water jurisdiction, water rights, and having the 
Pueblo of Laguna continue to have to fight for water rights and 
this whole process.
    Vice Chairman, I just want to make just a brief comment. 
Very thankful for the candid discussion that we've had today. 
Words like government responsibility, accountability, trust 
responsibility, justice. And the tribal contributions to the 
United States' well-being is unrefuted. And I believe that when 
the tribes come to the table and might have an answer that the 
rest of the Grants mineral belt may have, like no mining, or 
watch out for the water, because here's the effects--we don't 
have to revisit those stories again--that they look at that in 
good faith with us. Because I mentioned earlier, we're not 
going anywhere. We're going to be there forever.
    So I want to just say that we are citizens of three areas: 
The United States, the State of New Mexico, and the Pueblo of 
Laguna. And I think that's something that is unrefutable and 
we're very proud of and we want our people's health and our 
people's environment protected, and we can do better.
    Senator Udall. Thank you very much. And we're nearing the 
end here, but I just want to take this opportunity to allow 
anyone who may want to add any parting words from the panel 
here, thoughts or comments for the record before we adjourn.
    Mr. Harrison. And then we'll come to the governor here.
    Mr. Harrison. Senator Udall, I just want to express my 
appreciation on your late father. We certainly did work with 
him and he understood the damages that had taken place among 
our people and all the uranium workers. We do appreciate that. 
We remember him very well. And a lot of our Navajo people in 
our public meeting, they often mention your father.
    And I'm really sorry to hear that you're going to be 
leaving the Senate, and before you leave, we'd like to have our 
amendment passed byCongress.
    Senator Udall. That's what we're working on.
    Mr. Harrison. The other thing is, talking about being our 
homeland here, the Department of Justice is asking the 
downwinders to prove residency. This is very alarming and very 
hurtful to many people, actually a slap in the face, where the 
government asks a grandpa or grandma, ``Where did you live 
between 1951 and 1958? Or in one month of 1962, where did you 
live?''
    And I once said that, you know, the federal government has 
the title of federal trust land. It has title to our land, and 
yet you're asking Grandma to prove residency. Well, she 
corralled there for the longest time. They did not come from 
Australia or Siberia. We have been there for the longest time. 
And in the amendment, we listed that affidavits be used where 
there's a recognized tribal leader can say that Grandma lived 
here with a grazing permit from 1941; therefore, let this be in 
record to prove residency for Mrs. Yaie or Mrs. Benally.
    So that's something that's been very hard. There's extreme 
disparities for the Navajo downwinders getting compensation 
because it's hard for them to come up with records to prove 
residency. They ask for such things as Lions Club, Rotary Club, 
Elks Club, VFW. It never existed back in those days. And it's 
hard to prep a case for--it takes a year. No wonder the 
attorneys run from it, because if you take $1,000 and divide 
that by $12, how much is that for them? They don't want to mess 
with it.
    The other thing that--I might not sleep tonight--I have to 
mention this. In my research when I was in Washington, I heard 
about the 911 Compensation Fund. It didn't take very long for 
the federal government to approve billions. And I also looked 
to the Internet. And I was looking down the list. You know, we 
really do appreciate the first responders, what they did in 
clean-up of the Twin Towers. And it's very alarming to hear 
about what happened. But they got sick, too, just as much as 
our uranium miners got sick. And I was looking at the rate, the 
compensation rate. The cases were like over $1 million, $2.1 
million, $1.3 million for breast cancer. And I went down the 
list now following the gentleman that was diagnosed with 
pulmonary fibrosis, he received $883,000 compared to $100,000. 
I don't think it's fair. So I want to take my father, being at 
44. If he still lived, if he was still with us and got to 66 
years old, so if you take 20 years times like about maybe 
$30,000 a year, he would have made $500,000 to $600,000 during 
that lifetime. But when you come back and you just give the 
spouses $100,000, that is very, very low. And it's alarming and 
it doesn't sit well with me. So we need to do something about 
the compensation rate.
    Thank you, Mr. Vice Chairman.
    Senator Udall. Thank you very much.
    Governor Chavarria.
    Mr. Chavarria. Yes. Chairman, Members of the Committee. I'd 
also like to thank you, Chairman. You have been a champion for 
us, the Native people in your tenure both in the House and the 
Senate. You know, it's going to be hurtful and a loss for all 
of us, because you have been pushing and helping us along with 
many of these issues as the Vice Chairman for the Senate 
Committee of Indian Affairs, and we wish you well.
    You know, it's up to all of us as brothers and sisters to 
work on these challenging issues together, coming up with 
solutions. And yes, the other federal agencies were possibly 
the trustees, but at times they challenge us. They want to see 
we're actually capable, competent, of providing these services 
for our own people. That's a challenge that we all face 
together. But for us as a Native people, it goes back to the 
power of prayer. We're all unique. You know, we share that same 
value of our traditions, our cultures, and our religious 
activity. And those sacred values are based upon the landscape, 
the resources, the water, the animals, the plants that we use 
with that fundamental belief that we have that inherent 
interconnection to our land.
    The Pueblo people are patriotic people. We care deeply 
about protecting, yes, the national security, but using that 
sacred area to hurt us is unacceptable. Yes, we're trying to 
find ways to promote cleanup and restoration of those 
resources, our lands. As was mentioned, the half-life of those 
radioactive isotopes is thousands of years. Where do we dispose 
of that material? Right now there's not no permanent disposal 
site in the United States or in the entire world. Yeah, you 
have WIPP, but that's only a temporary disposal area.
    And so this legacy waste is what we're dealing with, with 
the Department of Energy right now, with all the waste and the 
legacy. But now we're having to deal with the Department of 
Energy environmental management with the current waste. And so 
funding is very important, which is a challenge. And for us as 
tribes, it's confusing, because now they're both one agency, 
but now it's separate roles and responsibilities they're having 
to undertake.
    And so to having to be at the table to fully understand 
which team do we have to deal with for the legacy, but also for 
the current and future waste, is also critical. But yet, 
they're using our lands to transport maybe to the highways, the 
railroads. But then if something happens, who does it impact? 
It impacts all of us.
    And so that's very important and critical: How do we engage 
to come up with positive solutions? You talked about 
consultation. For us it's coming to the table to reach 
consensus. The issue is to identify the challenged obstacles, 
but what are the solutions we're looking at? There's not no one 
agency that has all that money to support. It comes back to 
Congress and the president to fully allocate those 
appropriations and deal with many of these issues. Yes, this is 
one issue. But you got healthcare, you got education, you got 
employment. All these issues that we as tribal leaders would 
deal with for our constituents.
    And you have seen that, Senator. And you feel that pain. 
And this is why you have called this meeting for today, this 
hearing. So we ask: How do we help you? How do we help you then 
go to that next level by addressing and advocating in 
Washington, D.C. for those committee chairmen of those 
respected committees to make sure they have a full 
understanding of these commitments, of these discussions and 
dialogue we're having today? Because if we don't do it, who's 
going to do it for us? It's not for us. It's for the ones that 
have went, the ones that are yet to come. That's who we do it 
for. But as tribal leaders, it's up to us now to engage in 
those critical discussions to fulfill our obligations to our 
people, our lands, the community, our animals, the plants that 
we still utilize today for our tradition and cultural religious 
activities because that's who we are. And we can never get away 
from that.
    So I appreciate you, Senator, members of the Committee, for 
hosting this hearing today. And that's why I ask however I can 
help, whatever else I need to do to help you, please let me 
know. And I'm willing to roll up my sleeves to help all of us 
in this room, and move to a positive conclusion or outcome. But 
again, as I say, there's not no dollar figure you can put on a 
life. That's priceless.
    So again, I'd just like to thank you for the opportunity to 
be here today, Chairman and members of the Committee.
    Senator Udall. Thank you.
    Ms. Cordova. Senator Udall, I would just like to please 
bring your attention to part of my written testimony and oral 
testimony that I delivered. Senate Bill 947 does not have 
language that we think goes far enough. There has been new 
language introduced in House Bill 3783 that extends the 
eligibility period and addresses other areas that we think are 
shortcomings in the Senate bill. So today, there are only two 
things that I really want to stress. And that is part of them, 
that we need language to mirror the language in the House bill.
    The other thing, sir, that I think that I need to stress is 
that--and the Congresswoman did a great job when she mentioned 
about the cost of doing this, because we hear that all the 
time. I don't know how many times I have heard, ``It's going to 
cost too much.'' Well, we can't place a value on human life, 
and we've all given far too much. I always say, ``I don't know 
what else we can give to this cause.'' We bury our loved ones 
on a regular basis. I don't know what else we can give.
    So we all need to start developing language around this 
idea that it's going to cost too much to take care of the 
people of New Mexico. This has had a grave economic consequence 
to this state. I believe that it's part of what locks us into a 
cycle of poverty that we can't ever get out of. When we spend 
all that we have to take care of our health because we're so 
sick and we're dying, we have nothing to pass on to the next 
generation. And we should be afforded the same opportunity to 
the American dream that other people are afforded all across 
this country.
    And so on behalf of all of us, I have to say that I am so 
tired of hearing that, that it's going to cost us too much. We 
need to develop messaging around that idea that it costs too 
much.
    Senator Udall. Excellent testimony.
    Thank you.
    Please, Councilman Riley.
    Mr. Riley. First off, I want to thank you, Senator, for all 
of your help and assistance all these years on going up to 
Washington, D.C., on behalf of the Pueblo of Laguna, all the 
different issues and projects and initiatives. You're always 
there standing side by side with us and helping us, and your 
staff, for many, many long meetings. So I want to thank you for 
your service and thank you for the projects, especially this 
one, as very complex.
    At the end of the day, I have faith and trust that the 
United States must take responsibility for the cleanup of these 
uranium mines at the end of the day. But no matter where we're 
located, no matter how big or small our tribes are, we have to 
be working together side by side. And I came to this hearing on 
behalf of Governor Herrera and our Pueblo Council, and I walk 
away today with a good sense of hope and faith that you're 
going to be helping not only our people but those that have 
been affected, post-'71, downwinders and all those folks, that 
should get justice because they have contributed so much in 
their land and their health and, unfortunately, in the passing 
of many of our tribal members.
    But thank you very much, and I wish you well. And if 
there's anything that we can do at the Pueblo of Laguna, please 
let us know. And thank you for letting us participate in the 
hearing.
    Senator Udall. Thank you very much.
    President Nez.
    Mr. Nez. Just as our tribal leaders and advocates have 
mentioned, thank you for being the champion for Indian Country, 
Vice Chairman Udall. And your staff. Let's not forget the 
staff. And all the many advocates that are here today. I think 
this is a charge that we all need to take seriously for our 
relatives throughout our tribal communities throughout the 
Southwest here. We need to come together as one, advocate on 
behalf of our people that are sick, because we now need to have 
the federal government step up to the plate and clean up these 
uranium mines throughout the Southwest. That is key. And if not 
now, you know, we're going to be in the second, third, many 
generations after this, going through the same problem. I think 
here and now is the opportunity that we all bind together. I 
always say that in our Navajo language, you know, (in Dine) 
that means weall are five-fingered beings. I think all of us 
here are five-fingered beings. It doesn't matter what color our 
skin is. You can see uranium affects everybody. And it's not 
color-blind. And so our drinking water is affected, our food, 
our farms, the livestock that we have and we take and we eat 
affects us.
    And you know, we haven't yet even started talking about the 
Gold King Mine spill, even that, with a lot of heavy metals 
that came through all these mines. Even that mine, those mines, 
many mines, thousands of mines up there, are ready to burst. 
And we need to all come together and really educate our 
lawmakers in Washington, D.C. Let them know that this is a 
problem in Indian Country as well as the Southwest.
    I'm going to conclude by this statement that I have heard 
once, and I'm going to reiterate that since we have a lot of 
our veterans here today. Our veterans--and it was mentioned 
earlier that our veterans--I think it was Representative 
Haaland who mentioned it--that Native Americans, a high 
percentage of ethnic group, volunteer for service. And let's 
not forget our Navajo Code Talkers, where the Navajo language 
was used to win the war. And I know that my brothers and 
sisters from other tribes that have Code Talkers, as well. And 
for Navajo, we used our language to win the war, as well as the 
uranium that was extracted from our homeland. And to this day, 
there are over 300-plus uranium mines still open, and it 
affects everybody.
    You all know that we have lots of high winds in our region. 
And when that radiation goes up into the atmosphere, which way 
does the wind blow? Eastward. And it affects each and every one 
of us on a daily basis.
    So thank you, Vice Chairman, for your advocacy. And I know 
with your help we are going to do some great things in getting 
these uranium mines cleaned up, not just in Indian Country, but 
all over the Southwest.
    So if you all can help me give him a big round of applause, 
our Senator Udall. Thank you so much, Senator.
    Senator Udall. Thank you. Thank you.
    Thank you very much to the entire panel today.
    Governor Chavarria asked, you know, what can you do? Well, 
the five of you have done an enormous thing here by coming 
forward with this powerful testimony and really getting to the 
root of what we need to fix. And that really, really makes a 
difference, and it helps me enormously in doing my job in 
Washington.
    And so you may feel that, you know, coming here and giving 
testimony is like a small rock dropping in a pond and is just a 
small ripple. But I think what happens is, because of that 
ripple and the five of you and then others speaking out, we're 
going to build that into a tidal wave to get all of this done. 
So that's what we're working on doing, and you have really 
helped us do that.
    And I also want to thank--many of you said very nice things 
about my service. First of all, I just want to tell you, I'm 
not retiring. I'm going to continue public service. Okay? I 
never use the word ``retire.'' And I'm not leaving until 
January of 2021. That's when my term expires. And so you can 
see there's a ways to go, and so there's an opportunity to get 
a lot of these things done that we've been talking about here.
    I also want to acknowledge the many folks and advocates for 
downwinders and post-'71 miners that came here today, people 
like Linda Evers, who's been a tireless advocate for post-'71 
miners. And I just want to thank you so much for coming here 
and making the effort and being a part of this, because you're 
also the help that spreads the ripple that builds into the 
tidal wave. So thank you. Thank you very much for that.
    And there are no more questions at this point, so I would 
remind folks that senators may also submit follow-up written 
questions for you for the record. The hearing record will be 
open for two weeks until October 21st, and I just really thank 
you for your time and testimony today.
    I also want to thank Senator Hoeven, my chairman. He 
couldn't be here with us, but he sent his top guy here, and 
he's been listening to every single word.
    And I also want to thank my staff, both Mike, Senator 
Hoeven's top guy, and Jennifer. They have worked very hard to 
pull this all together and do a very, very professional 
hearing. So let's give them a round of applause. I don't know 
that rounds of applause in a Senate hearing are etiquette, but 
I only did it once, so I hope I'm not violating too much.
    But this hearing is now adjourned.
    [Whereupon, at 2:00 p.m., the Committee was adjourned.]

                            A P P E N D I X

   Prepared Statement of Hon. Max A. Zuni, Governor, Pueblo of lsleta
    The Pueblo of lsleta shares many of the same concerns expressed by 
other tribes regarding open pit mining and possible radiation 
contamination from federal entities. The three major federal entities 
that are upstream of the Pueblo are Los Alamos National Laboratory 
(``LANL''), Kirtland Air Force Base (KAFB) and Sandia National 
Laboratories. Discharges by these federal entities into any waters have 
the potential to reach the Pueblo's waters.
    Like many pueblos, our way of life is tied to the land and water. 
Whether the health of our community has been compromised by the mining 
operations conducted by these federal entities is unknown. However, 
similar to other communities that provided testimony, cancer and other 
diseases are present in our community.
    Los Alamos National Laboratory alone has the potential to release 
20,000 pounds of hazardous air pollutant chemicals to the air. It also 
has the potential to discharge toxic chemicals to the water and the 
potential to generate and/or manage at least 2,200 pounds of hazardous 
waste in a month. A compound list for LANL can be found at: http://
www.atsdr.cdc.gov/toxprofiles/index.asp.
    At Sandia National Laboratories, a total of 1,902 pounds of toxic 
releases from 2009 to 201 7 have been reported and are in EPA's 
Enforcement and Compliance History Online (ECHO) database.
    The Pueblo of Isleta is also very concerned about the mixed-waste 
landfill, a 2.6-acre dumpsite, which operated from 1959 to 1988. This 
site is located within 3 miles of the Pueblo's northern boundary. 
According to the Concerned Citizens for Nuclear Safety, a non-profit 
environmental justice group out of Santa Fe, New Mexico, the mixed-
waste landfill contains an estimated 1,500,000 cubic feet of 
radioactive, toxic and hazardous wastes from experiments and the 
development of nuclear weapons. Plutonium, americium, tritium, depleted 
uranium, lead, beryllium, PCB's and chlorinated solvents are some of 
the highly hazardous materials that have been disposed of at this site. 
This site has the potential of contaminating the Pueblo's groundwater.
    Radioactive decay in half-life of 250,000 years or more means that 
the uncertainty of long-term effects on human health and the 
environment from a radioactive release or exposure will be with the 
Pueblo permanently for many generations into the future. The Pueblo 
insists that our people and land be protected from harm under Federal 
law, the importance of which is underscored by adherence to the 
significant trust responsibility of the Federal government to Indian 
tribes.
    At Kirtland Air Force Base, there have been a total of 4,209 pounds 
of toxic (lead and naphthalene) releases from 2009 to 2017 reported and 
recorded in EPA's ECHO database. The effects of lead can lead to 
permanent adverse health effects, particularly affecting the 
development of the brain and nervous system. Naphthalene can cause 
neurological problems, anemia, kidney and liver damage and cataracts. 
Naphthalene is an insecticide meant to kill insects. Humans and other 
mammals are not immune to its effects.
    From these three federal upstream entities, 8,381 pounds of toxic 
pollutants have the potential of entering Pueblo waters by way of non-
perem1ial, ephemeral or intermittent streams. The Pueblo is concerned 
that the pollutants released from KAFB and Sandia National Laboratories 
may be entering the Pueblo waters by way of Tijeras Arroyo. Tijeras 
Arroyo discharges into the Rio Grande less than 5 miles upstream of the 
Pueblo's north boundary.
    We are also concerned about possible contamination of the Rio 
Puerco resulting from the Jackpile-Paguate Uranium Mine. The Mine, in 
operation from 1952 to 1982, is approximately 20 miles from our 
Pueblo's western edge and 40 miles from the village area of our Pueblo. 
The Rio Puerco runs over 47 miles through Pueblo lands from north to 
south, on the Pueblo's western edge boundary and is also the eastern 
boundary for the Pueblo's Comanche Ranch, which was placed into trust 
in 2016. The Rio San Jose is a concern for the Pueblo because it is a 
tributary to the Rio Puerco and enters the Rio Puerco on Isleta Pueblo 
lands. Again, the possible impact to our community of potential uranium 
exposure and contamination from the operation of the Jackpile-Paguate 
Mine is unknown.
    Further, although mining has ceased on the Laguna Pueblo, the 
former mining operation creates a potential upstream source of metal 
and radionuclide contamination from releases of tailings solutions. We 
are concerned about any radioactive isotopes and heavy metals from 
mining processes that could originate from the Jackpile-Paguate Mine 
and other upstream mining operations in the Rio San Jose. The Pueblo of 
Isleta's Environment Department regularly conducts special collections 
of the Rio Puerco for radioactive material and heavy metals. To date, 
the results have shown that no contaminants are reaching the Pueblo, 
but the potential threat remains.
    It is also unknown whether our community has been affected by 
particulate matter from the Jackpile-Paguate Uranium mine. Particulate 
matter has the potential of traveling hundreds of miles. Being exposed 
to particulate matter can cause adverse health effects causing both 
heart and lung disease.
    In conclusion, our land, water and air are crucial elements to our 
everyday life as Pueblo people. As Pueblo people, not only do we depend 
on good water quality for agricultural purposes, our customs and 
traditions, but we are stewards of our tribal lands. Protecting what we 
have in order to provide a clean environment that is safe for our 
community, as well as all wildlife, aquatic and plant life, is key to 
our continued survival and our future generations.

    Attachment

  Supplementary Information Submitted by Chris Shuey, MPH, director, 
 Uranium Impact Assessment Program, Southwest Research and Information 
                                 Center
    This memorandum is submitted to supplement the Pueblo of Laguna's 
testimony for the Senate Indian Affairs field hearing on October 7, 
2019, in Albuquerque. It is a revised version of a memorandum provided 
to the Pueblo prior to the hearing. The material here is organized by 
issues raised by the Pueblo in advance of the hearing, and where 
appropriate, copies of relevant documents are attached. * I request 
that this communication be placed in the record of the hearing.
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
Issue 1: Laguna Pueblo's interests in supporting Radiation Exposure 
        Compensation Act (RECA) reform legislation to develop more 
        accurate data on Pre-71 an d Post-71 Laguna uranium workers.
    The Jackpile-Paguate Mine operated from 1952 to 1982 and employed 
many Pueblo of Laguna members, along with non-Pueblo members who were 
brought in to work the mine in the 1950s, 1960s and 1970s. Some Laguna 
members also worked at the St. Anthony Mine on the Cebolleta Land Grant 
located immediately north of the Pueblo boundary (operated from 1951 to 
1982), while others worked at the Anaconda Company's Bluewater Uranium 
Mill at Bluewater, NM, about 45 miles west of Laguna.
    Despite this long history of mining on the Pueblo, the exact number 
of tribal members who worked in the uranium industry before and after 
1971 has not been quantified and can only be estimated. Information 
from various sources suggests that the total is several hundred 
individuals and may approach or exceed 1,000 individuals. Home 
healthcare organizations that serve Laguna members and residents report 
having records for 150 Pre-1971 workers, many of whom are deceased. \1\ 
Of 402 Post-71 Laguna uranium workers reported to have received home 
health services, 352 (or 87.6 percent) have been diagnosed with 
pulmonary fibrosis, a RECA compensable disease. These individuals 
received their diagnoses from examinations conducted in a mobile van 
brought to the area by the Miners' Colfax Medical Center, based in 
Raton, NM. While these exams were conducted without cost to the 
workers, many of these individuals lack personal financial resources to 
pay for treatments, prescription drugs and other healthcare services 
related to their occupational exposures and effects.
---------------------------------------------------------------------------
    \1\ Unfortunately, most miners who worked on the Colorado Plateau 
from 1942 through 1971 and for whom records were available to 
Government agencies are deceased. A vital status update of the Pre-1971 
cohort (Schubauer-Berigan et al., 2009) showed that nearly 75 percent 
of white miners (N=3,358) and nearly 70 percent of Native American 
miners (N=779; tribal affiliations not identified), who were alive on 
Jan. 1, 1960, had died by Dec. 31, 2005. Not all Pre-71 uranium miners 
are included in National Institute for Occupational Safety and Health's 
database because many miners, especially Native American miners, were 
often paid in cash and were not included in company records during the 
1940s and 1950s.
---------------------------------------------------------------------------
    In numerous community meetings and symposia over the past two 
decades, many current residents of Paguate and other Laguna villages 
have identified themselves as former uranium workers or family members 
of former workers who worked after 1971. Many have reported having a 
variety of malignant and non-malignant respiratory diseases. This 
concern was highlighted in statements attributed to Frank Cerno, Pueblo 
Secretary, in a March 7, 2017, article in the Navajo Times (Madeson, 
2017): ``Uranium is a `human carcinogen and a toxic heavy metal that 
leads to devastating illnesses such as kidney failure and respiratory 
illnesses.'"
    Two recent studies by researchers at the University of New Mexico 
(UNM) and the Miners' Colfax Medical Center (Assad et al., 2019; Kocher 
et al., 2017) found that Post-71 workers have similar radiogenic lung 
disease partners to Pre-1971 workers. Kocher et al. (2017) reported 
that of 81 miners who were examined at the Colfax mobile miners' 
clinic, 68 percent of Pre- 1971 workers and 66 percent of Post-71 
workers had abnormal chest X-rays indicative of pneumoconiosis, a RECA-
listed miners' lung disease. The authors concluded that:

         the prevalence of abnormal chest radiograph pattern is not 
        significantly different between pre-1971 and post-1971 uranium 
        industry workers. . .This argues that post-1971 uranium 
        industry workers should be screened for the presence of 
        respiratory diseases and that expansion of RECA to this group 
        may be warranted [emphasis added].

    A follow-up study (Assad et al., 2019) involving 122 Post-71 
workers also found little difference in abnormal chest X-rays, forced 
expiratory volume (FEV) and various lung diseases between the Pre-1971 
(N=47) and Post-71 (N=122) groups. In this study, 56 percent of the 
Post-71 workers were Native Americans (tribal affiliation was not 
identified, however). The authors concluded that their findings:

         support the conclusion that. . .uranium miners continued to be 
        exposed to harmful levels of mining dust, resulting in a high 
        burden of respiratory disease among former uranium workers in 
        New Mexico, employed after 1971. Our findings argue that 
        medical screening for respiratory diseases. . .should be 
        extended to post-RECA era uranium workers, especially if large 
        epidemiologic studies confirm our results.

    Furthermore, a lay survey of more than 1,300 Post-71 workers by the 
Post-71 Uranium Workers Committee (UWC) based in Milan, NM, found that 
more than 70 percent had one or more ``uraniumrelated medical 
conditions,'' as defined by federal agencies, but only 9 percent had 
medical conditions compensable under RECA because of the limited number 
of uranium-related medical conditions defined in the statute (Evers et 
al., 2009. Seventy percent of Post-71 workers reported having a 
uranium-related respiratory condition, of which 53 percent were 
identified as ``Pueblo'' workers. (Of the 216 Post-71 respondents to 
the Post-71 UWC survey, 86 identified as ``Pueblo'' residents, but 
tribal affiliations were not given.)
    The Post-71 UWC survey also found that 30 percent of female uranium 
workers (N=132) and 40 percent (N=169) of female spouses of uranium 
workers reported a wide range of adverse reproductive outcomes, 
including miscarriages, stillbirths and children with birth defects. 
For non-worker women, the principal source of exposure to uranium 
contamination was washing the clothing of their worker spouses. Laguna 
Pueblo is aware that women members were both workers and spouses of 
workers who were exposed to contaminated dust on their spouses' 
clothing. However, spouses are not eligible for compensation under the 
current RECA scheme for their own exposures, but are eligible as 
beneficiaries of their deceased spouses.
    That Native American women and children are at risk from exposure 
to uranium mine and other hardrock mining wastes was documented in a 
2015 paper published by my colleagues at UNM, led by Dr. Johnnye Lewis, 
a toxicologist and director of the UNM Community Environmental Health 
Program (CEHP). Lewis and colleagues explored potential risks of 
adverse reproductive outcomes and child developmental concerns from 
widespread exposure to more than 160,000 hardrock mining sites 
(including more than 10,000 uranium mines [USEPA, 2008]) in the 13 
western states with the highest percentage of Native American 
populations. The authors concluded that existing data demonstrate:

         . . .a strong potential for exposures to metal mixtures 
        associated with mining wastes in Native American populations in 
        the Western United States,. . .a linkage of exposures to 
        developmental disabilities and congenital malformation in 
        population and laboratory studies. . .higher rates of several 
        congenital anomalies in Native American populations, and. . .a 
        lack of comprehensive data on rates and types of developmental 
        disabilities in Native populations.

    The Post-71 UWC survey results have been reported to Congress and 
academic institutions, but they have not been accepted as 
scientifically valid because the survey was originally written and 
administered by lay members of the Post-71 group. A second version of 
the original survey was developed by the UWC group with the assistance 
of researchers at UNM, Colorado College and SRIC. These results should 
be given weight in legislative proceedings because they were obtained 
from direct responses from more than 1,300 former workers, making the 
survey the largest assessment of Post-71 concerns to date. However, the 
surveys have been preserved and are available for analysis.
    Despite these findings, the Federal Government has not 
systematically examined either the vital status of Post-71 uranium 
workers or its own responsibility for overseeing the uranium industry's 
compliance with in-mine exposure standards enacted in the 1970s. For 
example, a recent report by the Congressional Research Service (2019) 
noted that ``[a]n expansion of RECA to cover post- 1971 uranium 
activities would largely cover workers in the commercial uranium 
sector, which would expand the program beyond its original statutory 
intent'' [emphasis added]. Yet there is evidence that the Federal 
Government did not enforce various worker-protection requirements of 
the Mine Safety and Health Act of 1977.
    MSHA required mining companies to monitor and report in-mine gamma 
radiation and radon gas exposures of all workers and to report those 
records to a central database. However, officials with MSHA in Denver 
and the National Institute of Occupational Safety Health (NIOSH) in 
Cincinnati could not identify where these records were consolidated 
when contacted by SRIC staff working with the Post-71 UWC in 2009-2011. 
NIOSH officials provided a link to a spreadsheet that was said to 
contain exposure records by mining company and mine. Our examination of 
those data indicated that no information was compiled prior to 1983--
the year after Jackpile Mine and most other mines in the Grants Mineral 
Belt of New Mexico had closed. The database contained only three 
entries for the Anaconda Company (or Atlantic Richfield or ARCO), and 
only one entry for a worker at the Jackpile-Paguate Mine. Accordingly, 
the database is not particularly useful for calculating the number of 
Laguna Post-71 workers or for evaluating their exposure histories 
against their medical conditions.
    The apparent lack of enforcement of MSHA to compel companies to 
comply with protecting worker health during the ``commercial'' era, 
coupled with the lack of data on legally mandated exposures to Post-71 
workers, including Laguna workers, suggests a Federal responsibility in 
the development and lack of treatment of radiogenic disease patterns 
among the Post-71 workers. Congress could initiate a GAO inquiry into 
why miner exposure records were not reported, or if they were reported, 
why the data are not available or where they may be physically located. 
Once located, analyses of these data by MSHA and NIOSH would be 
justified to assess the relationship between exposures and health 
outcomes.
    Finally, Laguna members were also employed as ore haulers and 
uranium millers after 1971, but again, the exact number is not known. 
Two studies (Waxweiller et al., 1983; Thun et al., 1985) found an 
excess of kidney disease among Pre-1971 millers, but this excess was 
not apportioned between white and Native American millers. NIOHS 
concluded that additional research was needed to examine links between 
mill exposures and mortality from end-stage renal disease and non-
malignant lung diseases (Pinkerton and Bloom, 1997). Like Post-71 
miners, Post-71 ore haulers and millers should be eligible for the same 
screening benefits now afforded under RECA.
    The need to expand and fully fund the RECA program has come before 
the United States Congress on several occasions over the past 20-plus 
years, and that the issues addressed in this supplemental statement 
were raised in considerable detail in hearings in 1998 and 2004. In a 
June 25, 1998, hearing before the House Judiciary Committee, tribal 
representatives--including former Laguna Governor Roland Johnson--along 
with my SRIC colleague Wm. Paul Robinson, gave testimony and written 
materials addressing the need to cover Post-1971 workers among many 
issues. (See, Record of Hearing on H. R. 3539, Radiation Workers 
Justice Act of 1998 at http://commdocs.house.gov/committees/judiciary/
hju59930.000/hju59930_0f.htm.) On July 21, 2004, the Senate Judiciary 
Committee received testimony from Government officials on supplemental 
funding needed to address an expected shortfall in compensation 
benefits for the Pre-1971 uranium workers and downwinders. (See S. Hrg. 
108-883, An Overview of the Radiation Exposure Compensation Act, 
available at https://www.govinfo.gov/content/pkg/CHRG-108shrg25152/
html/CHRG-108shrg25152.htm). I recommend the Senate Indian Affairs 
Committee review the records for these hearings for additional and 
historic perspectives on Native American uranium workers.
Issue 2: Impacts on Pueblo of Laguna public health from exposures to 
        wastes on and around the Jackpile-Paguate Uranium Mine are 
        pervasive but require additional focused research.
    Although the data above provides strong evidence regarding health 
impacts to Pueblo of Laguna members, no comprehensive or even focused 
population-based studies have been conducted on Laguna Pueblo to 
ascertain if releases from the Jackpile Mine are associated with 
adverse health outcomes. By ``population-based'' studies, we mean 
studies that examine health status and exposures specifically among 
Laguna community members who volunteer. Ascertainment of exposure can 
be, and usually is, through a combination of personal interviews, 
environmental measures of contaminants in air, soil and water, personal 
monitoring of individual exposures to airborne, waterborne, and soil- 
and crop-borne contaminants, and collection and analysis of biological 
samples, typically blood and urine. As noted above, some Laguna members 
have had medical examinations associated with their occupational 
histories. Survivors among these individuals would be included in a 
population-based study if they volunteered.
    The UNM METALS Superfund Research Program (SRP), of which SRIC is a 
partner, conducted a Listening Session at Paguate Village on September 
12, 2019 and heard a wide range of concerns from residents about 
chronic health problems. Among the top concerns were:

  <bullet> Respiratory diseases, asthma, other breathing problems

  <bullet> Lung cancer and other cancers

  <bullet> Hypertension and cardiovascular disease

  <bullet> Potential health effects of ingesting crops grown in 
        contaminated soils or meat from livestock and game exposed to 
        mine wastes

    Residents overwhelmingly indicated that they would volunteer to 
participate in community-based health studies, interventions to lessen 
effects of exposures, and medical screening programs, especially if 
they were aimed at the generations that have followed the uranium 
workers of the 1950s through the 1980s. A summary of the major concerns 
expressed at the meeting was contained in an article published in the 
October 2019 edition of the TownCrier, the Laguna community newspaper. 
The METALS SRP will be summarizing and analyzing these responses in the 
coming months.
    That residents of Paguate have had multiple decades of exposures to 
releases from the Jackpile Mine that have occurred across multiple 
generations is not disputed. The METALS SRP group categorized these 
exposures by pathway--air, water, plants-animals, and a combination of 
pathways--in a poster prepared and presented at the September 2017 
Laguna Environmental Open House. The community concerns were derived 
from community meetings held at Mesita Village and Paguate Village in 
Fall 2016. A copy of the poster is Exhibit D to this memorandum.
    Concerns about dust settling on agricultural lands and crops were 
among the most frequent comments during those meetings. Impacts of dust 
from the mining and reclamation activities have been described in the 
published literature. For example, Paguate native June Lorenzo, Ph.D., 
reported observations about the impacts of these releases in a recent 
paper in the Journal of American Indian Education (2018):

         Paguate residents were exposed to the dust from daily blasting 
        that took place very close to the village. This blasting caused 
        damage to many of the traditional rock and adobe homes; a 
        common complaint by residents was cracked walls in their homes. 
        The side of the village with the plaza and two-story buildings, 
        dating back over 100 years, was closer to the uranium mine than 
        other areas of the village and sustained a lot of damage. Some 
        people eventually moved out of their traditional homes due to 
        damage from the explosions. . . [emphasis added].

    Indoor radon and surface gamma radiation rates were assessed by 
USEPA and its contractors in Laguna communities, including in Paguate, 
in 2010-2011 (Laguna ENRD, 2011). About a quarter of the 144 homes 
tested exceeded the EPA's indoor ``action level'' of 4.0 picoCuries per 
liter (pCi/l) during 7-days tests. Of 32 homes tested over a 91-day 
period, 72 percent exceeded the EPA action level. Mitigation measures 
were installed in at least 23 of the 143 homes tested for radon.
    According to EPA, indoor radon is the second leading cause of lung 
cancer in the U.S.(see, https://www.epa.gov/radon/health-risk-radon). 
Thus, the indoor radon observed in Paguate homes is a significant 
source of exposure and public health risk. Further, it should be noted 
that the World Health Organization (WHO) recommends taking action to 
reduce indoor Rn levels at a concentration of 2.7 pCi/l (see, https://
www.who.int/news-room/fact-sheets/detail/radon-andhealth). For 
comparison, my group--working with UNM-CEHP, the Navajo Nation 
Department of Health and the Navajo Area Indian Health Service on the 
federally funded Navajo Birth Cohort Study--has tested more than 800 
homes on the Navajo Nation for indoor radon since 2013, and found the 
average indoor concentration to be about 1.0 pCi/l. Only about 6 
percent of those homes had radon concentrations equal to or greater 
than 2.7 pCi/l, which is our ``referral'' level. For comparison, EPA's 
action level of 4.0 pCi/l carries a lifetime lung cancer risk 
equivalent to smoking between 1 and 2 packs of cigarettes a day.
    Previous opportunities to assess community health in a 
comprehensive and specific way through valid environmental health 
disciplines, involving toxicity and epidemiology, were missed. For 
example, the Draft Environmental Impact Statement for Reclamation of 
the Jackpile Mine (USDOI, 1985) stated that possible health impacts of 
mining on former miners and residents of Paguate, and any psychological 
effects on local residents from mine operations and closures, were not 
within the scope of the EIS. More recently, the Agency for Toxic 
Substances and Disease Registry (ATSDR, 2017) concluded in its Public 
Health Assessment (p. iv) that it did not have enough information to 
conclude whether past exposure of people living or spending time in the 
former mine housing area or in Paguate Village could harm their health.
    ATSDR's Public Health Assessment and risk assessments performed by 
USEPA at Superfund sites like the Jackpile-Paguate Mine use available 
environmental monitor data for comparison with regulatory standards to 
develop an understanding of the potential public health risks of CERCLA 
sites. Such risk assessments are not population-based public health 
studies, though, which, as noted above, include some form of surveying, 
environmental and biomonitoring. Accordingly, it is vitally important 
that Congress ensure that public health studies are conducted by 
qualified academic institutions with a track record of having conducted 
rigorous environmental health research, in collaboration with such 
federal agencies as the National Institutes of Health and National 
Institute of Environmental Health Sciences.
Issue 3: Recent research documents ongoing impacts of releases from the 
        Jackpile Mine to Laguna water resources.
    Numerous environmental studies on the Jackpile Mine have been 
conducted by various agencies over the past five decades. Those studies 
are in the record of EPA's designation of the mine as a National 
Priorities List Superfund site in December 2013. In this section, I 
discuss just a few of the recent studies conducted by colleagues at the 
UNM METALS Superfund Research Center. Our group is available to provide 
the Committee with additional, detailed documentation of the studies 
and their findings discussed here briefly.
    The UNM METALS group conducted surface water studies in the Rio 
Paguate both upstream of the Village of Paguate and in stream segments 
inside of the Jackpile lease area and farther downstream in Paguate 
Reservoir behind Mesita Dam between 2014 and 2017. Grab samples were 
also taken from the Rio San Jose upstream of the mine in Old Laguna and 
downstream of the mine in Mesita. Field work to support those studies 
was subject to applicable permits from the Pueblo of Laguna and was 
conducted in collaboration with Laguna ENRD.
    The UNM researchers, led by geochemist Johanna Blake (now with the 
U.S. Geological Survey) and Professor Jose Cerrato, an environmental 
engineer, investigated the mobility of uranium in water and 
accumulation in sediments along the Rio Paguate and in the wetlands of 
Paguate Reservoir, located 5 kilometers (about 3.1 miles) south of the 
Jackpile Mine (Blake, et al., 2017). (See, also, Exhibit E, UNM METALS 
Research Brief 3.) Dr. Blake and colleagues found that ore and mine 
wastes on the surface of the Jackpile Mine were the source of high 
concentrations of uranium in the Rio Paguate surface water. They also 
found that the concentration of uranium in the Rio Paguate varies 
seasonally, with higher concentrations (up to more than 700 micrograms 
per liter, or nearly 25 times greater than the federal drinking water 
standard of 30 micrograms per liter) observed during the summer monsoon 
season runoff. While the uranium concentration in surface water 
decreases downstream of the mine, the uranium itself was found to 
accumulate in organic-rich sediments in the Paguate Reservoir wetland. 
\2\
---------------------------------------------------------------------------
    \2\ It should be noted that sampling in the Rio Paguate upstream of 
the village, and therefore, upstream of the Jackpile Mine, found very 
low concentrations of uranium--about 2 micrograms per liter--in 
multiple tests between 2014 and 2017. All other water quality 
parameters were similarly low, indicating that water running off the 
eastern flank of Mt. Taylor is of high quality before the passes 
through the backfilled North Pit.
---------------------------------------------------------------------------
    These recent findings are consistent with studies conducted in the 
late 1970s when the Jackpile Mine was operating. New Mexico Bureau of 
Mines and Mineral Resources researchers found increased concentrations 
of uranium, other metals and radioactive elements derived from the 
decay of uranium in the bottom sediments of the Reservoir (Popp, et 
al., 1983). Studies by the U.S. Geological Survey during the same time 
period also detected elevated concentrations of uranium and other trace 
metals in surface water as it passed through the mine (Zehner et al., 
1985). These studies, spaced 35 to 40 years apart, document continuing 
impacts of the mine on Laguna water sources, even long after mining 
stopped and initial reclamation was conducted.
    UNM researchers have also found that some stream-side vegetation, 
especially salt cedars, is concentrating uranium in plant roots (El 
Hayek, et al., 2018). Calcium in the water and sediments appears to 
increase uptake of uranium, suggesting that the nuisance specie could 
be used as a phytoremediation method.
    The UNM METALS group, led by Drs. Adrian Brearley and Matthew 
Campen, is also assessing the presence and toxicity of 
``nanoparticles'' containing uranium, vanadium and other metals in tiny 
clusters in mine wastes (Exhibit F, METALS Research Brief 2.1, 2019). 
These clusters are very small, less than 1 micron, but consist of many 
even smaller particles that can be broken off and potentially 
transported by air separately or attached to other dust particles. A 
micron is onemillionth of a meter; for comparison, a human hair is 
about 50 microns in diameter. Generally, particles 2.5 microns or less 
can be inhaled deeply into the lung where they may cause damage to the 
breathing sacs. Recent laboratory animal studies showed indications of 
cardiopulmonary toxicity in mice exposed to dusts collected near an 
abandoned uranium mine on the Navajo Nation in northwestern Arizona 
(Zychowski, et al., 2018; available at https://academic.oup.com/toxsci/
article/164/1/101/4962180). And recent meteorological data collected by 
Dr. Campen and colleagues at the AirCare1 mobile lab, stationed in 
Paguate next to the North Pit, showed that winds are coming from the 
mine toward the lab--and therefore, toward the village--about 30 
percent of the time.
    These preliminary findings could provide an environmental link to 
self-reported respiratory disease among Paguate residents, and gives 
added weight to the need for public health studies in Paguate and other 
Laguna villages impacted by the Jackpile Mine.
    REFERENCES
    Agency for Toxic Substances and Disease Registry (ATSDR). Public 
Health Assessment, Jackpile-Paguate Uranium Mine, Laguna Pueblo, 
Laguna, Cibola County, New Mexico, EPA Facility ID: NMN000607033, 
November 2017. Available at: https://www.atsdr.cdc.gov/HAC/pha/
JackpilePaguate/JackpilePHAPublicComment_508.pdf.

    Assad, N, Wigh S, Kocher K, Shore X, Myers O, Moreno M, Karr R, 
Armstrong E, Cook KS, Sood A. Post-1971 Era Uranium Workers in New 
Mexico Have Significant Lung Disease Burden. AnnalsATS Volume 16 Number 
41, April 2019.

    Blake JM, DeVore CH, Avasarala S, Ali AM, Roldan C, Bowers F, 
Spilde MN, Artyushkova K, Kirk MF, Peterson E, Rodriguez-Freire L, 
Cerrato JM. Uranium mobility and accumulation along the Rio Paguate, 
Jackpile Mine in Laguna Pueblo, NM. Environmental Science: Process and 
Impacts, 2017. DOI:10.1039/c6em00612d.

    Congressional Research Service. The Radiation Exposure Compensation 
Act (RECA): Compensation Related to Exposure to Radiation from Atomic 
Weapons Testing and Uranium Mining. https://crsreports.congress.gov, 
R43956; Updated June 11, 2019.

    El Hayek E, Torres C, Rodriguez-Freire L, Blake JM, DeVore CL, 
Brearley A, Spilde MN, Cabaniss S, Ali AS, Cerrato, JM. Effect of 
Calcium on the Bioavailability of Dissolved Uranium(VI) in Plant Roots 
under Circumneutral pH. Environmental Science & Technology, 2018.

    Evers L, Lucero C, Lucero L, Martinez Y, Sparkman G. Post-71 A 
Survey of Former Uranium Workers. Post-71 Uranium Workers Committee, 
August 2009.

    Kocher E, Wigh S, Wilson-Boyce T, Myers O, Evans K, Cook L, Sood A. 
Post-71 Uranium Industry Workers Have a Similar Radiologic Lung Disease 
Burden to Pre-1971 Workers. American Thoracic Society Conference, 2017.

    Laguna ENRD. EPA Structure Assessment Project -Pueblo of Laguna, 
New Mexico. Presented by Environmental and Natural Resources Department 
staff at the Tribal Lands Forum in Green Bay, WI in August 2011.

    Lewis J, Gonzales M, Burnette C, Benally M, Seanez P, Shuey C, Nez 
H, Nez C, Nez S. Environmental Exposures to Metals in Native 
Communities and Implications for Child Development: Basis for the 
Navajo Birth Cohort Study. Journal of Social Work in Disability & 
Rehabilitation (2015), 1-25. DOI: 10.1080/1536710X.2015.1068261. 
Available at: https://www.tandfonline.com/doi/abs/10.1080/
1536710X.2015.1068261.

    Lorenzo JL. Paguate Village Attitudes and Beliefs on Preservation 
and Renovation of Traditional Structures: Remembering Our Connection to 
Our Mother. Journal of American Indian Education, 2018, 55(3), 91-110.

    Madeson F. NM House, Senate memorials pass in support of uranium 
miners. Navajo Times, March 9, 2017.

    METALS Research Brief 2.1. Super-tiny particles containing uranium 
and other metals found in Jackpile Mine wastes. UNM METALS Superfund 
Research Center, September 2019.

    Pinkerton LE, Bloom TF. National Institute for Occupational Safety 
and Health. Letter to Kate Sweeney, National Mining Association. 
Cincinnati: Centers for Disease Control, National Institute for 
Occupational Safety & Health, January 17, 1997.

    Popp CJ, Hawley JW, Love DW. Radionuclide and Heavy Metal 
Distribution in Recent Sediments of Major Streams in the Grants Mineral 
Belt, N.M. Socorro: New Mexico Bureau of Mines and Mineral Resources, 
prepared for the U.S. Office of Surface Mining, Glll5352 (1981-82), 
1983. Available at https://www.yumpu.com/en/document/view/15484953/
radionuclide-and-heavymetal-distribution-in-recent-sediments-of-

    Post-71 Uranium Workers Committee. Zehner HH. Hydrology and Water 
Quality Monitoring Considerations, Jackpile Mine, Northwestern New 
Mexico. U.S. Geological Survey, Water- Resources Investigations Report 
85-4226 (USGS WRI 85-4226). Available at: http://pubs.usgs.gov/wri/
1985/4226/report.pdf.

    Schubauer-Berigan MK, Daniels RD, Pinkerton LE. Radon Exposure and 
Mortality Among White and American Indian Uranium Miners: An Update of 
the Colorado Plateau Cohort. American Journal of Epidemiology (February 
10, 2009), 169:6. DOI: 10.1093/aje/kwn406.

    Thun MJ, Baker DB, Steenland K, Smith AB, Halperin W, Berl T. Renal 
toxicity in uranium mill workers Scand J. Work Environ. Health. 1985;11 
:83-90.U.S.Department of the Interior. Draft Environmental Impact 
Statement for Jackpile-Paguate Uranium Mine Reclamation Project. Bureau 
of Land Management, BLM-NM-ES-85-001-4134, February 1985.

    U.S. Environmental Protection Agency. Technical Report on 
Technologically Enhanced Naturally Occurring Radioactive Materials from 
Uranium Mining, Volumes 1 and 2: Washington, DC: Office of Radiation 
and Indoor Air Radiation Protection Division, 2008. (Available at: 
https://www.epa.gov/sites/production/files/2015-05/documents/402-r-08-
005-v1.pdf.)

    Waxweiler RJ, Archer VE, Roscoe RJ, Watanabe A, Thun MJ. Mortality 
patterns among a retrospective cohort of uranium mill workers. In: 
Epidemiology Applied to Health Physics, Proceedings of the Sixteenth 
Midyear Topical Meeting of the Health Physics Society, Albuquerque, New 
Mexico, January 9-13, 1983;428-435.

    Zychowski KE, Kodali V, Harmon M, Tyler CR, Sanchez B, Suarez YO, 
Herbert G, Wheeler A, Avasarala S, Cerrato JM, Kunda NK, Muttil P, 
Shuey CL, Brearley A, Ali AM, Lin Y, Shoeb M, Erdely A, Campen MJ. 
Respirable Uranyl-Vanadate-Containing Particulate Matter Derived From a 
Legacy Uranium Mine Site Exhibits Potentiated Cardiopulmonary Toxicity. 
Toxicological Sciences, 2018, 1-14; doi: 10.1093/toxsci/kfy064.
                                 ______
                                 
 Prepared Statement of Kathy Sanchez, Environmental Health and Justice 
                   Program Manager, Tewa Women United
    We, from the Northern Pueblos of New Mexico ,are Downwinders of Los 
Alamos National Laboratory (LANL), which began operations in April1943 
to create the first atomic bomb. The proposed amendments to the 
Radiation Exposure Compensation Act (RECA), Senate Bi11947 and House 
Bill 3783, begin coverage for overexposure to radiation on June 30, 
1945. They do not cover those overexposed to radiation from early 
operations of LANL.
    We respectfully request that the eligibility period for Downwinders 
in New Mexico begin on April 20, 1943, when the University of 
California signed a contract with the U.S. Army Corps of Engineers to 
operate the secret laboratory on the Pajarito Plateau in the Jemez 
Mountains of Northern New Mexico. We have orally handed down and first 
hand expert testimony from our 1st generation relatives who worked 
during the creation of the bombs in our sacred Jemez Mountain 
homelands. We have felt and still feel the spirit core of our beings 
was invaded and shattered as nuclear energy is invasive and has no 
boundaries of time and space of radical disturbance of death and 
destruction. Our generational cells hold cancerous decaying smells.
    We offer the following to support our request to expand the 
eligibility period from April 20, 1943:

        1.  In 1999, the Centers for Disease Control and Prevention 
        (CDC) began a multi-year study, called the Los Alamos Historic 
        Document Retrieval and Assessment (LAHDRA) Project. The CDC and 
        its contractors reviewed the materials in 40,000 boxes of 
        documents, as well as microfiche, and other electronic data 
        storage devices.
         We, Tewa Women United were part of the collaborative 
        organization called Las Mujeres Hablan and have been involved 
        in the LAHDRA process since 1999, when CDC and its contractors 
        held their first public meeting in Taos, New Mexico.

        2.  Chapter 16 of LAHDRA provides a Partial Chronology of 
        Accidents, Incidents, and Events at LANL. Some of the incidents 
        of interest include chemical releases, fires, explosions, 
        radiation exposures to workers, and other notable accidents 
        that occurred at LANL. The accidents that are potentially 
        relevant to off-site releases or health effects are of 
        particular importance.'' ld., p. 16-1.
         The researchers reviewed over 30,000 pages in over 500 
        documents to compile Table 16-1 Partial Chronology of 
        Accidents, Incidents, and Important Events at LANL.
         Between 1944 and 1962, a total of 254'radioactive lanthanum 
        (RaLa) experiments were conducted in Bayo Canyon using 301 ,802 
        Curies. ll;L,, p. 9-11.
         The first listed incident is RaLa Shot No. 1 on September 21, 
        1944. It involved approximately 25 to 60 Curies, with an 
        explosive charge of 201 to 350 lbs. No sampling is reported.
         In all, 30 RaLa shots took place before June 30, 1945, 
        utilizing a maximum of 1 060 Curies, with an explosive charge 
        of between 601 to 750 lbs. Sampling was focused on Technical 
        Area 1 (TA-1). The first mention of sampling in Espanola, 
        downwind of LANL, is for RaLa Shot No. 158 on August 29, 1952.
         Contamination was found above and below background in Espanola 
        on:

  <bullet> August 5, 1954 (RaLa Shot No. 168-1500 Curies with an 
        explosive charge of 101 to 200 lbs.),

  <bullet> September 16, 1954 (no fallout above background was 
        detected) (RaLa Shot No. 170-300 Curies with an explosive 
        charge of 101 to 200 lbs.),

  <bullet> November 16, 1954-2440 Curies with an explosive charge of 
        101 to 200 lbs.),

  <bullet> October 19, 1955 (RaLa Shot No. 192-2000 Curies with an 
        explosive charge of 101 to 200 lbs.),

  <bullet> October 26, 1955 (RaLa Shot No. 193-3987 Curies with an 
        explosive charge of 101 to 200 lbs.),

  <bullet> November 3, 1955 (RaLa Shot No. 194-3500 Curies with an 
        explosive charge of 101 to 200 lbs.),

  <bullet> April12, 1956 (RaLa Shot No. 204-3740 Ci with an explosive 
        charge of 20-100 lbs.),

  <bullet> March 29, 1957 (RaLa Shot No. 219-3079 Curies with an 
        explosive charge of 20 to 100 lbs.),

  <bullet> April17, 1957 (RaLa Shot No. 220-3249 Curies with an 
        explosive charge of 101 to 200 lbs.),

  <bullet> April 2, 1959 (RaLa Shot No. 236-980 Curies with an 
        explosive charge of 20 to 100 lbs.)

    LANL conducted some calculated dose assessments studies for its 
personnel, finding the largest dose of 17 mrem in 1955. None of the 
LANL studies were independently critiqued by the LAHDRA team. p. 9-10. 
We understand that no study of the cumulative effects of exposure to 
the radioactive lanthanum experiments by the residents of the downwind 
and downstream communities has been done.
    CITATIONS:
    Beata Tsosie-Pena is the author of the Community Introduction to 
the LAHORA Report, Final Report of CDC's LAHDRA PROJECT, pp. i-iii. 
https://wwwn.cdc.gov/LAHDRA/Contentlpubs/
Finai%20LAHDRA%20Report%20201O.pdf

        3.  Introduction to Community Summary of CDC's LAHDRA Project, 
        pp. i-iii. https://wwwn.cdc.gov/LAHDRA/Content/pubs/
        Final%2OLAHDRA%20
        Community%20Summary_December%2002%20201O.pdf

         Demonstrated citations which show the amount of plutonium 
        emissions at LANL:

         The final June 2009 LAHDRA draft report states:

         ''If airborne plutonium releases from DP West Building 12 
        stacks between 1948 and 1955 were as high as the 1956 reports 
        by the Lab's industrial hygiene staff indicate, plutonium 
        releases from LANL could easily exceed the independently 
        reconstructed airborne plutonium release totals from the 
        production plants at Hanford, Rocky Flats, and Savannah River 
        combined, even without the other sources and other years at 
        LANL included.'' ES-11, Draft Final Report of CDC's LAHORA 
        Report--Executive Summary.

         Unfortunately, the final November 2010 LAHDRA report was 
        modified by a new project leader to mask the facts to read:

         ''Using only LANL summaries of DP West Building 12 stacks 
        alone, and correcting the sample line loss and filter burial 
        (corrections that LANL failed to apply when the data was 
        compiled in the 1970's), the releases greatly exceed the 
        independently established total releases from routine 
        operations for all other DOE plutonium production facilities.'' 
        ES-14, Final Report of CDC's LAHDRA Project--Executive Summary.

    Given that LANL operations continue to emit pollution into the air, 
discharges to surface and ground water, and burials of radioactive, 
toxic, and hazardous wastes above the drinking water aquifer and the 
Rio Grande, we respectfully request that the proposed amendments to the 
Radiation Exposure Compensation Act extend the eligibility period from 
April 20, 1943, when LANL operations began. This is when our men and 
women were taken up to the laboratory operations to work in removing 
the highly contaminated experimented and exposed materials. I as a 
child went with my aunties to clean the homes of the scientists. My 
memory of sacred mountains and life bloods of Mother Earth need to be 
honored.
    I have included maps and other information as attachments. Thank 
you. *
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
                                 ______
                                 
    Prepared Statement of Jerry Benally, President, Navajo Uranium 
                      Radiation Victims Committee
    Congress needs to pass the Radiation Exposure Act Amendments to 
provide fair and practical compensation to those who suffered the 
consequences of our nation's radiation and nuclear history. I urge to 
bring the Senate Bill and House Resolution forward in Congress.
    It is long past time for our families and friends to be compensated 
for their radiation exposures as down winders, uranium miners, post 71 
miners and others.
    My personal comments: We the people are stilt being jacked around. 
Our point is simple. People are dying do to the rules and regulations 
of the (1) one year duration of work and 40 working level months 
because they don't qualify. Research has proven (1) one month of work 
in a uranium mine exposes miners to radiation. (Seidman, Selikoff 
Etal.1979) and see (Goldyn, Condos Etal, 2008) The working level months 
needs to be reduce to 10 WLM and duration of work to 3 months. We 
demand these changes to be included in the 2019-2020 Radiation Exposure 
Compensation Act.

                                  <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
